<html>
<title> - ESEA REAUTHORIZATION: SCHOOL TURNAROUND</title>
<body><pre>[Senate Hearing 111-1113]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1113

                ESEA REAUTHORIZATION: SCHOOL TURNAROUND

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING ELEMENTARY AND SECONDARY ACT (ESEA) REAUTHORIZATION, FOCUSING 
                          ON SCHOOL TURNAROUND

                               __________

                             APRIL 13, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
56-034 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
SHERROD BROWN, Ohio                  ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania   LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina         TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                 PAT ROBERTS, Kansas
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado


                      Daniel Smith, Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)






                           C O N T E N T S

                               __________

                               STATEMENTS

                        TUESDAY, APRIL 13, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     2
Klein, Joel I., Chancellor, New York City Public Schools, New 
  York, NY.......................................................     5
    Prepared statement...........................................     7
Donohue, Beverly, Vice President of Policy and Research, New 
  Visions for Public Schools, New York, NY.......................    13
    Prepared statement...........................................    15
Balfanz, Robert, Ph.D., Associate Research Scientist, Center for 
  Social Organization of Schools and Associate Director of the 
  Talent Development Middle and High School Project, Baltimore, 
  MD.............................................................    18
    Prepared statement...........................................    21
Mitchell, Timothy, Ed.D, Superintendent of Schools, Chamberlain 
  School District 7-1, Chamberlain, SD...........................    26
    Prepared statement...........................................    28
Petruzzi, Marco, Chief Executive Officer, Green Dot Public 
  Schools, Los Angeles, CA.......................................    33
    Prepared statement...........................................    35
Alexandar, Hon. Lamar, a U.S. Senator from the State of Tennessee    45
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    51
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    54
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    56
Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska....    58
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    60
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................    65
Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon......    67

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    American Institute for Research (AIR)........................    74

                                 (iii)

  

 
                ESEA REAUTHORIZATION: SCHOOL TURNAROUND

                              ----------                              


                        TUESDAY, APRIL 13, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:12 p.m. in Room 
SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
Chairman of the committee, presiding.
    Present: Senators Harkin, Dodd, Bingaman, Murray, Casey, 
Hagan, Merkley, Franken, Bennet, Enzi, Alexander, Burr, 
Isakson, and Murkowski.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    I would like to thank all of you for being here today as we 
continue to discuss reauthorization of the Elementary and 
Secondary Education Act.
    In our two previous hearings, we gained valuable insight 
into the need for education reform in order for our country to 
remain globally competitive. We heard from Education Secretary 
Arne Duncan about the Obama administration's views on how to 
best meet this challenge.
    This afternoon we will hear from experts on turning around 
under-performing schools. Without question, turning around 
chronically under-performing schools, schools that consistently 
fail to educate the children entrusted to their care, is one of 
the great moral economic and civil rights imperatives of our 
day.
    The Department of Education estimates that there are 
approximately 5,000 of these chronically under-performing 
schools across the country. That is about 5 percent of our 
total public schools. These schools are attended largely by 
minority and low-income students. Mr. Bob Balfanz of Johns 
Hopkins, who is one of our witnesses, has identified almost 
2,000 high schools with graduation rates of less than 60 
percent. Sixty-nine percent of all African-American and 63 
percent of all Hispanic dropouts come from these 2,000 schools.
    Turning around chronically low-performing schools is a 
daunting challenge for States, school districts, 
administrators, and teachers. These schools are often the most 
under-resourced and, as a consequence, often lack the capacity 
to implement reform strategies. They are often also filled with 
students who face major challenges to success, including 
poverty or limited English proficiency. These schools need more 
resources than the average school, yet typically have fewer 
resources.
    Despite these challenges, a number of schools, and in some 
cases entire school districts, have had remarkable success in 
improving student achievement. We need to learn from these 
powerful turnaround examples. For example, in 2006, the Harvard 
School of Excellence in Chicago ranked among the 10 worst 
elementary schools in the State of Illinois. After implementing 
a reform strategy focused on strong leadership, highly trained 
and effective teachers, curriculum changes, improved 
accountability measures, and school cultural transformation, 
the number of students meeting State testing standards 
increased by 25 percent in just 2 years. Now, this is just one 
example of how school turnaround has been done. We need to 
scale these up and implement this all over the country, and it 
will be a priority focus in our ESEA reauthorization.
    Our witnesses today will share their experiences in 
implementing school improvement strategies that have resulted 
in sustainable student achievement. Their testimony will be 
extremely valuable to us as we work together on a bipartisan 
basis to craft an ESEA reauthorization designed to get 
America's lowest performing schools back on track.
    I will now turn to my very capable partner in this 
reauthorization, Senator Enzi, for his opening statement, and 
then we will introduce our witnesses.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman, and I want to thank 
you for your diligent work in moving us along on fixing No 
Child Left Behind, which we are calling the Elementary and 
Secondary Education Act. It is an old version of the name, and 
I am sure we are going to have a new name here before long.
    We have worked to create a diverse witness list to share 
best practices and research with this committee, and I look 
forward to learning more from each of you this afternoon. The 
knowledge and practice that you bring to the table will help 
us, as we move forward, to develop legislation that builds upon 
what we have learned from No Child Left Behind and fixes what 
has not been working.
    There are two issues I will focus on as we reauthorize ESEA 
related to school improvement and turnaround activities. First 
and foremost is the impact these mandated Federal turnaround 
models could have on rural and frontier schools and school 
districts. The second is the research base used to determine 
whether these models have been proven to be effective at 
turning around low-performing schools.
    Rural and frontier schools and school districts are unique 
and often need unique solutions to their unique problems. To 
illustrate the size of Wyoming, I often tell people it is one 
of the big States, but we only have 14 cities in the State of 
Wyoming where the people exceeds the elevation.
    [Laughter.]
    This means that we have a lot of families and students 
spread out over a very large area. Wyoming is lucky to have 
many superintendents, principals, and teachers like Dr. 
Mitchell who are dedicated to serving students in small and 
rural areas across my State.
    Now, why are these students so spread out? It is because 
our towns are a long way apart. We do have a policy in Wyoming 
that grade school students should not have to travel more than 
40 miles by bus each way and junior high students should not 
have to travel more than 60 miles each way. That means we have 
schools with as few as one student and some of them as big as 
15 students that are out in the very frontier areas.
    I am very concerned that requiring school districts to use 
one of the four school turnaround models for schools identified 
for school improvement will adversely affect rural or frontier 
schools. I support accountability and believe it is important 
to identify the poorest performing title I schools and require 
specific actions to spur dramatic improvement in those schools.
    That said, some flexibility needs to be given to rural and 
frontier schools that simply cannot meet these strict Federal 
requirements. Rural and frontier schools need to identify and 
adopt turnaround strategies that will have a dramatic impact 
and increase student achievement, but I do not believe that all 
of these strategies can be identified or mandated from 
Washington.
    Many schools in Wyoming do not have access to turnaround 
partners such as the New Visions for Public Schools and do not 
have charter operators, such as Green Dot, that are either 
willing or able to open schools in remote areas. It is often 
difficult to recruit principals and teachers to rural areas who 
will stay for an extended period of time.
    Let me be clear that I am not proposing to give rural and 
frontier schools a free pass. Strategies mandated from 
Washington will simply not solve the problems facing these 
schools. I believe it is incumbent upon us to work with State 
and local superintendents, principals, and teachers from the 
rural States, school districts, and schools to find options 
that would work when balanced with an appropriate amount of 
flexibility from the Federal level.
    I also believe it is important for Congress to understand 
the research behind each of the turnaround models. It is my 
understanding from the research community that the knowledge 
base for how to turn around low-performing schools is pretty 
shallow. The scientific evidence or research for the four 
interventions proposed by school improvement grants is, at 
best, sketchy. Again, this causes me concern because there is 
no research on turnaround efforts in rural schools and school 
districts. If we are going to mandate interventions from the 
Federal level, we need to be clear about why we are mandating 
such reforms and what evidence we have for our actions. 
Otherwise, I worry we will not be learning from No Child Left 
Behind and are just repeating our mistakes.
    I want to welcome all of our witnesses and thank them for 
being with us today to share your experiences. I look forward 
to learning more from each of you today and the efforts you 
have undertaken to improve academic achievement outcomes for 
children across the country.
    I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Enzi. We will 
leave the record open at this point for any statements by any 
other Senators.
    Now I will introduce our witnesses so we can get going. 
First, we have, starting from my left, working to the right, 
Joel Klein, the Chancellor of the New York City Public Schools, 
the largest school district in the entire United States. Mr. 
Klein became New York City Schools Chancellor in July 2002 
after serving in a variety of high-level positions in both 
government and business, including the Assistant Attorney 
General in the Antitrust Division of the U.S. Department of 
Justice where I first met Mr. Klein. As Chancellor, he oversees 
over 1,600 schools with 1.1 million students, 136,000 
employees, and a $21 billion operating budget. Mr. Klein will 
share the school turnaround approaches he has used and provide 
lessons learned at the district level.
    Next we have Beverly Donohue, Vice President of Policy and 
Research at New Visions for Public Schools in New York City. 
Ms. Donohue has extensive experience from New York City 
government where she held positions as Chief Financial Officer 
for the public school system and as Deputy Director of the New 
York City Office of Management and Budget. She will discuss the 
work she has done with New Visions, a school turnaround partner 
to more than 76 public schools serving more than 34,000 
students in New York City.
    Next we will hear from Mr. Robert Balfanz, who I mentioned 
earlier, the Co-Director of the Talent Development middle 
grades and high schools programs and co-operator of Baltimore 
Talent Development High School, an innovation high school 
operated in partnership with the Baltimore City Public Schools. 
Dr. Balfanz has published widely on secondary school reform, 
high school dropouts, early warning systems, and instructional 
interventions in high-
poverty schools. Dr. Balfanz will share his expertise on 
implementing reform in high-poverty schools and on addressing 
the problems of dropouts in middle and high schools.
    Next we will hear from Timothy Mitchell, Superintendent of 
Schools in Chamberlain School District 7-1, located in 
Chamberlain, SD. Dr. Mitchell has both researched and practiced 
innovative leadership in rural school districts. He was one of 
nine rural superintendents selected by the American Association 
of School Administrators to meet with Secretary Duncan to 
provide feedback on improvement strategies in rural areas. Dr. 
Mitchell will speak to the unique challenges faced by rural 
schools in implementing school turnaround strategies.
    Not to be outdone by my friend from Wyoming, I went to a 
grade school where in one room we had kindergarten, first, 
second. In the next room, we had the third, fourth, and fifth, 
and in the next room, the ``big room,'' as we called it, was 
sixth, seventh and eighth. In my eighth grade class, there were 
six of us. That is pretty darned rural.
    Finally, Marco Petruzzi will wrap up our testimony, the CEO 
of Green Dot Public Schools in Los Angeles, CA. Green Dot has 
opened 18 successful charter high schools in the highest-need 
areas of Los Angeles, including eight as part of its turnaround 
of Locke High School in Watts. Prior to joining Green Dot, Mr. 
Petruzzi was a partner at Bain and Company where he led a pro 
bono consulting project to develop a model for the 
transformation of overcrowded, under-performing urban public 
schools. He will speak about district improvement models that 
involve charter schools and the conditions that are necessary 
for such efforts to be successful.
    I thank all of you for your history of involvement in 
education. I thank you all for being here today from long 
distances away and for your being willing to get involved in 
this most important bill that we are doing, that is the 
reauthorization of the Elementary and Secondary Education Act.
    Again, let me start with my longtime friend and the 
Chancellor of the New York City Schools, Mr. Joel Klein. 
Welcome back, Mr. Klein.

 STATEMENT OF JOEL I. KLEIN, CHANCELLOR, NEW YORK CITY PUBLIC 
                     SCHOOLS, NEW YORK, NY

    Mr. Klein. Thank you, Mr. Chairman. It is a privilege to be 
here. Senator Enzi, members of the committee, I want to thank 
you for the opportunity to discuss the reauthorization of the 
ESEA and to talk about New York City's approach to school 
turnaround, something we have been engaged in----
    The Chairman. Mr. Klein, before you start, would you reset 
that for 7? We will set it for about 7 minutes, but if you go 
over, do not worry about it. I will say at the outset, all your 
statements will be made a part of the record in their entirety. 
If you could sum it up in 5, 6, 7, 8. If you go over 8 or 9 
minutes, I will get a little nervous.
    Mr. Klein. It will not be the first time you have done this 
to me. So go right ahead. You are familiar with my history.
    In New York City, we have no school that is where the 
people are higher than the altitude, or vice versa.
    Over the past 8 years, we have been engaged, in New York 
City, in a very rigorous turnaround strategy, and I commend the 
President for setting out this challenge. No Child Left Behind 
brought long overdue accountability to public education and it 
cast a spotlight, an important spotlight, on the shameful 
achievement gap between our African-American and Latino 
students on the one hand and our White students on the other 
that really has gone unaddressed for generations. The law 
rightfully demanded that all children, regardless of background 
and demographics, have access to a high quality education. I 
believe the Senate, as well as the other elected officials who 
brought us together in a bipartisan fashion to get NCLB done, 
deserve great credit.
    That said, as Senator Enzi said, there is widespread 
consensus that NCLB can and must be improved. Its focus on 
absolute achievement instead of on student progress labeled 
many schools as failing even when students were making 
significant gains. Moreover, it takes years under NCLB before 
interventions are mandated in struggling schools, and even 
longer before real restructuring is required. Sometimes as many 
as 6 or 7 years can go by with missing annual yearly progress, 
years when a student's future is on the line. NCLB requires 
very little to be done about it. This has allowed districts 
like mine to implement so-called restructuring initiatives that 
amount to tinkering around the edges while our students are 
falling through the cracks.
    The U.S. Department of Education's Blueprint for ESEA 
addresses some of these shortcomings, and I commend Secretary 
Duncan. I believe this is a step in the right direction.
    The proposed changes would require schools to show that 
they are helping students gain ground rather than holding all 
schools to the same uniform expectations. We have used a system 
like that in New York City for the past several years, and it 
has allowed us really to compare apples to apples and recognize 
schools doing excellent work while serving challenging 
populations.
    I am happy to say I worked closely with Senator Bennet when 
he was the Denver Superintendent to implement a similar system 
in Denver, and he was an extraordinary national leader as 
superintendent in Denver.
    It also enables us to identify, when we compare apples to 
apples, those schools that are persistently low-performing and 
requires us to make the difficult decision to replace those 
failing schools with better options.
    As part of our overall strategy, replacing failing schools 
has helped us to get real results in New York City. In 2009, 
our graduation rate, while still too low, reached an historic 
high of 63 percent after a decade of stagnation when it was 
flat. The graduation rate has increased for 8 consecutive years 
under Mayor Bloomberg. In the past 4 years, from 2005 to 2009, 
it has gone up by 12.5 points. In New York City, when you are 
talking about something like that, you are really talking about 
thousands and thousands of kids. During the same 4-year period, 
our dropout rate has gone from over 22 percent down to just 
under 12 percent. These gains have been achieved across all our 
demographic groups, with our African-American and Latino 
students making the greatest progress.
    Much of the progress reflects the efforts of talented 
educators who share our belief that the status quo is not good 
enough in public education. It also demonstrates the commitment 
of our students and their families who know that when it comes 
to education, hard work brings great rewards.
    Some of the progress, however, reflects effective 
initiatives to turn around failing schools. And I want to be 
candid. Those are always more controversial. When we see that a 
school is not meeting standards in New York, we intervene to 
support improved outcomes. We have used a variety of 
strategies, strategies well known to my colleagues, including 
putting in a new highly trained principal, organizing a large 
school into small learning communities, providing extensive 
professional development for our teachers, and introducing 
mentoring and tutoring services.
    Yet, sometimes in some schools, the outcomes do not change 
or sometimes, unfortunately, conditions deteriorate. As a city 
and a country, we must then ask--and this is a question I want 
to ask the committee--when should we stop sending children to a 
place that is unlikely to prepare them for life beyond high 
school? When is it simply too immoral to consign students to 
the prospect of failure by sending them to schools where none 
of us would ever send our own children? Those are the questions 
I have asked myself as Chancellor over the past 8 years.
    When our best efforts are not working to turn around these 
failing schools, we must take more dramatic steps, even though 
they will prove controversial. In New York, we have a solid 
track record--and there is evidence and there is research to 
support our work--of replacing low-performing schools with 
better options. We have worked with New Visions, who you will 
hear from shortly from Beverly, but with other groups as well.
    Our approach to closing schools differs from many other 
parts of the country. We do not padlock buildings or 
immediately transfer current students elsewhere. Instead, we 
gradually phase out school organizations without adding new 
students until the final class graduates. Simultaneously, we 
begin to introduce replacement school organizations into the 
building. That strategy has fundamentally improved the 
opportunities for our kids.
    Since 2002, we phased out 91 schools and replaced them with 
400 new schools that are out-performing our other schools 
citywide. Our new schools have an average graduation rate of 75 
percent even though they serve some of the city's highest-need 
students. That is better than our city average. They often have 
new leaders, many new teachers, and so forth.
    Let me give you a concrete example before I wrap up. In 
September 2003, we began to phase out the Bushwick High School 
in Brooklyn, which had a historic under-performance and an 
abysmal 23 percent graduation rate. Today there are four new 
schools thriving in that same building with an average 
graduation rate of 72 percent.
    As I have said, there will always be resistance to change 
at this scale, but sometimes when a school has experienced 
sustained failure, the only way to transform it is through real 
and fundamental transformational change. We believe, therefore, 
that ESEA must include explicit consequences for persistently 
low-performing schools. Real reform will not occur without this 
committee's leadership. There are powerful groups that will 
advocate for the status quo despite abundant evidence that the 
current system is not getting the job done for too many 
students.
    Mr. Chairman, again, thank you for the opportunity to 
present to you today.
    [The prepared statement of Mr. Klein follows:]
                  Prepared Statement of Joel I. Klein
                                summary
    Good afternoon Chairman Harkin, Senator Enzi, and committee 
members.
    Thank you for inviting me to discuss the reauthorization of the 
Elementary and Secondary Education Act (``ESEA'') and New York City's 
approach to school turnaround. We hope lessons learned from our 
experience can guide other districts as they take up the President's 
challenge to turn around America's lowest-performing schools.
    No Child Left Behind (``NCLB'') brought long-overdue accountability 
to public education and cast a spotlight on a shameful achievement gap 
that had gone unaddressed for generations. The law rightfully demanded 
that all children, regardless of background, have access to a high-
quality education. You and your colleagues deserve praise for these 
essential reforms.
    That said, there is widespread consensus that NCLB can be improved. 
Its focus on absolute achievement, instead of progress, labeled many 
schools as ``failing'' even when students made significant gains. 
Moreover, it takes years before interventions are mandated in 
struggling schools, and even longer before dramatic restructuring is 
required. Even after 6 years of missing Annual Yearly Progress--years 
when students' futures are on the line--NCLB is vague about required 
turnaround strategies. This has allowed districts to implement so-
called restructuring initiatives that amount to tinkering around the 
edges while students fall through the cracks.
    The U.S. Department of Education's Blueprint for ESEA addresses 
some of these shortcomings and is a step in the right direction. 
Proposed changes would require schools to show that they are helping 
students gain ground rather than holding schools to uniform 
expectations. We have used such a system in New York for years. It 
allows us to recognize schools doing excellent work while serving 
challenging populations. It also enables us to identify schools where 
persistent low performance necessitates significant interventions, 
including--in some cases--making the difficult decision to replace 
failing schools with better options.
    As part of our overall strategy, replacing failing schools has 
helped us get real results. In 2009, the city's graduation rate reached 
a historic high of 63 percent. After a decade of stagnation, the 
graduation rate has increased for 8 consecutive years since Mayor 
Bloomberg assumed responsibility for the city's schools, rising by 12.5 
points since 2005 alone. Similarly, the dropout rate has been cut in 
half since 2005, falling to 11.8 percent. These gains have been 
achieved across all demographic groups, with African-American and 
Latino students making the greatest progress.
    Much of this progress reflects the efforts of talented educators 
who share our belief that the status quo is not good enough. It also 
demonstrates the commitment of students and families, who know that 
when it comes to education, hard work brings great rewards.
    Some of the progress, however, reflects effective initiatives to 
turn around failing schools. When we see that a school is not meeting 
student needs, we quickly intervene to support improved outcomes. 
Various strategies include putting a highly trained new principal in 
place, organizing the school into small learning communities, providing 
extensive professional development or introducing mentoring and 
tutoring services.
    Yet at some schools, outcomes do not change or conditions even 
deteriorate. As a city and a country, we must then ask: When should we 
stop sending children to a place unlikely to prepare them for life 
beyond high school? When is it simply immoral to consign students to 
the prospect of failure by sending them to schools where we would never 
send our own children?
    When our best efforts are not turning around failing schools, we 
must take more radical steps, even if they prove controversial.
    In New York, we have a solid track record of replacing low-
performing schools with better options. Our approach to closing schools 
differs from many other parts of the country. We don't padlock school 
buildings or immediately transfer current students elsewhere. Instead, 
we gradually phase out school organizations, without adding new 
students, until the final class graduates. Simultaneously, we gradually 
introduce replacement school organizations into the building. This 
strategy has fundamentally improved opportunities for our students.
    Since 2002, we have phased out 91 schools. We replaced them with 
400 new schools that are outperforming other schools citywide. Our new 
high schools have an average graduation rate of 75 percent even though 
they serve some of the city's highest-need students. These schools have 
new leaders, many new teachers, distinctive themes and usually a much 
smaller size--allowing them to provide individualized student supports 
and build new cultures that are a precondition for turnaround.
    I want to give you a concrete example of what this approach means.
    In September 2003, we began to phase out Bushwick High School, 
which had a history of underperformance and an abysmal 23 percent 
graduation rate. Today, there are four new small schools thriving in 
that building, with an average graduation rate of 72 percent.
    There is always resistance associated with change of this scale. 
But sometimes, when a school has experienced sustained failure, the 
only way to transform conditions is through fundamental change. Based 
on our experience, ESEA must therefore include explicit consequences 
for persistently low-performing schools, including closing schools 
after other improvement strategies have failed.
    Real reform cannot occur without your leadership. Powerful interest 
groups continually advocate for the status quo, despite abundant 
evidence that the current system is not getting the job done for too 
many students. As you revisit ESEA, I urge you to make lasting and 
significant change that--if done right--will transform student lives 
and advance the future of our Nation.
    Thank you again for inviting me to testify. I am happy to answer 
your questions.
                                 ______
                                 
    Good afternoon Chairman Harkin, Senator Enzi, and members of the 
committee.
    Thank you for inviting me here today to discuss the Reauthorization 
of the Elementary and Secondary Education Act (``ESEA'') and New York 
City's approach to school turnarounds. We hope that our experience can 
serve as a model for other districts nationwide as they take up 
President Obama's challenge to turnaround the bottom 5 percent of 
America's schools.
    Fifteen years ago, the iconic teacher's union leader, Al Shanker, 
made a point about public schools that we are still working to realize 
today.
    ``The key is that unless there is accountability, we will never get 
the right system,'' he said. ``As long as there are no consequences if 
kids or adults don't perform, as long as the discussion is not about 
education and student outcomes, then we're playing a game as to who has 
the power.''
    No Child Left Behind (``NCLB'') brought long-overdue accountability 
to public education and cast a spotlight on a shameful achievement gap 
that had gone unadressed for generations. The law rightfully demanded 
that all children, regardless of their background, have access to a 
high-quality education that allows them to achieve their full 
potential. You and your colleagues deserve praise for bringing these 
difficult but essential reforms to the education landscape.
    That said, there is widespread consensus that NCLB can be improved. 
Its focus on absolute achievement instead of growth put many schools in 
the category of ``failing'' even if students made significant gains. 
Moreover, it takes years before interventions are first mandated in 
struggling schools, and even longer before more dramatic restructuring 
efforts are required for chronically low-performing schools. Even after 
6 years of missing Annual Yearly Progress--years during which students 
lives and futures are on the line--NCLB is vague about what types of 
turnaround strategies are necessary to achieve fundamental change. This 
has allowed schools and districts to implement so-called restructuring 
initiatives that amount to mere tinkering around the edges while 
students are falling through the cracks.
    The Department of Education's Blueprint for changes in ESEA 
addresses some of these shortcomings and is a step in the right 
direction. Their proposed changes would require schools to show that 
they are responsible for helping all students make progress rather than 
holding every single school to uniform expectations regardless of 
student achievement levels upon enrollment.
    In New York City, we have focused on this type of accountability 
model, measuring schools not just on where they stand, but on how much 
ground their students gain from year-to-year. This system recognizes 
schools making great progress even while serving challenging student 
populations and it enables us to provide supports when schools are 
failing to meet student needs. Perhaps most importantly, it allows us 
to quickly identify schools where persistent patterns of low 
performance necessitate more significant interventions, including--in 
some cases--making the difficult decision to replace failing schools 
with better options for our students and their families.
    When Mayor Bloomberg and I assumed responsibility for our school 
system, we made a commitment to ensuring that all of our children have 
access to excellent schools, schools that help them graduate prepared 
for success in college and careers. While much work remains, our 
efforts--along with the hard work of our teachers, administrators, 
parents, and students--are paying off.
    In our elementary and middle schools, the percentage of city 
students meeting or exceeding grade-level standards on annual State 
Math and English Language Arts exams has risen dramatically since 
2002--from 38 percent to 69 percent in English and from 41 percent to 
82 percent in math. In fact, New York City's five boroughs made more 
progress than any other county statewide from 2002 to 2009--that's 
measured against other students taking the exact same tests.
    These gains are mirrored at the high school level. Just last month, 
New York State education officials announced that the city's progress 
in improving graduation rates had continued unabated, with our 4-year 
graduation rate reaching a historic high of 63 percent in 2009 with 
gains across every demographic group. We recognize that we still have a 
long way to go, but after a decade of stagnation, we are proud that the 
city's graduation rate has increased for 8 consecutive years. Since 
2005 alone, the graduation rate has risen by 12.5 points. The dropout 
rate has been cut nearly in half since 2005, falling to a historic low 
of 11.8 percent. This is true even though New York State is increasing 
graduation requirements.
    So how did this happen?
    Much of this progress reflects the efforts of diligent and talented 
educators who share our belief that the status quo is not good enough 
and who know that if they set goals and stick to their plans, they can 
change lives. It also demonstrates the commitment of students and 
families, who know that when it comes to education, hard work brings 
great rewards.
    Some of the progress also reflects structural reform and a 
significant investment in initiatives designed to turn around failing 
schools. When the Department sees that a school is not providing 
students with the education they need, we quickly intervene to try to 
change those conditions, and our efforts have been effective in 
improving outcomes at many city schools.
    Take, for example, Hillcrest High School in Queens. Hillcrest is a 
large school, enrolling over 3,000 students. In September 2006, we 
transformed Hillcrest into seven small learning communities or SLCs. 
Each of the SLCs is organized around a theme that engages student 
interests, and each enrolls approximately 450 students. A core group of 
teachers and staff work closely and consistently with those students, 
allowing them to develop academic and social supports tailored to meet 
individual student needs.
    This initiative already appears to be making a difference at 
Hillcrest. In June 2007, the school's graduation rate was 62 percent. 
By 2009, it had climbed to 68 percent. While there is obviously still 
much room for improvement, Hillcrest presents an excellent example of a 
restructuring program that has put a low-performing school on the path 
toward success.
    Another key strategy that can jump-start school improvement is 
appointing a highly trained new principal. While some of our schools 
have experienced remarkable gains under a new principal, others only 
experienced incremental improvements insufficient to yield a dramatic 
turnaround.
    Small learning communities and leadership changes are among the 
more significant interventions the Department introduces to transform 
outcomes at our lower-performing schools. We also provide extensive 
professional development for teachers and administrators and introduce 
enrichment programs or mentoring and tutoring services in struggling 
schools. Where appropriate, we help schools to phase down total 
enrollment or reconfigure grades and classes. Low-performing teachers 
are given evaluations and support in an effort to boost their 
effectiveness. Teams of teachers across the city have been organized to 
improve outcomes among targeted groups of students.
    Yet at some schools, despite these efforts, the outcomes have not 
changed. In some cases, conditions have even deteriorated. As a city, 
and as a country, we must then ask ourselves: When should we stop 
sending children to a place unlikely to prepare them for life beyond 
high school? When is it simply immoral to consign students to the 
prospect of failure by sending them to schools where we would never 
send our own children?
    When our efforts are not turning around failing schools and we know 
we are capable of doing better by our kids, we must be prepared to take 
more radical steps, even when those efforts prove controversial.
    In issuing the Blueprint for revising ESEA, President Obama and the 
U.S. Department of Education have called upon State and local education 
officials to ``turn around'' the bottom 5 percent of schools 
nationwide. They recognize that turning failing schools around is 
difficult and often controversial work, and they have therefore 
outlined four permissible strategies designed to support schools in 
achieving that goal. They are:

    1. Turnaround Model--Redesign or replace a school, including 
replacing the principal and at least half of the staff.
    2. Restart Model--Convert a district public school to a public 
charter school.
    3. Transformation Model--This is similar to the Turnaround Model, 
but requires rigorous evaluation of teachers and the principal, 
rewarding those who increase student achievement and removing those who 
fail to achieve that goal.
    4. School Closure--Immediately close the school and re-enroll 
current students in other, more successful district schools.

    As mentioned, New York City has a solid track record of improving 
achievement through a combination of rigorous accountability, 
structural reform, customized supports to schools and students, and 
leadership change. When those efforts are not good enough, however, we 
have implemented an approach to closing and replacing schools that the 
Department of Education would classify as the ``turnaround model.''
    Our approach to closing schools differs from that used in many 
other parts of the country. We don't padlock the school doors 
immediately or transfer current students elsewhere in the district. 
Instead, we phase schools out gradually, without adding new incoming 
classes, until the final group of students graduate. Simultaneously, we 
gradually introduce replacement schools into the building, typically 
adding one class per year until they reach full enrollment. These 
replacement schools have new principals, and while they are required to 
interview 50 percent of highly qualified staff from the pre-existing 
school, they can also bring in new teachers matched to the new school's 
mission and theme. Unlike similar efforts in many other parts of the 
country, this turnaround strategy has a solid track record of success.
    Since 2002, New York City has announced the phase out of 91 
schools. We have replaced these schools with more than 400 new schools 
that are outperforming other schools citywide. Our new high schools, 
for example, have an average graduation rate of 75 percent even though 
they serve some of the city's highest-need students. In fact, MDRC--one 
of the Nation's most-respected education policy research institutions--
recently reported that students enrolled in our new schools tend to be 
more disadvantaged than their peers in other schools citywide across a 
number of socio-economic and academic indicators.
    I want to be clear that we do not arrive at the decision to phase 
out a school without careful consideration. We have a comprehensive 
process for identifying our lowest performing schools and then 
determining which turnaround strategies will be used in them. There is 
simply no excuse for keeping a school open when it is not giving 
students the education they need and when our best efforts have failed 
to change those conditions.
    Our accountability system ensures that all schools are held to 
clear and fair standards. Every city school receives an annual Progress 
Report grade, which is shared with the school community and the broader 
public. These grades range from an ``A'' to ``F'' and take into 
consideration student performance, student progress, and school 
environment. Each school is compared against all schools serving the 
same grades, and also against a ``peer group'' of the 40 most similar 
schools citywide. Schools can earn extra credit for exemplary progress 
among high-need students.
    Any school that earns a ``D'' or ``F'' grade on its most recent 
progress report, or that earns a ``C'' grade for 3 consecutive years, 
is automatically considered as a candidate for restructuring, 
leadership change, or possible closure.
    That is not the only criteria we look at, and we also contemplate 
significant interventions at a handful of other schools based on a 
broader set of considerations.
    Another important factor we consider is a school's performance on 
its annual Quality Review. These on-site evaluations of a school's 
culture and teaching practices help us assess the school's capacity to 
turn around. In evaluating Quality Reviews, we look closely at a 
school's strengths and weaknesses to see how they might impact its 
capacity to achieve a dramatic turnaround. When we have concerns about 
a school based on its Quality Review, we initiate additional 
conversations with the Superintendents and other Department staffers 
that have first-hand experience working with the school to determine 
whether it has the capacity to show significant improvement in the near 
future.
    Finally, we weigh community indicators at each school. This 
includes annual school survey results from parents, students, and 
teachers. It also includes demand for seats to assess whether or not 
families feel that the school is a good option for their children. When 
schools are not working, students and parents vote with their feet, and 
most of the schools we have decided to phase out have experienced low 
and declining demand.
    We remain steadfastly focused on helping phase-out schools to 
improve during their final years of operation, and we provide intensive 
support to the students enrolled in those schools. Indeed, our 
experience shows that outcomes for students in phase out schools tend 
to get better as those schools move toward closure. Any students that 
are still working to earn their diplomas when a school closes receive 
guidance and the opportunity to transfer to another school or program 
that better meets their needs.
    Many faculty and staff members continue working in our phase-out 
schools for several years as those schools move toward closure. As I 
mentioned earlier, our new schools are also required to hire 50 percent 
of highly qualified faculty from schools they replace, and any teachers 
who do not seek or obtain positions in the replacement schools can 
apply for other vacancies citywide. Our new schools have new leaders, 
many new teachers, and distinctive themes--all of which allow them to 
build the new school cultures that are a precondition for truly turning 
around a failing school.
    We believe that our approach to school turnaround is effective 
because our new small schools allow teachers, school leaders, and other 
staff to get to know every student very well, ensuring that academic 
and social supports are in place to meet individual student needs. The 
smaller size of the staff also makes it easier for educators to 
collaborate and plan collectively to design a coherent curriculum. 
School leaders are better able to plan schoolwide professional 
development so that students make continuous progress. All of these 
characteristics are found in high-quality, large- and medium-sized 
schools as well, but we believe that the personal attention afforded by 
a much smaller school makes a particularly powerful difference for our 
highest-need students. That belief is borne out in the results that 
these small schools have achieved to date.
    I want to take a moment to provide a concrete example illustrating 
what this approach can mean for students and communities.
    In September 2003, we initiated the phase out of Bushwick High 
School in Brooklyn. That school had a longstanding history of academic 
struggles. The 4-year graduation rate for the Class of 2002 was 23 
percent. Today, there are four small schools thriving on the campus. 
Collectively, they enroll a very high-need student population--roughly 
14 percent of Bushwick students are English language learners and 17 
percent are special education students, and most students come from 
low-income families. The overwhelming majority of incoming ninth-
graders are performing well-below grade level upon enrollment. 
Nonetheless, the average 4-year graduation rate for the three schools 
we opened in September 2003 is 72 percent.
    There are many examples of large, successful high schools in the 
city, and those schools are a valued part of our diverse system of 
1,600 schools. But we also know that some of our schools--large and 
small alike--have been underperforming for years. We have high schools, 
for example, that have sustained graduation rates at-or-below 50 
percent for a decade or longer. We cannot stand by and watch such 
schools fail another generation of students when a host of 
interventions and supports have not yielded meaningful improvements, 
especially when we have similar schools serving similar students that 
are achieving significantly better results.
    There is always anxiety associated with change of this scale. But 
sometimes, when a school has experienced sustained failure, the only 
way to transform those conditions is through fundamental change--change 
that offers increased support for current students and better learning 
environments for future ones.
    For this reason, I believe ESEA needs to be explicit about what 
should happen to persistently failing schools. While Race to the Top 
gives States incentives to close schools after all other school 
improvement strategies have failed, the Blueprint is more ambiguous 
about this issue. Our experience in New York shows that replacing 
failing schools can transform entire districts, so it is essential that 
the legislation does not permit States to shy away from making tough 
choices when necessary. As you revisit ESEA, I urge you not to waste 
this historic opportunity to make lasting change that--if done right--
will enrich students' lives and advance the future of our Nation.
    At the outset of my testimony, I noted that graduation rates have 
risen steadily in New York City over the last 6 years, and I asked how 
this had been achieved. Much of the work, I explained, has to do with 
the determination of educators, parents, and students.
    The other reason it has happened is that our city has been honest 
with itself in cases where those efforts were not good enough. There 
are many stories like Hillcrest High School, where planning and support 
changed outcomes. And there are others like Bushwick where more radical 
steps were required to turnaround a school that had failed its students 
for years. When we talk about a school with a graduation rate at or 
below 50 percent, that means that every year we take a ``wait and see 
approach,'' half of its students are falling through the cracks.
    Unlike many other districts across the country, the Mayor and I 
have been willing to make tough choices and take on powerful interest 
groups to ensure that our students have access to the excellent schools 
they need and deserve. While much work remains, we have achieved 
progress, and learned important lessons along the way that can guide 
nationwide school turnaround efforts.
    First and foremost, you must establish clear and fair 
accountability systems that account for where students are when they 
first enter a school and how they progress along the way. We support 
the introduction of a growth model as proposed in the Blueprint, and we 
also support a continued focus on boosting achievement among the 
highest-need students.
    Secondly, you must demand that States are honest in identifying 
schools that are persistently failing students. Some low-performing 
schools will benefit from restructuring interventions, leadership 
change, or other support such as intensive professional development. 
When those interventions are insufficient to reverse chronic 
underperformance, you must be fearless in establishing explicit 
restructuring strategies that prevent States and districts from evading 
the tough choices necessary to give all students the education they 
deserve. We believe our approach of gradually phasing out failing 
schools maximizes stability for current students while creating better 
options for their younger peers. New schools also grow gradually, 
allowing them to build a culture of high expectations for students and 
a community that supports student success.
    Real education reform cannot occur without your leadership and 
support. Powerful interest groups continually advocate in favor of the 
status quo, despite abundant evidence that the public education system 
is not getting the job done for far too many of our students. We are 
therefore counting on you to strengthen ESEA, so that all of our 
students have access to the high-quality education they need and 
deserve.
    Thank you again for inviting me to testify today. I am happy to 
answer any questions you have.

    The Chairman. Thank you very much, Mr. Klein. I will note 
right now that twice you mentioned, at least in summarizing and 
in your statement, you took the bigger schools and made them 
into smaller schools. I want to come back to that at the end of 
this panel.
    Ms. Donohue, welcome. Please proceed.

  STATEMENT OF BEVERLY DONOHUE, VICE PRESIDENT OF POLICY AND 
     RESEARCH, NEW VISIONS FOR PUBLIC SCHOOLS, NEW YORK, NY

    Ms. Donohue. Chairman Harkin, Senator Enzi, and members of 
the committee, thank you for this opportunity to appear before 
you.
    At New Visions for Public Schools, we have focused on 
school reform work in New York City for the last 20 years. For 
the last 10 of those years, we have been closely engaged in 
turnaround work of a variety of different kinds that I will go 
into in a little bit of detail. Most of our work has been at 
the high school level, and I will focus on that in my remarks 
as well.
    Our experience has led us to think in terms of a continuum 
of school transformation possibilities with different levers 
for change viable at schools with different levels of student 
performance and different levels of human capacity.
    For the persistently lowest performing high schools in New 
York, the only approach to turnaround that has been successful 
is, as the Chancellor described, school closure through phase-
out over time. This approach was pioneered in the Chancellor's 
district in the late 1990s and has been continued under mayoral 
control since then.
    New Visions in about 2002 to 2003 tried to reform two large 
failing high schools without closing them down and 
restructuring them and found that that turnaround effort ended 
in failure. I think it is important to note that the history of 
turnaround efforts nationally has a lot of failures and they 
are to be learned from. What happened in this instance was that 
without a strong group of leaders and teachers within the 
school, they were unable to create a viable plan for turnaround 
and they were defunded as a result.
    A few years later than that, about 2005, we undertook again 
a turnaround effort with large schools that were in a little 
bit better shape. They had graduation rates between 50 percent 
and 60 percent, strong principals, and a number of very 
committed teachers to the turnaround model. We divided those 
schools into small learning communities, New Dorp in Staten 
Island and Hillcrest in Queens, and since that point in time, 
they have been immensely successful.
    We credit the turnaround in these two schools to not the 
division into small learning communities, but to an 
implementation of an inquiry team model called the scaffolded 
apprenticeship model, which was for building teacher capacity 
and new school leaders. In this model, teams of educators work 
together to identify a small group of struggling students who 
become the focus of ongoing action research aimed at addressing 
specific skill gaps and moving these students into the school's 
sphere of success. Through this work, teachers iteratively 
change their classroom practice to make it more effective and 
share the results. Our experience here confirmed our sense that 
reform that is structural only and that stops at the classroom 
door has no continued impact on student performance. The two 
schools I mentioned here have now about 60 inquiry teams 
between them of teachers who are doing this work and moving the 
school forward.
    This model has been extended throughout other schools in 
New York and is currently being piloted in Boston and in 
Oakland as well.
    Low-performing schools need to focus their efforts on a few 
critical problems at any one time in order to make headway. 
Schools with higher capacity or startup schools without a 
culture that has the friction against the status quo can take 
advantage of broader based reform models. The 99 small schools 
that New Visions helped create through the New Century High 
School initiative that replaced large, failing schools, as the 
Chancellor's testimony outlined, inform our conclusion here. 
The New Century High Schools were required to adhere to 10 
principles of effective schools that were built into their 
initial design. The design was carried out in a competitive 
nature by school teams vying for limited numbers of school 
approvals, and it became a rigorous process that was a learning 
experience for those who participated in it and it helped build 
capacity across New York City for folks interested in new 
school creation.
    Each New Century High School signed on for a target of 80 
percent graduation rate and 92 percent average daily 
attendance. That target, we believe, helped to focus the team 
on student data and gave an urgency to the work that they were 
doing.
    Each school received support from a variety of the partners 
in the New Century initiative, which included unions, the 
Department of Education in New York, and the various funders 
who supported the initiative. Parents and community groups were 
involved in the planning, and each school had one community-
based partner at a minimum to provide their own unique 
experience and opportunities for young people.
    New Century is a young initiative. Its first schools opened 
in 2002, and evaluations of it are still forthcoming. So we 
have no long-term view on how successful these schools will be, 
but the 99 schools we were involved with had a 10 percent 
higher graduation rate as of last spring than other schools on 
average in New York City.
    With the limited body of research on effective strategies 
for low-performing schools, particularly at the high school 
level, I would urge the committee to support an approach 
fostering continued local innovation and close evaluation of 
turnaround programs. Assessing school capacity to implement 
change is critical to guide the choice of an effective 
strategy. And finally, focusing exclusively on the school level 
neglects the important role that networks, community 
organizations, and other external supports play in creating and 
sustaining the preconditions for success.
    In New York, the department, through its Office of Small 
Schools, was immensely supportive of this work. In addition, 
the great wealth of nonprofit organizations that exist in New 
York City lent their expertise, their social capital, and their 
knowledge of communities throughout the city.
    So I thank you for this opportunity to testify.
    [The prepared statement of Ms. Donohue follows:]
                 Prepared Statement of Beverly Donohue
                                summary
    Chairman Harkin, Senator Enzi and members of the committee, thank 
you for the opportunity to appear before you. My name is Beverly 
Donohue and I am vice president for Policy and Research at New Visions 
for Public Schools, a non-profit organization that has focused on 
school reform in New York City for the last 20 years. For the last 10 
years, we have been closely engaged in school turnaround work, almost 
entirely at the high school level, focusing on schools in the highest 
poverty neighborhoods in NYC. Our experience has led us to think in 
terms of a continuum of school transformation, with different levers 
for change viable for schools at different levels of student 
performance.
    For the persistently lowest-performing high schools, the only 
approach to turnaround that has been successful in NYC is school 
closure. The Chancellor's District of the late 1990's used closure and 
replacement with small schools as its only strategy for failing high 
schools. New Visions' effort in 2002-2003 to reform three large failing 
high schools with existing school leaders and staff ended in failure. 
However, struggling high schools at somewhat higher levels of 
performance with a strong leader and a cadre of committed teachers, 
can, with support, dramatically accelerate student performance. New 
Visions has worked with two such large high schools since 2005, helping 
the two principals and their staffs restructure into small learning 
communities. We believe that the marked improvement of these two 
schools depended more on their implementing strategies that directly 
impacted what teachers do in the classroom than on the underlying 
restructuring into multiple academies. The strategy they used was an 
inquiry team model called ``SAM'' to build teacher capacity and certify 
new school leaders.\1\ In this model, teams of educators work together 
to identify a small group of struggling students who become the focus 
of on-going action research aimed at addressing specific skill gaps and 
moving these students into the school's ``sphere of success.'' Through 
this work, teachers iteratively change their classroom practice to make 
it more effective and share the results. These two schools currently 
have about 60 inquiry teams of teachers doing this work.
---------------------------------------------------------------------------
    \1\ New Visions partnered with Baruch College's School of Public 
Affairs to create the Scaffolded Apprenticeship Model (SAM), a capacity 
building program to develop distributed leadership in schools and 
develop a culture of continuous improvement through the sharing of 
results by multiple inquiry teams.
---------------------------------------------------------------------------
    In our experience, low-performing schools need to focus their 
efforts on a few critical problems at any one time to make headway. 
Schools with higher capacity or start-up schools without the friction 
of a status quo culture can take advantage of broader-based reform 
models. The 99 small high schools created through the New Century High 
School Initiative \2\ inform this conclusion. The New Century High 
Schools were required to adhere to 10 principles of effective schools 
that were built into their initial design.\3\ Each New Century High 
School signed on for a target of an 80 percent graduation rate and 92 
percent average daily attendance, received support from all New Century 
Initiative partners, included parents in the planning phase, and 
partnered with at least one community-based not-for-profit 
organization.
---------------------------------------------------------------------------
    \2\ New Century is a partnership of New Visions with the NYC 
Department of Education, the United Federation of Teachers and the NYC 
Council of Supervisors and Administrators. The initiative was supported 
by the Bill & Melinda Gates Foundation, the Carnegie Corporation and 
the Open Society Institute. The 2009 New Century High School average 
graduation rate was 72.6 percent, as compared to New York's city-wide 
graduation rate of 62.7 percent.
    \3\ The 10 principles are: Clear Focus and High Expectations; 
Rigorous Instruction; Personalized Learning Environment; Instructional 
Leadership; School-based Professional Development; Meaningful 
Assessment; Partnerships; Parent/Caregiver Engagement; Student Voice 
and Participation; and Integration of Technology.
---------------------------------------------------------------------------
    With a limited body of research on effective strategies for low-
performing schools, particularly high schools, I would urge the 
committee to support an approach that fosters continued local 
innovation and close evaluation of turnaround programs. Assessing 
school capacity to implement change is critical to guide the choice of 
an effective strategy. Finally, focusing exclusively on the school 
level neglects the important role that networks, community 
organizations and other external supports play in creating and 
sustaining the preconditions for success.
                                 ______
                                 
    Chairman Harkin, Senator Enzi and members of the committee, thank 
you for the opportunity to appear before you. I applaud your purpose 
today of addressing the critical issue of failing schools in our 
Nation.
    My name is Beverly Donohue and I am Vice President for Policy and 
Research at New Visions for Public Schools, a non-profit organization 
that has focused on school reform in New York City for the last 20 
years. Under contract to the New York City Department of Education, New 
Visions currently serves as a Partner Service Organization accountable 
for improving student performance for 35,000 students in 76 schools.
    For the last 10 years we have been closely engaged in school 
turnaround work, almost entirely at the high school level, focusing on 
schools in the highest poverty neighborhoods in NYC. During that time 
we have created 99 new small high schools, tried and failed to 
turnaround three large, low-performing high schools, and successfully 
guided two large high schools with mid-level performance to restructure 
into small learning communities. These experiences have led us to think 
in terms of a continuum of school transformation, with different levers 
for change viable for schools at different levels of student 
performance.
    For the persistently lowest performing high schools, the only 
approach to turnaround that has been successful in NYC is school 
closure, implemented gradually over a 4-year phase-out period. The 
pioneering experiment in school turnaround was the Chancellor's 
district, which operated from 1996 until 2003, when it was folded into 
the broad-based reforms implemented by Chancellor Klein with the advent 
of Mayoral Control. While elementary and middle schools in the 
Chancellor's District showed improvement after implementing a ``tight'' 
model of reforms,\4\ all five large high schools brought into the 
program were shut down with campuses of new small schools created in 
their place.
---------------------------------------------------------------------------
    \4\ Phenix, Deinya; Siegel, Dorothy; Zaltsman, Ariel; Fruchter, 
Norm, Virtual District, Real Improvement; Institute for Education and 
Social Policy, New York University.
---------------------------------------------------------------------------
    New Visions, with the support of the NYC Department of Education, 
undertook turnaround efforts in three large failing high schools from 
2002 to 2003. School-level teams spent months developing turnaround 
plans using promising, research-based models. Despite heavy 
facilitation by New Visions and other partners, these plans were judged 
inadequate to produce significant improvement in student outcomes; the 
initiative was then terminated. Without changes in leadership, staff, 
and context, the preconditions for turnaround did not exist. These 
three attempts shared a ``one-off '' quality. There was no network or 
district structure to protect a clear focus on change against the daily 
distractions that derail progress. The embedded culture of these 
schools appeared too likely to reject the transplant of even the most 
promising school reform model.
    High schools at mid-levels of performance have other options for 
improvement. In a New York context, this group included schools with 4-
year graduation rates between about 55 percent and 65 percent in the 
mid-2000s. New Visions supported two such large high schools in 
transforming themselves into small learning communities.\5\ Each school 
started its improvement effort with a strong leader and a cadre of 
dedicated staff willing to take risks and participate in the hard work 
of change; each school has shown sustained, significant improvement in 
student outcomes.
---------------------------------------------------------------------------
    \5\ Both New Dorp High School in Staten Island and Hillcrest High 
School in Queens restructured starting in 2005 while remaining under 
the leadership of a single principal. Both schools have since seen 
significant increases in both attendance and graduation rates. On their 
annual NYC Progress Reports, the schools have moved over 3 years from a 
``C'' grade to an ``A'' and a high ``B'' respectively.
---------------------------------------------------------------------------
    By the time we began working with these two schools in 2005, our 
experience had led us to this conclusion: without changing what 
classroom teachers do, modifying structure or curriculum does little to 
improve student outcomes. As a way to avoid ``change that stops at the 
classroom door,'' New Visions co-developed an inquiry team model called 
``SAM'' to build teacher capacity and certify new school leaders.\6\ In 
this model, teams of educators work together to identify a small group 
of struggling students who become the focus of on-going action research 
aimed at addressing specific skill gaps, accelerating the pace of 
learning, and moving these students into the school's ``sphere of 
success.'' Through this work, teachers iteratively change their 
classroom practice to make it more effective and share the results. 
There are now about 60 inquiry teams functioning in the small learning 
communities of Hillcrest and New Dorp High Schools, meeting to review 
student data and drive improved teaching and learning. This model has 
now been spread throughout New York City, is being piloted in Boston 
and Oakland, and has become the core professional development strategy 
in New Visions schools. In every program and every interaction we have 
with schools, we base our work on the fundamental questions of SAM's 
cycle of inquiry: What do we know about what our students can and 
cannot do? And, what are we going to do about it?
---------------------------------------------------------------------------
    \6\ New Visions partnered with Baruch College's School of Public 
Affairs to create the Scaffolded Apprenticeship Model (SAM), a capacity 
building program to create distributed leadership in schools and 
develop a culture of continuous improvement through the sharing of 
results by multiple inquiry teams. One version of this 18-month program 
provides a principal's certification upon successful completion and has 
certified 115 educators as principals to date. Over a dozen of these 
graduates have stepped into principal or assistant principal roles 
within their own schools.
---------------------------------------------------------------------------
    In our experience, low-performing schools need to focus their 
efforts on a few critical problems at any one time to make headway. 
Schools with higher capacity or start-up schools without the friction 
of a status quo culture can take advantage of broader-based reform 
models. The small high schools created through the New Century High 
School Initiative \7\ inform this conclusion. The New Visions' New 
Century schools and similar schools developed by other non-profit 
organizations played an essential role in New York City's high school 
reform work; they created the replacement seats needed to implement a 
broad ``school closure'' strategy. The New Century High Schools were 
required to adhere to 10 principles of effective schools that were 
built into their initial design.\8\ These principles comprised a 
``loose'' model that resulted in huge variation across the first 89 
schools. More recently, ``tighter'' school models for former drop-out 
students and for career and technical education schools have also 
resulted in schools that are unique and varied. Research-based models 
have provided the first draft; local adaptation and innovation have 
sustained the continuous learning necessary to a high performing 
school.
---------------------------------------------------------------------------
    \7\ New Century is a partnership of New Visions with the NYC 
Department of Education, the United Federation of Teachers and the NYC 
Council of Supervisors and Administrators. The initiative was supported 
by the Bill & Melinda Gates Foundation, the Carnegie Corporation and 
the Open Society Institute. The 2009 New Century High School average 
graduation rate was 72.6 percent, as compared to New York's city-wide 
graduation rate of 62.7 percent.
    \8\ The 10 principles are: Clear focus and High Expectations; 
Rigorous Instruction; Personalized Learning Environment; Instructional 
Leadership; School-based professional development; Meaningful 
Assessment; Partnerships; Parent/Caregiver Engagement; Student Voice 
and Participation; and Integration of Technology.
---------------------------------------------------------------------------
    I would also point to several other features that have contributed 
to the strength of the New Century results. First, each New Century 
High School signed on for a target of ``80/92''--an 80 percent 
graduation rate and 92 percent average daily attendance. That 
commitment created urgency and a focus on individual student data. 
Accountability to a specific goal has proved to be a powerful driver of 
improvement. Second, all New Century High Schools were approved for 
opening by the unanimous consent of a ``Core Group'' comprised of New 
Visions, the Department of Education, the United Federation of 
Teachers, the Principals' Union and the foundation funders. All these 
stakeholders were committed to solve problems at the local level. 
Parents and students, along with educators, helped to plan each school 
in a competition for a limited number of grants. Many planning groups 
failed to meet the high standards required to open a school. The broad 
base of support and emphasis on quality, along with an extensive 
community outreach strategy, helped to defuse tensions as neighborhoods 
watched historic high schools begin to shut their doors. Third, all New 
Century High Schools were formed with non-profit partner organizations 
at the planning table. The strongest partnerships continue to 
contribute engaging classroom and out-of-school experiences, such as 
internships, to provide students with workplace skills and to connect 
them to their communities. Community Partnerships in many of these 
schools have expanded the toolkit of strategies to make students career 
and college ready.\9\ There are several completed evaluation studies of 
the New Century High School Initiative available on the New Visions Web 
site (www.newvisions.org) and others will be forthcoming in the near 
future. As these relatively young schools mature, we will continue to 
learn from their experience and challenges.
---------------------------------------------------------------------------
    \9\ Reforming High Schools, Lessons from the New Century High 
Schools Initiative, 2001-2006, New Visions for Public Schools, http://
www.newvisions.org/node/313/10/1/49.
---------------------------------------------------------------------------
    There is a limited body of research on what approaches are 
effective in turning around low-performing schools, particularly at the 
high school level. I would urge the committee to support an approach to 
reauthorization that fosters continued local innovation and close 
evaluation of turnaround programs to deepen existing knowledge. Many 
districts and States have initiated turnaround programs and policies 
that could experience setbacks from too rigid an application of a set 
of models. Assessing school capacity to implement change is critical to 
guide the choice of an effective strategy. Finally, focusing 
exclusively on what must be done at the school level risks neglecting 
the important role that networks, community organizations and other 
external supports play in creating and sustaining the preconditions for 
success.
    Again, I thank you for the opportunity to appear before you.

    The Chairman. Thank you, Ms. Donohue. Now we turn to Dr. 
Balfanz. Dr. Balfanz, welcome.

    STATEMENT OF ROBERT BALFANZ, Ph.D., ASSOCIATE RESEARCH 
   SCIENTIST, CENTER FOR SOCIAL ORGANIZATION OF SCHOOLS AND 
 ASSOCIATE DIRECTOR OF THE TALENT DEVELOPMENT MIDDLE AND HIGH 
                 SCHOOL PROJECT, BALTIMORE, MD

    Mr. Balfanz. Chairman Harkin, Senator Enzi, members of the 
HELP Committee, thank you for inviting me here to testify today 
on this vital national challenge of turning around our low-
performing secondary schools. I am going to focus today on 
middle and high schools.
    In the 21st century, we have to provide all of our students 
pathways from secondary school to post-secondary success in 
college, the military, or through job training. The reason for 
this is simple. There is no work to support a family if you do 
not graduate high school and have the ability to receive 
further training. We cannot have a society in which whole 
communities are essentially cut off from the 21st century 
because they do not have the opportunity to attend schoolings 
to prepare them for this success.
    The reason we find ourselves in this troubling situation is 
that far too many of our middle and high schools that serve 
high-poverty populations, if we are honest about it, are 
designed and operated to fail. As Chairman Harkin has pointed 
out, there are 2,000 high schools where graduation is not the 
norm when it needs to be a necessity. These high schools are 
found in every State in rural and urban areas. They educate 
primarily low-income and minority students, and as such, they 
produce half the Nation's dropouts and are essentially the 
engines of the underclass.
    Each of these high schools, in turn, are typically 
supported or fed by one or two middle schools where as many as 
half or more of the students who drop out become disengaged 
from schooling. It is in the middle grades that students make 
the independent decision, is schooling for me? Will I put the 
work forward that is necessary to succeed or is it something 
simply to be endured? And when we lose these students in middle 
school, they stop attending regularly, they get in trouble, 
they fail their courses, and by the time they get to high 
school, they have half a foot out the door.
    This creates a level of educational challenge that we do 
not fully comprehend, and let me just paint this picture a 
little based on the 15 years of experience working in and with 
these schools.
    In a high-challenge high school--and this is an urban 
school. I can give a rural example later, but in an urban 
school, you might have 1,200 students and you might have 400 or 
500 of them in the ninth grade. Of those 400 or 500, 100 or 200 
are repeating ninth grade for the second or third time because 
they did not succeed the first time, and they are now, many of 
them, at the age at which they can drop out. Of the students 
that enter, only about a quarter are within grade level, not 
even on grade level, but close. Fifty percent are reading or 
doing math at the fifth to seventh grade level, and a quarter 
have skills below the fifth grade level. Maybe a third of these 
kids missed a month or more of schooling in eighth grade. They 
already have a habit of missing lots of school. Fifteen to 
twenty percent might be in special education. The whole 
population lives in poverty.
    So do we meet this high educational challenge with the 
equivalent of the Marine Corps, the best trained, the best 
equipped, the most motivated teachers and administrators? No. 
Often this is training ground for the young and the 
inexperienced. Principals turn over almost every year, teachers 
every 5 years. So we have the highest need and offer them the 
weakest answer. And if we are honest, that is a recipe for 
failure.
    It does not have to be this way. We have had many examples 
in the past decade of middle and high schools that only educate 
high-need students that have succeeded. Let me just give you a 
couple of examples from our work.
    Our Baltimore Talent Development High School that you heard 
about is located in west Baltimore. In spite of the open-air 
drug markets shown on the HBO show, The Wire, all our students 
enter, like we said, multiple years below grade level, some 
with declining attendance, and yet we manage to graduate over 
80 percent and every one of them have some sort of post-
secondary placement, be it job training, college, or the 
military.
    Most recently we put together a new model called Diplomas 
Now, which combines our whole school reform efforts with 
national service corps members, in this case from City Year, 
which lets us put a team of 10 to 15 idealistic 18- to 24-year-
olds in the building. Each one has basically a group of 15 to 
20 students to shepherd who have early warning indicators of 
being off track of having that low attendance in middle grades, 
of having failed in the middle grades. They sort of quietly ask 
every day, are you in school? If not, I will call you. Did you 
get your homework done? If not, let us meet at lunch. You're 
giving Chairman Harkin a hard time. Now, I know he could be 
tough sometimes, but sarcasm does not work. That sort of 
continually nagging and nurturing is often needed by hundreds 
of students at a time to stay on track. Teachers cannot do that 
alone. They may be able to support a handful of kids. They 
cannot do hundreds.
    And finally, we add on communities and schools case-managed 
social workers because there is also a subset of kids, the 
highest-need kids, where the effects of poverty are so strong, 
until you have an answer, you cannot educate them. If a student 
who is being raised by his grandma is staying home to give her 
an insulin shot because they trust no one else, until we solve 
that, no haranguing is going to get that kid into school.
    So the schools need all these tools together, the whole-
school reforms, the person power to reach every kid that needs 
nagging and nurturing, and solving the toughest cases of 
poverty.
    The real answer to all this is the teacher team. If you ask 
me, what's the answer, it is not structural change, which can 
be important. It is not getting high-quality teachers, which 
can be important. It is that team of four teachers working with 
75 kids so they can know them well, they can know their 
stories, who are then supported by good instructional 
materials, by a second shift of adults who can help them get 
the kids motivated in school, by early warning indicator data, 
by a leadership team which supports them. That should be the 
fundamental unit we build everything up from.
    To bring this to scale and how the Elementary and Secondary 
Education Act can help, we need to think about two things. 
First of all, it is not just simply who, but how. So, yes, I 
have seen close-and-replace work well. I have seen it work 
poorly. I have seen charter school operators take schools that 
were essentially a national disgrace and make a success story. 
I have seen charter schools that should be closed down. I have 
seen schools that knowledgeable people have said has no hope of 
recreating itself.
    So it is possible through all these different ways of who 
to succeed or not. What really matters is the how, the strategy 
to use to turn the school around. Here we just have to keep, I 
think, three key points in mind.
    First, as we heard before, you really need an accurate 
diagnosis of what the educational challenge is because too 
often we say, ``hey, I know the answer.'' It is a failed 
school. So nothing must have worked. Anything new is better. 
That guarantees big change. It does not guarantee big 
improvement. So we really have to say, what is your educational 
challenge? Do you have 20 kids 2 years below level or 200? 
Those are two different challenges. Do you have 100 kids that 
missed a month or more of middle school or no kids? Those are 
different stories. Do you have many kids impacted by poverty or 
only a handful? Each of those would be a different strategy 
that you need to figure out.
    Once you have your design to meet your challenge, then the 
question is, do I have the know-how to put it in place? Do I 
actually have a good strategy for students that are 3 years 
behind grade level in reading in ninth grade? Does my strategy 
have evidence of effect? Does it reach those 200 kids? Do I 
have the capacity to implement it? Do I have people trained? Do 
they have the time to do it? Do they have the support?
    Third, do we have the will? Right? Do we really believe if 
we work harder this will work or are we just sort of trying to 
get through a tough situation?
    And finally, are we protected from turbulence--right--that 
we do not get started 1 day and a new district policy the next 
day or new Federal policy the third day and we have to stop?
    So once we put all these things together, we have a design 
that meets the challenge. We have the know-how, the will, the 
capacity, and the protection from turbulence, now we have a 
recipe for success.
    In closing, I would just want to say that the HELP 
Committee is literally at the forefront of secondary school 
improvement and that many of the things that need to help us 
out are in the legislation that members have proposed, from 
Chairman Harkin's Every Student Counts Graduation Rate Act to 
Senator Bingaman's Graduation for All, Senator Reed's Success 
in the Middle, the Keeping PACE Act, Senator Franken's 
principal effectiveness bill. Much of the answer is in there. 
It just needs to be brought together in a comprehensive whole.
    I look forward to working with you to make sure that we can 
find a solution to fundamentally improve the Nation for the 
better.
    [The prepared statement of Mr. Balfanz follows:]
              Prepared Statement of Robert Balfanz, Ph.D.
                                summary
    We find ourselves in a troublesome situation: Too many of our low-
income and minority students are concentrated in middle and high 
schools that are designed and operated to fail. In 2,000 of our 
Nation's high schools, which produce half of the country's dropouts, 
graduation is often a 50/50 proposition.
    It does not have to be this way. It cannot be this way. We cannot 
have a country in which entire communities are cut off from the only 
real avenue to prosperity--a good education. Over the past decade we 
have amassed enough proof points to show that turnaround is possible.
    For instance, in three high schools in the Recovery District of New 
Orleans, an innovative turnaround model, Diplomas Now, is having 
dramatic effects on the attendance, behavior and achievement of 
students. This collaboration of Talent Development, City Year and 
Communities in Schools both transforms the whole school and, using an 
early warning and intervention system, matches the individual needs of 
students with targeted interventions.
    Similarly, in our own Baltimore Talent Development High School in 
one of the city's most impoverished neighborhoods, the graduation rate 
is more than 80 percent and each graduate has a placement for continued 
education and training, despite the fact that most students enter with 
skills 2 or more years below grade level.
    So it is possible to draw essential lessons from our own work and 
the larger body of research on school turnaround and improvement.
    First, it is not simply about how the school is governed and 
operated or who it employs.
    Second, there are at least a dozen things one needs to get right to 
successfully turn around a school. This is why turnaround is difficult 
and our success rate low. What we need to do is make school turnaround 
a professional effort grounded in analysis and knowledge--one in which 
evidence-based reforms are matched to the challenges faced.
    With a thorough understanding of the educational challenge--
academic, engagement and poverty challenges combined--a school faces 
and its current capabilities, it is then possible to create an 
educational design that can turn the school around. For the design to 
work, however, it must be implemented with the needed know-how, 
capacity, and will, as well as protected from turbulence in policy and 
practice. It is in these areas that ESEA Reauthorization can help. 
Members of the Senate HELP committee have been at the forefront of 
secondary school improvement. Much of what is needed in ESEA 
Reauthorization to enable successful secondary school turnaround exists 
in the legislation members of the committee have advanced. The bottom 
line is that the time is now to make reforming the Nation's low-
performing secondary schools a vital national mission. A Federal-State-
local partnership designed to accomplish this, guided and supported by 
ESEA reauthorization, can fundamentally make this a better Nation.
                                 ______
                                 
    Chairman Harkin, Ranking Member Enzi, and members of the HELP 
committee, thank you for inviting me to testify today.
    In the 21st century all students need to be provided a pathway from 
secondary school to post-secondary success, via college, job training, 
or the military. To put it simply, there is no work that can support a 
family for students who fail to graduate from high school or do so 
unprepared for further learning. Yet for far too many of our students, 
in particular low-income and minority students, such pathways do not 
exist. In an era dominated by human capital this not only weakens our 
Nation's competitiveness, but also, as both the U.S. Chamber of 
Commerce and U.S. Army have noted, threatens its social fabric. We 
cannot have a country in which entire communities are cut off from the 
only real avenue to prosperity--a good education.
    We find ourselves in this troublesome situation, in good part, 
because too many of our low-income and minority students are 
concentrated in middle and high schools that are designed and operated 
to fail. In 2,000 of our Nation's high schools, graduation is not the 
norm, in an era when it is a necessity. These schools, which can be 
found in every State, in both urban and rural areas, are almost 
exclusively attended by low-income and minority students. As such, they 
are the Nation's dropout factories and engines of the underclass.
    Each of these high schools, in turn, is linked with one or more 
middle schools, where at least half of eventual dropouts begin the 
process of disengaging from school, and achievement gaps become 
achievement chasms. Thus, by the time they get to high school, many 
students already have one foot out the door, as witnessed by their 
declining attendance, poor behavior, and course failure during the 
middle grades. As a result, high schools face an intense educational 
challenge they were not designed to meet.
    What do I mean when I say these schools have been designed and are 
operated to fail? Let me paint a picture based on my 15 years of 
research and direct experience working in and with these schools.
    These are schools in which less than a quarter of the students 
enter with even near grade-level skills. In a high school you can find 
half of the entering ninth-graders with reading and mathematics skills 
at the fifth-to seventh-grade levels, and another quarter with skills 
below those expected of fifth-graders. The ninth grade may have from 
300 to 500 students, with perhaps 20 percent or more repeating the 
grade for a second time. Half or more of the entering students fell off 
the path to high school graduation as early as sixth grade, and during 
their middle grades missed a month or more of school each year. These 
same students were cited for demonstrating poor behavior, and/or failed 
their math and English classes. In addition, 15 percent to 20 percent 
of the students could be special education students and nearly 100 
percent live in neighborhoods of concentrated poverty.
    Do we respond to this extremely high degree of educational 
challenge with the educational equivalent of the Marine Corps--the best 
trained, best equipped and motivated teachers and administrators? No. 
In fact, it is often just the opposite: These schools are the training 
grounds for the young and inexperienced; they often see at least half 
of their staff turn over every few years. In some, principals change as 
frequently as every year. A considerable number receive no title I 
funding, even though they face some of the greatest impacts of poverty 
of any school in the Nation. As a result, they cannot provide the level 
and intensity of support required for students to enter their 
classrooms ready to learn or the teacher supports and training required 
to effectively deliver standards-based courses to underprepared 
students.
    There is shared responsibility for this failure. At the Federal 
level, there has been a lack of accountability and support for low-
performing secondary schools. At the State level, there has been a 
failure to develop the capacity needed to support improvements in these 
schools, and the perpetuation of funding systems that make it difficult 
for dollars to be matched with student needs. At the local level, 
reform efforts have often focused elsewhere and simply re-arranging the 
deck chairs by changing principals or staff without addressing the 
underlying challenges has too often been seen as enough reform (a 
mistake that we must avoid repeating at the Federal level). Within the 
schools themselves, improvement is often stymied by the blame game with 
teachers, parents, and students (who must support one another for 
success to occur) too often saying nothing can be done until someone 
else works harder or better.
    It does not have to be this way. Over the past decade we have 
amassed enough proof points to show that turnaround is possible. Middle 
and high schools can be designed and operated to succeed even when they 
exclusively serve high-needs students. It is possible to combine whole 
school reform with the teacher, administrator, and students supports 
needed to ensure that students can stay on track to graduate prepared 
for college, career and civic life, even when they enter middle and 
high school significantly off-track. More significantly, from these 
successes, as well as from our failures, we can deduce what is 
essential for turnaround to work.
    In our own experience through our Talent Development Middle Grades 
and High Schools programs and most recently our collaborative Diplomas 
Now Secondary School Transformation model (a partnership of Talent 
Development, City Year, a national service program, and Communities in 
Schools, using early warning indicators to identify students as they 
begin to stray from the graduation path and to apply the right 
intervention to the right student at the right time), we have witnessed 
first-hand how this can be done. Our results have been validated by 
third-party research and by the Federal What Works Clearinghouse.
    At our Baltimore Talent Development High School, located in one of 
the highest poverty communities in America, in sight of an open air 
drug corner, we take students who fit the profile described above--with 
below grade level skills and declining attachment to school--and 
graduate more than 80 percent of them with all graduates having a post-
secondary schooling or job training placement. For those of you, like 
me, who believe the proof is in the pudding, we invite you to come up 
the road and visit the school. At our three Diplomas Now high schools 
in the Recovery School District of New Orleans, we have been able to 
get ninth-grade attendance and passing rates to levels not seen in 
decades. At our Chicago Talent Development High School, which is 
operated in partnership with local, State, and national service 
employees and teachers' unions, we are recording ninth-grade success 
rates of 90 percent. This is critical because the evidence is clear: 
Students who make it to tenth grade on time and on track have three to 
four times the graduation rates of students who do not.
    Fundamental to the success of all these schools is the teacher 
team--four to six teachers working with 75 to 100 students. The teacher 
teams, in turn, need to be supported by research- and evidence-based 
acceleration instructional programs for students who enter with below-
grade-level skills. They also need strong State standards linked to 
benchmark assessments; good and consistent early warning data to let 
teachers respond to the first signs that a student is falling off 
track; time in their schedules for the teacher teams to meet and work 
collaboratively to improve their practice and to collectively meet 
student challenges, and assistance from a second shift of adults--
national service corps members, counselors, and wrap-around student 
support providers--so that every student can get the assistance he or 
she needs to succeed. The teacher team also needs support from a school 
leadership team. And here too teamwork is essential. As important as 
they are in large middle or high schools, good principals cannot do it 
alone. With staffs of 100 or more there are too many adults to 
coordinate, support, encourage and guide. Thus, turnaround middle and 
high schools need leadership teams composed of principals, assistant 
principals, and teacher leaders that are trained together, guide the 
school, and are held jointly accountable for school progress.
    Thus, we applaud the Obama administration's efforts through ARRA 
and School Improvement Grants to elevate turning around high schools 
with graduation rates below 60 percent and their feeder middle schools 
into an urgent national priority by holding States and districts 
accountable for their transformation, as well as providing sufficient 
Federal support.
    The work that remains through ESEA re-authorization is to create a 
Federal-State-local-community partnership to turn these schools around. 
Here, it is possible to draw several essential lessons from our own 
work and the larger body of research on school turnaround and 
improvement.
    The first lesson is that it is not simply about how the school is 
governed and operated or who it employs. In the three examples I cited 
above, one school is a startup, three others were existing schools that 
are being turned around, and the last is a contract school. I have seen 
the strategy of closing low-performing schools and replacing them with 
new schools work well and poorly. I have seen schools that thoughtful 
and informed educators considered beyond repair, transform themselves. 
I have seen charter operators turn national disgraces into schools that 
succeed, but I have also seen charter schools that need to be shut 
down. I have seen schools come alive under the guidance of a new and 
invigorating leadership team. I have also seen highly skilled and 
committed principals chewed up by intransigent faculties. I have seen 
schools that replaced the faculty twice and were no better off. 
Governance and staff changes are a means to an end not an end in 
themselves.
    The second lesson is that there are at least a dozen things one 
needs to get right to successfully turn around a school. This is why 
turnaround is difficult and our success rate has been low. If you look 
at prior efforts, you also see that in the main we have approached 
turnaround as an amateur endeavor via instinct trial and error, usually 
in ignorance of prior efforts and often without even an attempt to 
address the full range of challenges in turnaround schools. Thus, the 
low success rate to date is not surprising. What we need to do is make 
school turnaround a professional effort grounded in analysis and 
knowledge--one in which evidence-based reforms are matched to the 
challenges faced, and we strategically deduce the quickest way to 
implement them well and quickly.
    In short, schools do not succeed and are organized for failure when 
their implemented design does not match their educational challenge.
    Educational challenge in turn has three inter-related components:

    Academic challenge: How far away from required standards of 
performance are students when they enter a school? It matters greatly 
whether there are 20 or 200 students who are 2 or more years below 
grade level.
    Engagement challenge: The greatest teachers and instructional 
program in the world will have little impact if students do not attend, 
behave, and try. Yet in many high-poverty middle and high schools, 
especially in urban areas, chronic absenteeism is rampant. In one city 
we examined, 40 percent of middle and high school students missed in 
total a year of schooling over 5 years, 20 percent of their educational 
time. This is how achievement gaps grow.
    Poverty challenge: It is often hard for policymakers and others who 
do not live in poverty to comprehend its impact on school success. 
Poverty taxes student and school success through a number of means. It 
keeps some students out of school to provide emergency day care for 
younger siblings, so parents can keep their job; others stay home to 
give the grandparents who are raising them their daily insulin shots. 
It pushes some students to drop out to help earn money to pay the 
utility bill or keep food on the table. It engulfs others in continual 
exposure to violence and the grief of losing family members. Others are 
consumed by the stress of parents losing jobs and homes or succumbing 
to drug and alcohol addiction. In our innovation high school in West 
Baltimore, faculty members estimate that 15 percent to 20 percent of 
our students are essentially raising themselves. Schools can mobilize 
when a handful of students are in these situations. They become 
overwhelmed when, as is often the case in middle and high schools in 
high-poverty neighborhoods, it is dozens to more than 100 students.
    While schools in need of turnaround are often similar in terms of 
facing high academic, engagement and poverty challenges, they also 
differ in the contours, magnitude, and intensity of these challenges, 
as well as in their existing capacities to meet them. Thus, it is 
essential that each be analyzed on its own, so that reforms can be 
matched to needs. We also have to keep in mind that every school in 
need of a turnaround likely has been attempting to reform and improve 
for a decade or more. So it is also important to analyze why prior 
reform efforts have failed and what pockets of capacity may remain. The 
quickest way to doom a school turnaround effort is to impose a reform 
that most adults and students in the building believe was already tried 
and failed.
    With a thorough understanding of the educational challenge a school 
faces and its current capabilities, it is then possible to create an 
educational design that can turn the school around. For the design to 
work, however, it must navigate four hurdles: It needs to be based on 
appropriate know-how; the school needs the capacity to put it into 
place; the adults and students in the building need to have the will to 
implement it with fidelity and speed, and finally, the effort needs to 
be protected from the policy and practice turbulence that can derail 
it.
    Before we get too depressed and ask how it will be possible to 
accomplish this at the scale we need, it helps to look at some other 
sectors of society, the level of complexity they handle and how they 
succeed. If we look at medicine, the military, and business, we see 
that problems with this level of complexity are routinely solved.
    To close this testimony, I will try to advance a case for a Federal 
role in enabling school turnaround to succeed at scale by looking at 
how we can increase the Nation's ability to apply the lessons of other 
sectors and create the know-how, capacity, will, and ability to 
mitigate turbulence we need.
    increase the know-how to meet academic, engagement, and poverty 
                  challenges in low performing schools
    The military, medicine and business all invest much more in applied 
research and development, or how to solve problems of practice. 
Moreover, what is known is widely disseminated and turned into 
protocols or standards of practice. Using such standards is viewed as 
essential for practitioners in the field, and lack of use, absent 
compelling circumstances, is sanctioned. The military and medicine 
routinely study instances in which standard practices fail and use this 
knowledge to improve and innovate. In terms of turning around low-
performing middle and high schools, we have learned enough in the past 
decade to begin formulating standards of practice.
    What is required to move this forward is a public-private 
partnership along the lines of the Data Quality Campaign and the State 
Common Standards, supported by Federal policy. For areas where current 
understanding is less clear, we need an aggressive federally supported 
applied research and development effort.
    One clear candidate for this is extended learning time. Most 
successful turnaround efforts have found one way or another to extend 
student learning time. We do not know enough, however, to say how this 
should be done and how it will vary by circumstances. Is it better to 
extend the school day, the school week, or the school year? How should 
the extra time best be used? What is the most effective balance between 
more time on core academics and experiences that deeply engage students 
in school and learning like drama, debate, and robotics? The answer is 
we don't know. We could find out quickly, and in so doing, save 
ourselves from making expensive investments that don't pay off. The 
question of how best to extend learning time lends itself to rapid 
analytic study. By randomizing four or so different approaches to 
extending learning time across enough schools, within a few years we 
would know the effectiveness and the costs and benefits of the 
different approaches.
   increase our capacity to implement effective turnaround strategies
    Building our capacity to turn around schools is in my view our 
current No. 1 weakness and greatest need. We need to invest in capacity 
building efforts at the State, district, and school levels. Schools in 
need of turnaround should be paired with external partners or school 
district or State support teams with proven track records. We need to 
make sure that sufficient funds are set aside in school improvement 
grants or by other means so that this assistance can be hands-on, in 
the school, and continuous. We also need to provide turnaround teams 
and external support partners with the conditions needed for success 
such as control over staffing, budget, and scheduling. There is also a 
new role for national non-profits that can inject capacity into schools 
by providing high-quality student supports and management strategies 
that needs to be developed and supported. Organizations such as City 
Year, Communities in Schools, the Boys and Girls Club, the U.S. Army 
through JROTC, and College Summit, among others, are rapidly developing 
the ability to project high-quality student supports nationwide, and 
need to become tightly integrated into turnaround efforts.
    Next, we need to greatly increase the intensity of training we 
provide to educators. When you compare typical on-the-job training in 
education to that of medicine, military or industry, you see how light 
it is. Short days and short weeks, crammed in when opportunity allows, 
uncoordinated and often of low quality compared to the high-intensity, 
dawn-to-dusk, mandatory attendance, training with accountability for 
implementation one can find in other sectors.
build accountability and on-track indicator systems that encourage and 
  sustain the will to implement needed reforms with speed and fidelity
    To develop the will to implement needed reforms quickly and with 
skill takes accountability systems that send the right signals. At the 
high school level this means counting graduation rates equally with 
test scores as essential outcomes. We need every student to graduate 
prepared for post-secondary success. It also means establishing a 
national baseline for continuous and substantial progress in raising 
graduation rates. If each of the 5,000 high schools with graduation 
rates below the current national average (of approximately 75 percent) 
increased its rate, on average, 2 percentage points per year for 10 
years, the national graduation rate would hit 90 percent. This is an 
attainable goal and should become the minimum progress viewed as 
acceptable.
    For us to monitor turnaround efforts and be able to change those 
that are not working, we need to adopt on-track to success indicators. 
The emerging science of on- and off-track indicators for high school 
graduation and college readiness, as well as benchmark tests tied to 
the new common State standards, can be used to create indicators for 
school progress that will let us know if schools are on track to meet 
their achievement and graduation improvement targets, and will keep 
schools focused on essential actions. We also need to support 
turnaround options that build teachers' beliefs that large scale 
improvement is possible. One way to do this is to create and enable 
teacher-led school turnaround efforts. Turnaround should not be seen as 
something done to teachers, but rather an effort that they lead, and 
hence, are responsible for.
          work to mitigate turbulence, in policy and practice
    For turnaround to work, we need to insist on high-intensity and 
rapid implementations of school reform efforts designed to meet a 
school's educational challenge. We also need to provide the stability 
for these efforts to take root and bear fruit. This means that the 
Federal Government, in partnership with States, should insist that 
effective reforms supported by Federal and State dollars are not 
changed simply because a new school superintendent with a new vision 
for district improvement arrives or a new principal takes charge.
    The Federal Government also needs to insure that schools that have 
successfully turned around can still gain access to the resources 
necessary to meet their educational challenges and overcome the 
achievement and engagement drains brought by poverty. This means we 
need to think flexibly and creatively about how title I resources or 
dedicated secondary school success funds can be targeted and available 
for all high-poverty middle and high schools that meet continuing 
performance criteria. Recall our Baltimore Talent Development High 
School. Its success does not negate that fact that almost all its 
students live in poverty, 15 percent to 20 percent are functionally 
raising themselves, many are essentially caring for younger siblings 
and family members, and three-fourths enter with skills 2 or more years 
below grade level. To meet these needs and overcome the additional 
educational challenges they bring, resources are required, over and 
above the funding provided to schools with far fewer challenges. At its 
heart, the purpose of title 1 funds is to help schools overcome the 
impact of poverty. Secondary schools that face these challenges need to 
have full access to this support.
                             in conclusion
    Members of the Senate HELP committee have been at the forefront of 
the effort to create a Federal-State-local partnership to transform the 
Nation's low-performing secondary schools. Much of what is needed in 
ESEA Reauthorization to enable successful secondary school turnaround 
exists in the legislation members of this committee have advanced. 
Chairman Harkin's Every Student Counts Act, Senator Bingaman's 
Graduation Promise Act, Senator Reed's Success in the Middle, The 
Keeping PACE Act, Senators Franken's and Hatch's School Principal and 
Training Act, and the Serve America Act, among others, contain 
essential elements of what is needed. We also need to support the 
widespread adoption and use of early warning and intervention systems 
in conjunction with school transformation and turnaround. I have 
offered a few additional ideas and suggestions based on our on-the-
ground experience and existing evidence and research The bottom line is 
that the time is now to make reforming the Nation's low-performing 
secondary schools a vital national mission. A Federal-State-local 
partnership designed to accomplish this, guided and supported by ESEA 
reauthorization, can fundamentally transform the Nation for the better.

    The Chairman. Dr. Balfanz, thank you very much. That was 
very enlightening. I have a lot of questions I have got to ask 
now based on that.
    Now we turn to Dr. Mitchell. Dr. Mitchell, welcome, and 
please proceed.

  STATEMENT OF TIM MITCHELL, Ed.D, SUPERINTENDENT OF SCHOOLS, 
        CHAMBERLAIN SCHOOL DISTRICT 7-1, CHAMBERLAIN, SD

    Mr. Mitchell. Good afternoon, Chairman Harkin and Ranking 
Member Enzi and members of the committee. It is certainly an 
honor to come before you today and share some thoughts about 
rural school turnaround, specifically the unique challenges 
faced by rural schools when implementing school improvement 
strategies, as well as some of the conditions I feel are 
necessary so rural school reforms can be successful.
    Let me tell you a little bit about Chamberlain School 
District. This fall we had 858 students. We are 30 out of 161 
in enrollment in South Dakota. We are a large school in South 
Dakota. Of the 131 that are smaller than us, many of them have 
fewer than 300 students, K-12, in their entire facility. Many 
of them still run one-room schoolhouses, just as Senator Harkin 
made reference to in his opening remarks.
    In Chamberlain, 46 percent of economically disadvantaged 
students are part of our student body. Thirty-six percent are 
Native American. They come from the Crow Creek Sioux and Lower 
Brule Sioux. They have dual enrollment privileges either coming 
to the public school, which we serve them, and then the tribal 
school, which they have a choice to go to. Seventeen percent of 
the students qualify for special education. Fifty-nine percent 
of the students are identified as title I, and we employ about 
140 full- and part-time staff.
    OK. Where were we? Before No Child Left Behind, when I took 
over the reins of Chamberlain School District--we have three 
school sites. Two of them were identified as 13 in the State 
that had not met Federal standards under title I. We went into 
No Child Left Behind. We were immediately put on alert because 
of not making AYP with the Native American students, the 
economically disadvantaged students, and the students with 
disabilities.
    In the spring of 2008, the Native American economically 
disadvantaged, the students with disabilities, and all schools 
and all subgroups made AYP. And we had our first clean NCLB 
report card. The Native American students, the economically 
disadvantaged students, and the students with disabilities 
continued to exceed the State average for proficiency in both 
reading and math.
    So what did we do? If I have to identify it, if we look at 
our turnaround process, we had to become a school district that 
has a relentless focus on instruction and professional 
development. We had to cultivate teacher and principal support. 
We had to implement and use research-based instructional 
practices and strategies and then make a conscious effort and 
encourage all staff to act collegially and collaboratively 
among those staff members.
    The major theme of our story, as I talk to other districts 
that ask me how we did it, is all about capacity building, and 
the best way to build capacity in a school district is to 
transform them into a true professional learning community, 
which we see in the literature.
    Those fundamentals are, first, to make learning the purpose 
of your organization. You must establish a focus on learning, 
not just teaching. It is not good enough to just teach in my 
district. You must promote high levels of learning.
    Second, you will not achieve a true focus on learning when 
teachers are working in isolation. You can have a teacher of 
the year working right next to a first-year teacher in the same 
school, and if they are not allowed to share back and forth, 
you will definitely affect your quality in a negative way. So 
you want to make sure that isolation is brought into 
collaboration.
    Then you must create systems and structures to build those 
collaborative structures on a regular basis.
    And finally, our third major focus is you must know if 
students are learning or not. So you must have a system to 
monitor student learning and to be governed by results.
    The most pressing issues we see in rural schools: 
isolation, the amount of capacity, the recruitment and 
retention of administrative teaching staff, the lack of quality 
preschools, the NCLB punitive consequences that are designed 
more for urban schools, and the adequate financial resources 
here in these troubled times. Add lack of parental involvement, 
low graduation rates, the impact of drugs, gangs, poverty on 
many of the low-performing rural reservation schools, and we 
have some real issues.
    With all the issues, there is a terrible stigma about being 
a failed school in a small rural and isolated community. Many 
of these school districts have administrators and teachers who 
are dedicated. They are working hard every day to try to 
improve that learning situation. Many of these schools 
currently have trouble holding onto administrators for more 
than 1 or 2 years. In many rural schools, the superintendent is 
the principal. He is the coach. He is the janitor. He is the 
bus driver. And so the entire administration is lost and they 
simply move a short distance to another school district if a 
turnaround process is put in place.
    In these situations, the principals and staff need to stay. 
Threatening to fire administrators and teachers and closing 
schools in isolated rural areas does not make any common sense.
    If we look at the conditions that are needed, as we start 
to flesh out what the next reauthorization is going to look 
like, we would hope that you would look at making sure that we 
provide adequate resources, that we support operating 
conditions, and we support administrator and teacher training 
to being about that cultural change that is needed.
    We promoted our school turnaround process in a mixture of 
local, State, and Federal revenue sources, and we utilized 
those effectively to build capacity so that we could implement 
research-based instructional strategies. Most schools like 
Chamberlain have a limited capacity. So make sure to understand 
that if you are going to shift new Federal dollars to 
competitive grants, it would be inherently unfair for us to 
compete with other districts because of a lack of capacity, and 
we certainly want to make sure that we see the increased 
funding for title I because the current proposal is for level 
funding.
    As we look at accountability, we know it is not helping our 
schools in rural South Dakota and rural areas, and measures are 
too narrow and imprecise and consequences are too severe. The 
four turnaround models are not appropriate for a majority of 
rural and small schools. I support a recommendation to add a 
fifth option. This is to be able to implement a research-based 
intervention model that is reserved in the Blueprint for simply 
Reward districts. Consider the distinction between positive 
accountability where low scores trigger an effort to help 
schools and punitive accountability where we focus on firing 
staff and closing schools. In a strategy of positive 
accountability, consistent research-based, proven steps can be 
taken to improve low-performing schools.
    Thank you for your time today, and I will be happy to 
answer any questions.
    [The prepared statement of Mr. Mitchell follows:]
               Prepared Statement of Tim Mitchell, Ed.D.
                                summary
                    chamberlain school district 7-1
    Chamberlain School District 7-1 is located in Chamberlain, SD. Fall 
Enrollment was 858 students. Economically Disadvantaged students make 
up 46 percent of the student body, Native American students make up 36 
percent of the student population, 17 percent of the students qualify 
for Special Education services and 59 percent of the students are 
identified as title I. The district employs 140 full and part-time 
staff.
                           achievement gains
    In the spring 2008 the Native American, Economically Disadvantaged, 
and Students with Disabilities subgroups made Adequate Yearly Progress 
and the Chamberlain School District 7-1 had the first clean NCLB Report 
Card. Native American, Economically Disadvantaged, and Students with 
Disabilities subgroups continue to exceed the State average for 
proficiency in both math and reading.
                    the chamberlain turnaround story
    To identify what has helped Chamberlain School District 7-1 in the 
turnaround process has been a relentless focus on instruction and 
professional development; the cultivation of teacher and principal 
support; the use of researched-based instructional practices and 
strategies; and the conscious encouragement of collegiality and 
collaboration among all staff members.
                    the challenges for rural schools
    The most pressing issues that are currently affecting small rural 
schools are isolation, capacity, the recruitment and retention of 
administrative and teaching staff, lack of quality pre-schools, NCLB 
punitive consequences that are designed more for urban schools and 
adequate financial resources in these troubling economic times. Add the 
lack of parental involvement, low graduation rates, the impact of drugs 
and gangs and poverty to many of the low performing rural reservation 
schools in South Dakota and the most pressing issues significantly 
increase.
                    the condition needed for success
    The turnaround process requires adequate funding, supporting 
operating conditions, and administrator and teacher training to bring 
about cultural change.
                          esea recommendations
    Accountability as we know it now is not helping our schools. Its 
measures are too narrow and imprecise and the consequences are too 
severe. The four turnaround models are not appropriate for a majority 
of rural and small schools. I support the recommendation of the 
American Association of School Administrators (AASA) that proposes a 
5th option for school turnaround. This is to be able to implement a 
research-based intervention model, reserved in the blueprint for Reward 
districts.
                                 ______
                                 
    Good Afternoon Chairman Harkin, Ranking Member Enzi and members of 
the committee, my name is Tim Mitchell and I am the Superintendent of 
Schools for the Chamberlain School District 7-1 in Chamberlain, SD. It 
is an honor to come before you today and share some thoughts on rural 
school turnaround. Specifically, the unique challenges faced by rural 
schools when implementing school improvement strategies as well as some 
of the conditions I feel are necessary so rural school reform efforts 
can be successful. I would also like to share some recommendations for 
how a reauthorized Elementary and Secondary Education Act can support 
and promote successful school turnaround in rural areas.
                    chamberlain school district 7-1
    Located along Interstate 90, in south-central South Dakota along 
the Missouri River, the Chamberlain School District 7-1 is made up of 
parts of three counties, Brule, Buffalo and Lyman. The district covers 
853 square miles. Part of the Crow Creek Indian Reservation lies within 
the district (Buffalo County-referred to as one of the poorest counties 
in the Nation). The city of Chamberlain, population approximately 
2,400, is the area's primary trade center. Chamberlain is the site of 
the school district's administration building, a senior high/middle 
school (Grade 7-12), and an elementary school (Grade K-6). The 2009-
2010 fall enrollment was 858 students. Economically disadvantaged 
students make up 46 percent of the student body, Native American 
students make up 36 percent of the student population, 17 percent of 
the students qualify for special education services and 59 percent of 
the students are identified as title I. The elementary school supports 
a schoolwide title I program and in 2010-2011 the middle school will be 
a schoolwide title I program.
    The district employs 140 full and part-time staff. About 95 are 
certified teachers, who bring to Chamberlain School District 7-1 a wide 
range of experiences and educational backgrounds (average experience 
level 16.2 years). Including special service staff members, such as 
speech therapists, music teachers, guidance counselors and physical 
education instructors, the average pupil-teacher ratio in the district 
is 11.2 to 1. Class sizes are small which provides for more one-on-one 
contact between teachers and students. The school district's 
administrative staff is made up of the superintendent, business 
manager, and two building principals. In the fall of 2008 a part-time 
assistant grade 7-12 principal was added. A special education director, 
transportation director, title I director, buildings and grounds 
supervisor, technology director, special education social worker, and 
activities director serve in supervisory roles in the district.
                           achievement gains
    In the spring of 2003 in the Chamberlain School District 7-1, 27 
percent of Native American students tested were Advanced/Proficient in 
Math and 45 percent were Advanced/Proficient in Reading, only 49 
percent of the Economically Disadvantaged student population were 
Advanced/Proficient in Math and 62 percent were Advanced/Proficient in 
Reading, only 7 percent of Students with Disabilities were Advanced/
Proficient in Math and only 22 percent were Advanced/Proficient in 
Reading. The Native American, Economically Disadvantaged, and Students 
with Disabilities subgroups did not make Adequate Yearly Progress and 
the Elementary and Middle School were identified as being on No Child 
Left Behind (NCLB) Alert.
    In the spring of 2009, 63 percent of Native American students 
tested were Advanced/Proficient in Math and 61 percent of Native 
American students tested were Advanced/Proficient in Reading, 62 
percent of Economically Disadvantaged students were Advanced/Proficient 
in Math and 74 percent of Economically Disadvantaged students were 
Advanced/Proficient in Reading, 43 percent of Students with 
Disabilities were Advanced/Proficient, and 51 percent of Students with 
Disabilities were Advanced/Proficient in Reading. In the spring 2008 
the Native American, Economically Disadvantaged, and Students with 
Disabilities subgroups made Adequate Yearly Progress and the 
Chamberlain School District 7-1 had the first clean NCLB Report Card. 
Native American, Economically Disadvantaged, and Students with 
Disabilities subgroups continue to exceed the State average for 
proficiency in both math and reading. These types of achievement gains 
continue to be recorded as the district celebrates some of the highest 
student achievement gains in the history of the district.
                    the chamberlain turnaround story
    To identify what has helped Chamberlain School District 7-1 in the 
turnaround process has been a relentless focus on instruction and 
professional development; the cultivation of teacher and principal 
support; the use of researched-based instructional practices and 
strategies; and the conscious encouragement of collegiality and 
collaboration among all staff members. This has created a culture that 
encourages professionals to take risks and to take responsibility for 
themselves, their students and for each other.
    The major theme of our story is centered on capacity building. 
Michael Fullan defines capacity building as an action-based and 
powerful policy or strategy that increases the collective efficacy of a 
group to improve student learning through new knowledge, enhanced 
resources, and greater motivation on the part of the people working 
individually and together. You need to create conditions for people to 
succeed by helping people find meaning, increasing their skill 
development and their personal satisfaction while they make 
contributions that simultaneously fulfill their own goals and the goals 
of the organization. My own research in South Dakota found that the 
most innovative school districts are those that have the ability to 
sustain school reform, organizational change and increased student 
achievement have a greater professional capacity.
    The best way to build the capacity of a school district is to 
transform it into a professional learning community. This is the work 
of Richard DuFour, Rebecca DuFour, and Robert Eaker. First, you need to 
make learning the fundamental purpose of the organization. You must 
establish a focus on learning not on teaching. Second, schools will not 
achieve a true focus on learning when teachers are working in 
isolation. You must create systems and structures that build a 
collaborative structure. Third, you must know if students are learning 
or not. You must have a system to monitor student learning and be 
governed by results.
    A focus on learning means that the district has systems and 
structures in place to make sure students learn what they need to learn 
to be successful. We have created an intensive focus on learning by 
clarifying exactly what students are to learn by establishing an 
aligned curriculum. Once we established an aligned curriculum we 
provided support through an extensive professional development program 
to support teachers in their utilization of researched-based 
instructional strategies to deliver the curriculum. The next step was 
to establish a robust assessment system. Teachers have been trained in 
the creation and use of common formative assessment procedures to get 
instant feedback from students on how well they are doing. This 
feedback guides decisions as to appropriate remediation or enrichment 
that must be provided to ensure the learning occurs.
    The next thing we recognized as a critical issue was that a 
district can not accomplish a high level of learning for all students 
unless all staff members work together collaboratively. The 
collaborative team has become one of the fundamental building blocks of 
our culture. Staff need to be organized into structures that allow them 
to engage in meaningful collaboration that is beneficial to them and 
their students. Extensive professional development was required to make 
the collaboration effective. Collaborative time can be squandered if 
educators do not use the time to focus on issues most related to 
teaching and learning.
    To be governed by results means that teachers need to continually 
assess their effectiveness on the basis of results. They need instant, 
tangible evidence that their students are acquiring the knowledge and 
skills that are essential to their success. We have created a data 
system where curriculum and achievement data are stored together so 
teachers can get instant feedback to help them provide remediation and 
enrichment as needed. We have found that all students can learn if 
given the time they need. Our data analysis has helped us to design 
extended learning opportunities for various students so remediation and 
enrichment are provided in a variety of ways.
    In the Chamberlain School District 7-1 we ask all the members of 
our organization to come to school each day and make the following 
commitments:

    <bullet> Align and utilize the South Dakota Content Standards to 
provide a guaranteed and viable curriculum for all students;
    <bullet> Develop, implement, and evaluate on a regular basis a 
School Improvement Plan that targets specific instructional areas and 
students identified by data analysis;
    <bullet> Engage in meaningful, job-embedded staff development to 
enhance professional skills;
    <bullet> Initiate individual and small group instructional programs 
to provide additional learning time for students;
    <bullet> Provide families with resources, strategies, and 
information to help children succeed academically;
    <bullet> Utilize a variety of researched-based instructional 
strategies to promote success for all students; and
    <bullet> Develop and implement effective local assessments and 
administer State assessments as directed.
                    the challenges for rural schools
    The most pressing issues that are currently affecting small rural 
schools are isolation, capacity, the recruitment and retention of 
administrative and teaching staff, lack of quality pre-schools, NCLB 
punitive consequences that are designed more for urban schools and 
adequate financial resources in these troubling economic times. Add the 
lack of parental involvement, low graduation rates, the impact of drugs 
and gangs and poverty to many of the low-performing rural reservation 
schools in South Dakota and the most pressing issues significantly 
increase.
    The isolation geographically from large urban areas creates a 
continued shortage of high quality instructional learning opportunities 
for staff that are just not available in isolated rural areas. The lack 
of access to these capacity building activities seriously hampers the 
ability to support high quality instruction if the teachers are not 
supported. Any opportunities to network with others in their field are 
also limited. In a small rural school it is not unusual to see the 
superintendent hold many roles in the organization. They can also be 
the principal, grant writer, staff development coordinator, curriculum 
coordinator, coach, and then drive the bus. Can one person hold all 
these jobs and have time to build the capacity of the organization let 
alone build their own capacity to lead a high quality learning 
organization? This is why rural schools are asking that the proposal of 
making new Federal dollars, with the exception of title I that will 
remain formula-driven, available only through competitive grants be 
reconsidered. The time and capacity are not available in rural schools 
to complete and submit competitive grants. Rural schools are at a great 
disadvantage in this type of competition with larger urban schools. In 
South Dakota, the lack of funding and an inability of the State 
legislature to pass standards have severely limited pre-school 
opportunities to make sure students are prepared for school. In some 
low performing districts Head Start can only serve 25 percent of the 
eligible students. If funding and standards were available in South 
Dakota to provide effective and quality pre-schools more students would 
be ready and prepared to enter school. NCLB consequences will also not 
work in small rural areas for many reasons. Threatening to close 
schools, fire administrators and teachers in areas that get few 
applicants is not a viable turnaround strategy.
    It is hard to imagine how different a school district is when they 
serve 90-100 percent Native American students on a reservation in South 
Dakota. The history of distrust that native people have for educational 
institutions is still prevalent. Many of these districts are at a loss 
as to how to overcome the lack of parental involvement. It is hard to 
explain the impact of politics of the reservation schools. Many 
students see that it is possible to survive on the reservation at 
poverty level and it is hard to convince them they need to graduate 
when 80 percent of the adults they know do not have a high school 
diploma. Many of these schools do not have the resources to provide a 
safe environment for learning. Gangs and drugs have taken hold in these 
communities and continue to affect the overall learning in these 
situations. It has become almost impossible to provide a safe and 
secure learning environment.
    With all these issues the stigma of being a failed school really 
has a negative impact on these small, rural, and isolated communities. 
Many of these school districts have administrators and teachers who are 
dedicated and working very hard everyday to try to improve the learning 
in these situations. Many of these school districts currently have 
trouble holding onto administrators for more than 1 or 2 years. In many 
rural schools the superintendent is the principal so then the entire 
administration is lost or they simply move a short distance to another 
school district. With all the hard work they are making progress and 
show growth but they know that they will never be able to reach the 
bar. In these situations the principals and staff need to stay as the 
turnaround process may be slow but growth is being realized. 
Threatening to fire administrators and teachers and close the school in 
isolated rural areas does not make common sense. We need to give State 
Education Agencies the flexibility in working with these small, rural 
situations.
                    the condition needed for success
    The turnaround process in the Chamberlain School District 7-1 was 
funded through the use of a mixture of local, State and Federal revenue 
sources. Federal revenue sources (title I, title II Part A & D, title 
IV, title VI and Impact Aide) provided by the Elementary and Secondary 
Education Act have provided much-needed funding for capacity building 
activities as well as to implement researched-based educational 
programming that have significantly helped to increase student 
achievement for Native American, Economically Disadvantaged, and 
Students with Disabilities. These funds were provided under the current 
formula grant program. I would hope that additional dollars can be 
found to increase funding for title I because the current proposal is 
for level funding. Most rural schools like Chamberlain also have a 
limited capacity and shifting to more competitive grants for new 
Federal dollars I believe would be inherently unfair to rural school 
districts. Relying on competitive grants could take the much-needed 
funding from small rural schools. It would be very difficult for us to 
compete with school districts that have a greater capacity and 
expertise in this area. I would recommend that Congress continue to 
grow formula grants to support a more reliable stream of funding to 
support turnaround efforts in rural schools. I do want to mention that 
The American Recovery and Reinvestment Act (ARRA) funds were also 
utilized for the 2009-2010 school year. I would certainly like to thank 
the committee and Congress for the strong investment they have made in 
education through this program. Capacity building, which is an 
essential component to our turnaround success, is resource intensive 
and adequate funding is critical.
    To engineer a successful school turnaround you need to create a 
structure of supporting operating conditions. The Federal Government 
has to be flexible and allow rural school leaders to make decisions 
regarding staff, schedules, budget and program based upon the mission, 
strategy and data for each unique rural school. The turnaround process 
must be locally controlled.
    External efforts to improve schools invariably focus on structural 
changes. Meaningful, substantive, sustainable improvement can only 
occur if it becomes anchored in the culture of the organization. 
Bringing about cultural change in any organization is a complex and 
challenging task. The challenge facing educational leaders and teachers 
is to become skillful in the change process. That is why I support 
Federal resources targeted to provide training to improve the 
effectiveness of teachers and leaders in high-needs schools especially 
in rural areas as outlined in the blueprint.
                          esea recommendations
    Accountability as we know it now is not helping our schools. Its 
measures are too narrow and imprecise and the consequences are too 
severe. NCLB assumes that accountability based solely on test scores 
will reform schools. I believe this is a mistake. A good accountability 
system must include not just a simple test score but other measures of 
student achievement. It should also include a review of the resources 
being provided to schools to assess their ability to build capacity to 
be successful.
    Consider the distinction between positive accountability, where low 
scores trigger an effort to help schools and punitive accountability 
where we focus on firing staff and closing schools. In a strategy of 
positive accountability consistent, researched-based, proven steps are 
taken to improve low performing schools. There are many examples across 
the Nation that point to this strategy as being very productive. This 
is something that small rural schools can do if given the resources to 
make it happen.
    In the NCLB era and included in the new ``Blueprint for Reform'' 
you will find recommended turnaround models that are very prescriptive 
and propose consequences that include firing of principals and staff 
and even closing schools. This is punitive accountability where low 
scores simply provide reasons to trigger dire consequences for staff, 
students, parents and communities. The four turnaround models are not 
appropriate for a majority of rural and small schools. It would be very 
difficult for a small rural community in our Nation to implement any of 
the four prescribed models. I support the recommendation of the 
American Association of School Administrators (AASA) that proposes a 
5th option for school turnaround. This is to be able to implement a 
research-based intervention model, reserved in the blueprint for Reward 
districts. This should be available for the lowest-
performing districts. This would be an example of a positive versus 
punitive nature that would allow schools and districts to receive a 
school turnaround grant to implement a researched-based capacity 
building option. They would need to supply information as to how they 
are going to implement a turnaround process that is a replication of 
what other successful turnaround schools have implemented and how it is 
appropriate to their situation based upon a thorough data analysis.
    We have known for years that we need to improve schools but I have 
some grave concerns about some of the school reform efforts in vogue 
today. Efforts that set out to improve schools by applying more and 
more severe sanctions. The problems confronting quality rural school 
development have never been the result of lack of effort or lack of 
caring among educators. We have taken good people and put them in 
struggling systems. It is time to quit blaming the people and to 
transform the system. Educators are ready to play a key role in this 
transformation. If there is one thing educators know, and many studies 
have confirmed, there is no single answer or silver bullet. We simply 
must turn our attention to the research behind what makes a great 
school in rural areas and replicate the successful practices already in 
place in those schools. We must turn our attention to improving schools 
by focusing on learning and reviving the conditions that make learning 
possible.
    Thank you for your time today and I would be happy to answer any 
questions.

    The Chairman. Very good. That is great. Thank you very 
much, Dr. Mitchell.
    Now we turn to close out our panel. Mr. Petruzzi, welcome 
again. Please proceed.

STATEMENT OF MARCO PETRUZZI, CHIEF EXECUTIVE OFFICER, GREEN DOT 
                PUBLIC SCHOOLS, LOS ANGELES, CA

    Mr. Petruzzi. Thank you, Mr. Chairman and members of the 
committee.
    I will go to the other extreme in Los Angeles. I am here to 
testify on behalf of Green Dot Public Schools and our work to 
turn around Locke High School in Watts, one of the most 
chronically under-performing schools in the State of California 
and in the Nation. This is a school that had only a 25 percent 
graduation rate of its entering freshman class 4 years later, 
and we are on the path to moving that graduation rate to 60 to 
80 percent by the end of the first 4 years.
    I am going to start a little bit with the history of Green 
Dot and where we started. We operate in a district, LAUSD, that 
is the second largest in the Nation, second only to New York. 
It is larger than 25 States in the Nation. It is larger than a 
lot of European nations in terms of number of students, and the 
size of our high schools averaged 3,500 students just 3 years 
ago. So actually probably a single high school like Locke is 
actually larger than most districts, than 50 percent of the 
districts in the Nation. The problems are tremendous.
    Green Dot started with a mission to reform education in Los 
Angeles, which was a very ambitious mission, and to make sure 
and ensure that all students have access to an education that 
ensures them success in college, leadership, and life.
    We started like many charter management organizations by 
building independent charter schools, and we built 10 at first 
in the most poverty-stricken areas in Los Angeles, and we had 
great success. These are areas where students were having a 60-
70 percent dropout rate, and we were actually sending 60 to 80 
percent of our students to college. So we had a 5 to 8 times 
effect on those student populations.
    Having said that, when we looked at the magnitude of the 
problem in Los Angeles and the size of the issue, we realized 
that we needed to get into the world of turnarounds of these 
chronic performing schools because with 700,000 students--700 
schools in Los Angeles, of which 250 were failing--we felt that 
that was the imperative, to actually intervene in those large 
failing schools.
    A group of teachers at Locke High School, which was the 
lowest-performing school in Los Angeles--nobody will accuse us 
to go into an easy first school. This is a school that is in a 
very difficult neighborhood. It is 100 percent minority. It is 
about 35 percent African-American, 65 percent Latino. It is a 
gateway community for recent immigrants. There are a lot of 
gang tension. It is at the intersection of the Bloods and the 
Crypts and several Latino gangs and was basically a very toxic 
school in every possible way you can imagine. Gangs were 
controlling classrooms. There were race riots. And the 
students--when you walked it, you couldn't tell if it was 
passing period or it was class time. The basic infrastructure 
of the school had just failed.
    The teachers signed for Green Dot to take over. We had a 
core group of teachers, young teachers who were idealistic who 
wanted to change the school, and frankly a bunch of teachers 
who had given up and they just felt that it could not be done 
and they were happy to leave us the school. We asked everybody 
to reapply to the school. We are 2 years into it.
    Our basic tenet was to use the learnings that we had from 
our independent charter schools. So make small schools first. 
We guaranteed our students that every one of our adults knows 
every student's name. We do not believe that anybody can learn 
more than 500 names. We cap our schools at around 500. So we 
broke down Locke, which is now 3,200 students, into eight 
schools. We started with ninth grade academies that capture the 
incoming ninth-graders, and we kept them very separate from the 
tenth to twelfth graders to create a new culture at the school. 
A lot of personalization in the student plans.
    We also brought in a lot of feeling of safety at the school 
by bringing adults and training all adults on having respectful 
conversations with the students and actually really turning the 
student into a haven from the ultra-violence that was around 
them in the community.
    The culture of the school has improved dramatically in over 
just 1 year. First of all, the students are attending class. 
The school is graffiti-free. The attendance has gone up 12 
percent, and in just the first year, we basically stopped the 
dropout rate. We retained over 40 percent more students than 
the year before, and we had a huge cultural shift where the 
students are now thinking about college in positive terms 
compared to a statistic before where only 5 percent of the kids 
went to college.
    Now, clearly, we are humbled by the difficulty of this 
task. These are students that come into ninth grade reading and 
doing math at about a third and fourth grade level, and we 
absolutely put everybody on a college track. We do not believe 
that adults should be making decisions for students about going 
to college. We believe the students need to make that decision. 
So everybody is in a college prep track. We offer a lot of 
intervention for the students that are farthest behind, but we 
believe that everybody should be there.
    We think this is good work, and I appreciate the 
committee's work on turnarounds. We need to create the 
conditions for more turnarounds like this to happen, which are 
not easy, but they are absolutely essential. I do not believe 
that there is a choice of not doing turnarounds. Some of them 
will fail, but even if we have a 50 percent failure rate, what 
is the other option? Not trying to do something for those kids 
is impossible.
    So I would ask and I would recommend to the committee that 
we create the conditions for the flexibility that we enjoyed as 
a charter conversion in terms of staffing--every staff member 
had to reapply for the school--for the ability that we have to 
actually move funds around across schools. We created eight 
different schools with eight different principals with 
different budgets. Those flexibilities were extremely important 
for creating a culture of accountability and an ownership by 
the adults on the campus and also, frankly, the students 
regarding where they belong. This is important work that we 
would love to repeat and we would hope that the conditions are 
set by this committee so that this can be repeated across the 
Nation.
    Thank you so much.
    [The prepared statement of Mr. Petruzzi follows:]
                  Prepared Statement of Marco Petruzzi
                                summary
    Marco Petruzzi will testify before the U.S. Senate Health, 
Education, Labor, and Pensions Committee on Green Dot's successful 
charter schools and its transformation of the 3,000 student Locke High 
School. In 2007 Locke High School was in such poor condition that 
teachers working in the school petitioned the Los Angeles Unified 
School District of California to transfer school management to Green 
Dot Public Schools. As a result, over the last year Green Dot has 
worked to transform Locke High School, create a safe learning 
environment for students, raise graduation rates and increase student 
achievement. To do this Green Dot has implemented a series of school 
turnaround strategies including:

    <bullet> Implementing a new governance structure focused on small 
personalized academies.
    <bullet> Creating a culture of excellent education with high 
expectations for student success.
    <bullet> Training and supporting highly effective teachers and 
leaders.
    <bullet> Providing a safe and respectful learning environment for 
students, staff and parents.

    Locke High School is in the middle of its second academic year 
under Green Dot management. Student achievement results for this year 
are not yet available. However, there are strong indications that the 
transformation will have a significant, positive effect on student 
achievement. Some early indicators include:

    <bullet> Green Dot retained approximately 500 more students than 
LAUSD had the previous year (2008) at Locke.
    <bullet> Attendance increased by 12 percent.
    <bullet> Suspensions involving drugs or violence have shrunk from 
21 percent of all suspensions to only 5 percent.
    <bullet> Graduation rate rose by 15 percentage points.
    <bullet> Parent and student surveys indicate that stakeholders feel 
safer and more supported.

    Turning around persistently low-performing schools is extremely 
challenging. Green Dot's work has proven that it can be done, but only 
with flexibility in school governance, strong student supports and 
committed, talented teachers and school leaders. As such, Green Dot 
proposes the following recommendations for the reauthorization of the 
Elementary and Secondary School Act:

    <bullet> Provide local flexibility for school administrators to 
restructure failing schools to more effectively meet the needs of the 
community. This must include authority to use and implement the four 
elements of reform that Green Dot implemented in Locke High School (new 
school governance, personalized instruction, effective teachers and 
leaders, safe and healthy schools).
    <bullet> Increase the level of student supports, including academic 
and nonacademic supports that meet the comprehensive needs of 
struggling students and accelerate the learning and achievement of all 
students. This may include wraparound health and wellness services and 
afterschool programs.
    <bullet> Provide resources for appropriate, scientifically valid 
instructional interventions or other academic support services, 
specifically for reading and math. This may include extended learning 
time for struggling students.
    <bullet> Incentivize strategies aligning academic standards, 
curricula, and assessments with college-readiness requirements.
    <bullet> Provide funding for high-quality teacher and leader 
residency programs to recruit and train highly effective teachers and 
leaders.
    <bullet> Provide high-quality job-embedded professional development 
for teachers and leaders. This must include built-in time to share best 
practices and evaluate peer performance.
                                 ______
                                 
                              introduction
    Thank you Chairman Harkin, Senator Enzi, and all the members of the 
Health, Education, Labor, and Pensions Committee for the opportunity to 
speak today on behalf of Green Dot Public Schools. It is my hope that 
our efforts to effectively turn around Locke High School and the 
strategies we used to do so can be replicated to help improve schools 
across the country. We share the committee's goal to provide quality 
education for every child. We need a world-class education system to 
meet the demands of a global economy. As members of this committee, you 
have a tremendous challenge and an amazing opportunity to transform the 
Nation's education system through the reauthorization of the Elementary 
and Secondary School Act. I am grateful for the opportunity to share 
our experience to date and the challenges and opportunities we see 
ahead.
                       green dot charter schools
    Thirty years ago, California schools and the Los Angeles Unified 
School District (LAUSD) in particular, were considered models of 
kindergarten through university education. Since then, California has 
dropped to 46th nationally in per pupil funding and LAUSD has one of 
the highest dropout rates in the country. Faced with the unacceptable 
prospect of losing another generation of students to illiteracy, 
delinquency, and a life of poverty, Green Dot Public Schools was 
created to help reform and transform LAUSD schools. It has been a 
daunting task, but 10 years of experience and some compelling data have 
proven that positive transformation is possible.
    Green Dot opened its first school in the fall of 2000 with 140 
students. The organization has since grown to serve over 8,300 students 
in the most impoverished areas of Los Angeles. Prior to Locke, Green 
Dot operated 10 schools in Los Angeles. These schools consistently 
outperform neighboring public schools. For example, on California State 
tests Green Dot's average scores are over 130 points higher than other 
public schools in the same district. In Green Dot schools: 80 percent 
of entering ninth-grade students graduate within 4 years; 76 percent of 
graduating seniors have been admitted to 4-year universities; and 
nearly all other graduates attend 2-year colleges or enter the 
military. In Green Dot schools graduation rates for students receiving 
a College Preparatory High School diploma.\1\ We achieve this while 
serving a 99 percent minority population. In contrast, LAUSD's 
graduation rate is 12 percent overall and drops to 8-9 percent for 
African-Americans and Latinos. Our core mission is to graduate students 
and prepare them for college, leadership, and life.
---------------------------------------------------------------------------
    \1\ California students can graduate with two types of High School 
Degrees: the ``traditional'' High School Diploma and the A-G High 
School Diploma, which allows students to apply for admission into the 
UC/CSU system. This second degree is much more rigorous and it is the 
minimum standard that high schools should be offering for college 
preparedness. All Green Dot Schools only offer the A-G diploma.
---------------------------------------------------------------------------
    Green Dot was not founded to replace the public school system, but 
to catalyze school reform. Our vision is to prove there is a more 
effective way to provide public education to young adults in the Los 
Angeles area and achieve real results. Running small successful charter 
schools in which low-income, high-risk youth succeed not only provides 
quality education for students, but influences LAUSD and other school 
districts in the area to adopt more effective school governing and 
academic strategies.
                    the locke high school turnaround
    The Alain Leroy Locke Senior High School was created as a response 
to the Watts riots of 1967 to provide students in South Los Angeles and 
the Watts community a safe and secure place to learn. Forty years later 
Locke High School earned the unenviable distinction as one of the worst 
performing schools in California. The school serves a 99 percent 
minority student population with 95 percent qualifying for free and 
reduced lunch.\1\ Before the Green Dot takeover no student was offered 
a quality education. Here are some of Locke's statistics prior to the 
transformation:

    <bullet> In 2004-2005, nearly 40 percent of Locke's teachers were 
under-credentialed.
    <bullet> Ninety percent of Locke's students performed below basic, 
or far below basic, on California Standards Tests in both mathematics 
and English language arts.
    <bullet> Fifty-seven percent of students failed Algebra 1A.
    <bullet> Fewer than one-third of students passed the California 
High School Exit Exam, required for high school graduation.
    <bullet> In 2007, graduation rates were only 28 percent.

    With more students on the streets than in the classroom, the school 
culture had become one of violence and chaos. In May 2008, nearby 
street violence led to riots inside of Locke, which had to be quelled 
by the police.
    In early 2007, teachers took matters into their own hands. Teachers 
who had left Locke to work in new flagship Green Dot Schools joined 
hands with the remaining Locke teachers and the Watt community to 
petition LAUSD for a change in school management. In July 2008, all 
2,700 students at Locke began to be served by the Green Dot 
organization.
    Known as the Locke Transformation Project, this radical 
restructuring was made possible through a one-of-a-kind partnership 
between a non-profit charter operator (Green Dot), the stakeholders of 
a public high school (teachers, parents, community leaders), and a 
school district (LAUSD). Unlike previous charter schools run by Green 
Dot where enrollment is controlled and students and parents sign up to 
enroll from across the district, at Locke High School Green Dot took 
responsibility for every student within the existing attendance 
boundary.
    Before the school could reopen in the fall of 2008, Green Dot 
identified over 150 issues that needed to be addressed to ensure 
minimum operating standards. These issues ranged from hiring effective 
school leaders and teachers to addressing the needs of the students 
returning from juvenile correctional facilities. Decisions as basic as 
uniform colors and as complicated as gang intervention strategies all 
had to be made before the doors opened on July 8th for the first day of 
summer school.
    Over the last 2 years Green Dot has made great progress 
transforming Locke High School by:

    <bullet> Implementing a new governance structure focused on small 
personalized academies.
    <bullet> Creating a culture of excellent education with high 
expectations for student success.
    <bullet> Training and supporting highly effective teachers and 
leaders.
    <bullet> Providing a safe and respectful learning environment for 
students and staff.
                 a new school structure and governance
    Based on Green Dot's principle of small, personalized schools, 
Locke re-opened in the fall of 2008 as the new Locke Family of High 
Schools, restructured into eight small academies. Each academy has its 
own principal, its own set of classrooms with clear boundaries, and its 
own County-District-School (CDS) code for individual school 
accountability. All academies are college-focused; students are 
required to take the 13 courses necessary for admission to California 
State Universities, known as A-G classes. College readiness is a basic 
tenet of all Green Dot schools and Locke is no exception.
    To meet the needs of diverse learners, some of Green Dot's 
academies have additional interventions. The goal is for the smaller 
academies to meet the individual needs of all students in the larger 
community. For instance, there are specific academy programs for 
English Language Learners and students with special needs. Other 
academies pair college preparation with career technical education. The 
ACE Academy in particular is an example of one innovative school model 
within the Locke Family of High Schools that provides students with an 
opportunity to explore pathways in architecture, construction and 
engineering integrated with an A-G college preparatory curriculum.
    The original Green Dot charter school model uses an incubation 
period to phase in new students. Every year, each academy takes on a 
new 9th grade class of 150 students. This model continues until they 
establish a full 9th-12th grade academy with approximately 500-600 
students. Since Locke was already an established school with 2,700 
students, Green Dot created two transition academies, known as Locke 
Launch to College Academies (LLCA's), for the existing 10th-12th grade 
students. Green Dot then created five small academies using the 
original incubation model for all incoming 9th grade students. The 
LLCAs have been a challenge as teachers have had to work hard to 
incorporate older students into the curriculum, make up for years lost, 
and break entrenched habits. Green Dot has seen the most dramatic 
impact from the students who attended Locke before the transition. Our 
initial results are positive, particularly in terms of attendance and 
disciplinary issues. Under Green Dot, Locke's average daily attendance 
rose from 77.8 percent to 89.3 percent. Additionally, 85 percent of 
parents surveyed said Green Dot provided a safe environment and offered 
better access to education than LAUSD.
                    a culture of excellent education
    Green Dot emphasizes differentiated, personalized learning based on 
student growth and specific benchmarks for achievement. Frequent and 
multiple student assessments measure growth and inform instruction. 
Through these assessments, teachers offer differentiated instruction to 
ensure all students are achieving academically. Also, Green Dot's 
curriculum skills course focuses on study skills development at each 
grade level:

    <bullet> 9th Grade Curriculum Skills: The curriculum is focused on 
the individual as a student learner and community participant. Students 
are taught study skill strategies, test taking strategies, and 
communication tools to enable them to succeed academically.
    <bullet> 10th Grade Curriculum Skills: The curriculum is focused on 
adequately preparing students for the California High School Exit Exam. 
Students work with content teachers, use an online component and 
receive continual feedback on areas of strengths and weaknesses.
    <bullet> 11th & 12th Grade Curriculum Skills: There are three 
pathways for 11th graders designed to accommodate students that are on 
track to graduate, students who still need to pass the California exit 
exam (CAHSEE) and students who need intensive credit recovery 
assistance.

    Green Dot uses data from State assessments, diagnostic assessments, 
e.g., Read 180, Math Diagnostic, and classroom assessments on an 
ongoing basis to inform instruction and student placement. Given that 
the majority of students entering Locke are reading at the third grade 
level, specific student interventions (such as Read 180 and Math 
Diagnostic) are necessarily built into the school day. The staff 
analyzes student achievement data to determine the areas of highest 
need and to develop specific goals and steps necessary to increase 
individual student achievement. Each department sets goals at the 
beginning of the year and determines specific steps that will be taken 
to achieve agreed-upon goals. For example, after reviewing State test 
data, the math department may set a goal to increase the number of 
students in the ``Advanced'' category in Algebra by 16 percent. The 
department then establishes the necessary steps each teacher will need 
to take in order to reach the goal. The department is responsible for 
determining resource allocation for each goal. Green Dot has also 
launched a comprehensive effort to improve writing skills, as writing 
is a fundamental skill needed for college success.
    Student grades are reviewed each quarter to ensure that assessments 
are determined appropriately based on student growth and individual 
student needs. Assessments are designed, reviewed, and evaluated based 
on their accuracy in monitoring student growth. Tests are not intended 
as punitive measures for students but rather as guidelines for 
improvement.
    In the first year, even with a 38 percent increase of students 
tested, Green Dot has been able to maintain a consistent percentage of 
students achieving proficiency in English and Math. Already, first year 
students interviewed about the changes in Locke High School stated, 
``The teachers care a lot more--they ask you things, like whether 
you're OK, and do you understand what they taught.'' \2\ ``Teachers do 
not ask if we are going to college; they ask us which college we will 
be attending.'' \3\ Seventy percent of students surveyed noted positive 
impressions of Locke's discipline policy, school spirit, and access to 
an adult when in need of assistance. In 2007-2008, Locke reported 924 
suspensions. Under Green Dot management this number shrank by 50 
percent.
---------------------------------------------------------------------------
    \2\ LA Times Editorial Staff, ``Locke High School's Progress,'' The 
Los Angeles Times, December 1, 2008.
    \3\ Comment from student stakeholder feedback.
---------------------------------------------------------------------------
                 effective teachers and school leaders
    To achieve its ultimate goal of dramatically raising student 
achievement, Green Dot is focused on ensuring students at Locke have 
access to highly effective teachers and school leaders.
    Green Dot's ``Administrator in Residence Program'' is a cornerstone 
of its effort to recruit, train, and induct effective leaders. The 
program provides ongoing support for the aspiring leaders as they 
develop their philosophy of education, leadership, and other key 
foundational elements prior to the opening of a school. The program 
inducts and trains future principals and assistant principals in six 
key areas:

    <bullet> Green Dot philosophy, core values, and education model
    <bullet> Building Culture
    <bullet> Instructional Leadership
    <bullet> People and Resource Management
    <bullet> Community Leadership
    <bullet> Problem Solving

    The principal training program is a 1-year fellowship program 
rotating through Green Dot's highest performing schools. Over half of 
Locke's new principals were identified through the residency program.
    A critical component of academic success is ensuring that our 
teachers are well prepared. Therefore, job-embedded professional 
development for teachers and school site leaders is a critical 
component of Green Dot's school model and program. Green Dot believes 
strongly in reflective practice, which occurs in an environment where 
there is collaboration, use of meaningful data, and thoughtful 
discussion regarding instruction. Each teacher receives 144 hours of 
professional development per year. Some specific activities include:

    <bullet> Peer Observation: Periodic observations of a colleague to 
observe and debrief on best practices in the classroom.
    <bullet> PD Days: Ten full days of professional development for 
school staff to plan for the year, reflect on best practices, and 
analyze data.
    <bullet> Weekly staff development: A late start is provided 1 day 
each week in order to establish a 90-minute professional development 
period.
    <bullet> Intensive Teacher Support and Observations: New and 
struggling teachers are pulled out of class every other month or as 
needed for one on one reflection and planning sessions (with 
administrator and or department chairs) to address their individual 
staff development needs. They are observed by their department chairs 
and provided with peer support in monthly department meetings.

    Implicit in our teacher professional development efforts is a core 
element of the Green Dot mission: all staff must be dedicated and fully 
committed to providing the best education possible for all students. 
For this reason, Green Dot required all former Locke staff to reapply 
for their jobs with renewed commitment to the classrooms and a 
dedication to high-quality, rigorous instruction. Nearly a third of the 
original Locke teachers were rehired under Green Dot's management. 
Refuting the notion that bold human capital initiatives cannot be 
accomplished within the collective bargaining framework, Green Dot's 
teachers are all union certified.
             safe school environment for students and staff
    In perhaps the biggest push to raise attendance rates, increase 
student participation, and lower the dropout rate, Green Dot has 
implemented an extensive effort to change the culture of Locke High 
School. This effort has included several specific strategies including: 
a significant investment in safety and conflict management practices; 
extended school hours; and parental involvement and wraparound 
services.
    Green Dot invested aggressively in improving safety in a school 
that was overrun by gang problems. There are numerous individuals 
dedicated to very visibly monitor the school at different times during 
the day to make sure that students feel the school is safe and not open 
to external influences. Some areas of the campus have been fenced in to 
increase security and Green Dot has developed a series of techniques to 
create ``safe passage'' to and from school. There are bus services to 
protect students traversing gang territory and there are security and 
parent volunteers posted around a 2-block perimeter from the campus. 
These measures have helped to eliminate fights, reduce graffiti and 
other forms of vandalism.
    Green Dot has also put in place a comprehensive ``Safe and Civil'' 
program to help build conflict management skills for incoming freshman 
students, as well as for existing students. The main program starts 
during the summer ``bridge session'' to transition students from their 
8th grade schools into the 9th grade Locke Academies. The program 
includes strategies to:

    <bullet> Develop better behavior management strategies.
    <bullet> Learn effective classroom management procedures.
    <bullet> Implement schoolwide Positive Behavior Support and 
Response-to-Intervention for Behavior.

    The goal of this program and others at Locke is to instill respect 
and responsibility in the students and for staff to improve school 
climate and school culture. All our staff, including non-teaching 
personnel, is trained to address students respectfully and on how to 
de-escalate potentially volatile situations. We strive to turn any 
issue into a ``teachable moment.''
    Green Dot school facilities are kept open until at least 5 p.m. 
daily to provide students with safe, enriching afterschool programs and 
to allow community groups offering quality services to use the 
facilities. Keeping schools open later accommodates the schedules of 
working families. Allowing community groups to use school facilities 
helps ensure that the local neighborhood takes ownership and 
responsibility for the school.
    At Locke, the Watts Willowbrook Boys & Girls Club and the Watts 
Labor Community Action Committee (WLCAC) are the service providers for 
the afterschool programs. Students who are not achieving a satisfactory 
grade within a particular class or who need more support in a subject 
can attend tutoring, which is offered for an hour every day after 
school and run by a credentialed teacher. Academic programs such as SAT 
preparation, academic focused groups such as calculus and algebra clubs 
are also available afterschool.
    Green Dot is committed to actively integrating parents/guardians 
into all aspects of their students' education experiences. At all Green 
Dot schools parents are required to give at least 35 hours of service 
annually. A wide variety of service opportunities are available 
including, attending PTA meetings, volunteering to provide safe 
passage, taking students to museums or participating in cultural 
events. Education programs are provided to new parents to help them 
learn the best ways to support their children's educations. Research 
has proven that increased parental involvement can directly affect 
student achievement and we believe engaging parents is key to creating 
a safe and healthy learning environment for everyone.
    Next year Green Dot plans to open a community health and wellness 
center in the neighborhood. The Locke Wellness Center will address 
students and parent's emotional and social needs. Specifically, the 
Center will provide health and vision screenings, mental health 
services, parenting classes, and exercise classes as needed.
    While there is still a long way to go to improve the neighborhood 
as a whole, a protected healthy learning environment is the first step 
to reducing violence in the community and raising student achievement 
at the school. Some of the early indications of success include:

    <bullet> Green Dot retained approximately 500 more students than 
LAUSD had the previous year (2008) at Locke \4\;
---------------------------------------------------------------------------
    \4\ Data obtained by comparing number of active students in LAUSD's 
student information system in 2000-2008 and Green Dot's student 
information system in 2008-2009.
---------------------------------------------------------------------------
    <bullet> Attendance increased by 12 percent;
    <bullet> Parent and student surveys indicate that stakeholders feel 
safer and more supported;
    <bullet> Suspensions involving drugs or violence have shrunk from 
21 percent of all suspensions to only 5 percent; and
    <bullet> Graduation rate rose by 15 percentage points.
                      recommendations to congress
    To conclude, Green Dot's efforts to turn around Locke High School 
have been and will continue to be successful because we learn from our 
environment, hone our practices, and focus on the specific needs of our 
students and community.
    We hope that Green Dot's experience at Locke High School will be 
instructive to educators and policymakers striving to turn around low-
performing schools. To this end, we recommend Congress reauthorize ESEA 
to:

    <bullet> Provide local flexibility for school administrators to 
restructure failing schools to more effectively meet the needs of the 
community. This must include authority to use and implement the four 
elements of reform that Green Dot implemented in Locke High School (new 
school governance, personalized instruction, effective teachers and 
leaders, safe and healthy schools).
    <bullet> Increase the level of student supports, including academic 
and nonacademic supports that meet the comprehensive needs of 
struggling students and accelerate the learning and achievement of all 
students. This may include wraparound health and wellness services and 
afterschool programs.
    <bullet> Provide resources for appropriate, scientifically valid 
instructional interventions or other academic support services, 
specifically for reading and math. This may include extended learning 
time for struggling students.
    <bullet> Incentivize strategies aligning academic standards, 
curricula, and assessments with college-readiness requirements.
    <bullet> Provide funding for high-quality teacher and leader 
residency programs to recruit and train highly effective teachers and 
leaders.
    <bullet> Provide high-quality job-embedded professional development 
for teachers and leaders. This must include built-in time to share best 
practices and evaluate peer performance.

    Green Dot's core value is an unwavering belief in all students 
potential. Evidenced by our early results at Locke, students will 
strive to meet the expectations of their teachers and mentors--if given 
the chance. Although Locke still faces significant challenges, we are 
confident that Green Dot has already begun to transform the lives of 
our Locke students and the community we serve.
    I am happy to answer any questions you may have.

    The Chairman. Thank you very much, Mr. Petruzzi. Thank you 
again, all, for excellent testimonies both verbal and written.
    We will start a round of 5-minute questions. I am told 
that, Mr. Klein, you have to leave at 3:30. If any of you have 
other commitments like that, please let us know.
    From my reading of your testimonies last evening and 
listening to you today, it is becoming clear, at least to me, 
that there is no one thing. There is no single silver bullet, 
if only we do this one thing, that will solve everything. It is 
a lot of different things.
    One thing that keeps coming through in almost all of your 
testimonies, but for yours, Dr. Mitchell, is that it seems to 
me that you have to have more manageable school sizes. You 
mentioned that, Mr. Klein. Ms. Donohue, you mentioned that. Mr. 
Petruzzi, you mentioned that. You kind of touched on it a 
little bit, Dr. Balfanz.
    Yet, when Andreas Schleicher, who is from the OECD, was 
testifying about some of his findings and research, I asked him 
the question about smaller sizes, and he said there was no 
correlation between doing well and sizes of classes. I did not 
ask him about sizes of the schools. I asked about class size, 
which kind of went against everything that I have ever thought 
or believed or observed, and that is, that the fewer kids you 
have to teach, the better they are going to learn, all other 
things being equal.
    Elementary school teachers who are leaving after 2 or 3 
years--I have talked to many of them. The ones that have 12 or 
13 kids--they love it. Those that have 20 and 25 kids--they 
cannot stand it.
    You all talk about smaller schools, but how about class 
size? Is that an important factor that we should consider, what 
is the size of the class that the teacher is teaching? Mr. 
Klein, is that an important factor?
    Mr. Klein. As you said, Mr. Chairman, you have to hold all 
the other factors equal. The most important factor--and I am 
convinced of this--is the effectiveness of the teacher. I have 
never met a parent who would not rather have her kid in a class 
of 25 with a great teacher than a class of 20 with an ordinary 
teacher. That is why you have to control all of the variables.
    The reason school size matters, certainly in a city like 
mine, is precisely because of the kind of things that Marco 
just testified to. We have lots of kids who get to high school 
woefully under-prepared. When those kids get to high school, if 
you do not have personalization, if you do not know who those 
children are, you do not have a faculty that is committed to 
them collectively like my colleagues have said, you will not 
succeed.
    Now, I run schools in New York like Stuyvesant High School, 
and those schools have thousands and thousands of kids in them. 
So they are a very different set of challenges. What we need to 
do is understand that there is no uniform solution to the 
problem. In fact, if you can lower class size, while preserving 
the effectiveness and the quality of your teachers, that is a 
great solution.
    In the course of trying to do things--for example, in New 
York, we have raised teachers' salaries 43 percent. We now have 
six, seven candidates for every vacancy in our city, and it has 
attracted people to want to come there. So that differential 
matters. Now, we could have kept the salary the same and hired 
more teachers, but I think we would have paid a price for that, 
Mr. Chairman.
    The Chairman. Which again, raises the whole issue of cost. 
All of these changes that are being made--New Visions, for 
example. How have you factored in the cost of these changes and 
how are these absorbed by the city of New York?
    Mr. Klein. This is a great question for us, and obviously, 
Beverly will want to comment.
    What we did is 2 years ago we took our $250 million from 
our bureaucracy, just downsized it, and what we said to all of 
our schools is instead of having a mandatory bureaucracy, you 
can have a thing called a school support organization. We 
created five of them internally and six of them, including New 
Visions, partnered with us. The schools now pay New Visions 
somewhere around $40,000 or $50,000 a year to partner with 
them. Our 1,600 schools, each one of them, took that money that 
we returned to them from the bureaucracy and created 
partnerships. New Visions, City University, Fordham, and other 
groups, as well as internal groups that we have created.
    One of the things we have got to stop thinking, Mr. 
Chairman, is that inside the school district or inside the 
school system we have the solutions. There are people like New 
Visions, Green Dot, and others who we want to create in New 
York. So I invited Green Dot to New York. I am proud to say 
they opened up a school with us in New York City. They are 
doing extraordinary work. New Visions partners with us in some 
75, 80, 90 different schools, and I want to expand their role. 
So we have to stop thinking of this as somehow an hermetically 
sealed endeavor and bring all the hands and talent. How do we 
fund them? I can hire the people internally or I can partner 
with her. I would rather partner with her.
    The Chairman. Well, that raises the question of why. If it 
is the same amount of money, why can you not do it internally, 
as well as externally?
    Mr. Klein. Because there are organizations out there like 
hers who have a longstanding commitment, who operate under very 
different rules, and who bring talent and passion to an 
enterprise that is largely talent-less and oftentimes passion-
less.
    It is not just New Visions. I have the Asia Society. I have 
Outward Bound. I have the College Board. I have community 
groups, all of them partnering with our schools. I cannot hire 
all of those people inside the system, but there is no reason 
not to partner with them.
    Take these guys from Green Dot. I happen to know them quite 
well. What they are doing at Locke is nationally historic, and 
anybody who knows things about Locke High School knows this is 
as steep of a hill to climb as you can possibly find in public 
education.
    Let me just finish the point. They do not want to come work 
for me inside the school system. They would feel that they were 
smothered by the rules. What they want to do is go take a 
school. They let me hold them accountable till their teeth 
hurt. Go take a school and do what they are doing at Locke High 
School, and if they want to do it that way, I know how to dance 
with people like that.
    The Chairman. Very good.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman. This has been 
extremely helpful. I see some common thread among all of the 
witnesses.
    I am going to concentrate a little bit on the rural aspect 
that I mentioned to begin with and will start with Dr. 
Mitchell.
    You mentioned the fifth option that might work as being 
research-based. Could you give me more information on that? You 
went over that pretty fast.
    Mr. Mitchell. I think in the smaller rural situations, what 
we are looking at is trying to take a look at some other 
options other than closing the schools and turnaround and 
transformation models that they are talking about. For example, 
in South Dakota right now, there is a very low-performing 
reservation school, and their superintendent and their staff is 
working very hard. So we have partnered with them, and we have 
done some staff exchanges and we have done some professional 
development together. And they are very interested in taking a 
look at least replicating something that another school that 
has had some success is doing.
    I know you have mentioned that there is not a tremendous 
amount of real hardy research in this particular area, but it 
also gives us some caution as to: should we totally eliminate 
this from a Federal law when we are starting to see some little 
springs of success with this work amongst a district like 
myself; can we come together with other districts; can we 
share; and can we try to replicate some of the different 
things.
    Dr. Reeves, with the leadership and lead institute, has the 
90-90 study about turnaround schools that is giving us some 
information. I mentioned a little bit about professional 
learning communities, which is the DuFour, DuFour, and Eaker 
work of Solution Tree. We are starting to see some things. When 
it looks into leadership turnaround in our particular region, 
we have seen some work from Robert Marzano and Tim Waters with 
the Mid-continental Educational Laboratory with school district 
leadership that works and school leadership that works.
    So we are starting to flesh out some research here that I 
think could be applied if we at least would allow, in the 
Federal law, States to have some flexibility in these rural 
areas to offer the positive instead of the punitive type of 
accountability.
    Senator Enzi. Thank you. I hope you will keep us posted on 
that. In fact, I want to thank all the members of the panel for 
being willing to do this. I do have some rather specific 
accounting type questions that probably Mrs. Donohue can answer 
the best. I would appreciate answers from all of you in your 
area.
    Dr. Mitchell, I want to thank you for your comments about 
how these rural schools are rather isolated. So a lot of those 
options are not available. Yet, there is that same stigma on 
the school that creates a problem.
    Dr. Balfanz, little of the Federal funding ever makes it to 
the high schools. As you stated in your testimony, turnaround 
efforts at this level are difficult and rarely successful. Are 
there elements that should be required by school districts if 
Federal funding were provided specifically to high school 
reform activities, or should the school districts be allowed 
flexibility to do what they want?
    Mr. Balfanz. I think there is a middle ground. I think that 
if you look at organizations that handle complexity better like 
the military and medicine, even business, they do two things. 
They invest more in applied R&D or solving problems of 
practice, and once they do that, they turn those into standards 
of practice or protocols which you are expected to use. If you 
do not, it is malpractice or you get court marshaled. So I 
think we need to think about a system where we can start 
learning key things that matter that are fundamentally 
necessary to turn these schools around and, as we do, say this 
becomes part of our emerging body or standards of practices.
    It is behooving on you to show that you are using the 
standards of practice. We are not going to federally say 
exactly what they are, but we are going to ask you to show 
evidence that you are using an evidence-based standards of 
practice and that you have fully thought out your full 
challenge, that you have really analyzed what is my academic 
challenge, what is my engagement challenge, what is my poverty 
challenge, and I have a design that meets those. So that level 
of requirement I think is important.
    I would say that we do not know enough yet to be able to 
say you should do this specific reform in this situation.
    Senator Enzi. I appreciate that, and I appreciated the 
outline you gave of the different size problems that require 
different solutions. That was very helpful. And your phrase, 
``protection from turbulence,'' of this legislative rule, that 
if it is worth reacting to, it is worth overreacting to, and I 
am sure that provides a lot of turbulence.
    If I could get a quick answer on this one, that will be my 
final question. I am almost out of time.
    Ms. Donohue, Mr. Klein mentioned that you can operate under 
some different rules and regulations, so you are not smothered 
by the rules. What kind of rules would those be?
    Ms. Donohue. As a nonprofit, we are not bound by the rules 
around hiring and other issues that a school system would face 
working in the public sector. So we look for the people who 
work with us. We work with retirees who have been educators who 
are available on a part-time basis. We find talent where we 
can. And I think it is the human talent, the commitment that 
people have and the flexibility that we can give them around 
their work that attracts them to continue to work with us.
    Senator Enzi. Thank you. My time is up. Thank you, Mr. 
Chairman.
    The Chairman. Thank you very much, Senator Enzi.
    I just might ask--I know Chancellor Klein has to leave at 
3:30--does anyone have any specific questions for Chancellor 
Klein before he has to leave? I would be willing to recognize 
anyone who has a specific question.
    Senator Franken. I have just one more question.
    The Chairman. Just for Chancellor Klein.
    Senator Franken. Yes.
    The Chairman. OK.
    Senator Franken. Well, this is a short one, I think.
    You stopped social promotion in New York. Right? So I think 
this is really probably an obvious answer to a simple question. 
If you stopped social promotion, why do kids in higher grades 
still have these gaps?
    Mr. Klein. The answer is because it has not been in effect 
long enough. So as the system works its way through, we started 
at the third grade, but over time, they will not have the gaps.
    The second reason is even as we stop social promotion, 
increasingly we are raising standards because we are finding 
that our students need to be really college-ready, not just 
simply high school graduates.
    Senator Franken. I knew it would be a simple matter.
    The Chairman. Senator Alexander.

                           Senator Alexander

    Senator Alexander. Thank you, Mr. Chairman.
    Mr. Klein, your comment says powerful interest groups 
continually advocate for the status quo, and our Blueprint that 
we are working on says we would basically be giving you, for 
example, four choices about how to turn around schools.
    My question is why should we be telling you how to do it? 
You know more about how to do it than we do. You are on the 
spot. You have been doing it. Why would it not be better for 
us, if we are just going to--and for a former Governor, this is 
a very strange thing to say. Why would we not just empower you 
to do it by overriding all the union rules, local rules, 
Federal rules, and State rules that keep you from doing what 
you need to do in these failing schools?
    Mr. Klein. Well, if you can get a majority for that, then I 
think we should move toward that.
    I think fundamentally the answer to your question is if you 
hold cities and States and school districts accountable for 
results and make sure that Federal funding follows those 
results, then I think you will get what you want.
    It is very hard to close down schools. It is very hard to 
change in a dramatic way the way a school operates. The kind of 
thing that you see with Green Dot is very rare in America.
    So I believe that the Federal Government can take a 
leadership role, and that is why I think Secretary Duncan 
basically learning from his experience in Chicago--that if the 
Federal Government puts its finger on the scale here and says 
these are the fundamental models and then holds you 
accountable, it helps you get done some of the tough political 
work locally. As far as I am concerned, I think that's a 
positive thing. If this committee or the country were prepared 
to go further in empowering us, I am all for it, as long as it 
is tied to rigorous accountability and performance. I think for 
too long Federal moneys flowed without real accountability in 
the system, and I think when you do not have accountability, 
you do not get a good return on your investment.
    Senator Alexander. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Dodd, you are next.
    Senator Dodd. Joel, let me follow up on Lamar's question 
because it is a good question. As a chancellor of a system-wide 
program, who should make that decision within your system about 
which turnaround model may work best? Put aside for a second 
whether or not you are limited by what we decide in a bill 
here. Should that be a decision you make? Should the school 
district make it? Should the individual school decide? How does 
that really work? If we are going to get down to the point 
where that school and people in it really have a better 
understanding, know the families, know the whole culture of 
that community, are they in a better position to make that 
choice, or should it be made at the----
    Mr. Klein. My preference is to make it at the district 
level because I think we are accountable to the entire 
community. So basically it is very hard.
    I want to be brutally candid. I have known you a long time. 
Closing down schools is very tough stuff and there is enormous 
push-back. I can see from the corner of my eye Senator Bennet 
smiling because he and I have had this discussion. He had to do 
a little of it. People have a deep attachment to a school, and 
the people who are there at the time, obviously, are very 
emotionally affected, both the faculty and students.
    However, I am convinced--and I have now seen it, and I will 
give an example in Bushwick, but there are many others, Avanda 
Child where my mother went to school; Morris High School where 
my father went to school. These places were broken. Now, the 
people who were there worked hard, but they did not succeed. 
Sometimes you need to be--similar to being accountable for 
running a school district, you need to do the tough medicine.
    That is why I think Secretary Duncan proposed what he did, 
because I think he saw it firsthand in Chicago. What you are 
likely to see, which is understandable, the people who are 
unhappy about it will push back naturally.
    I have often said to people in a private conversation, 
would you send your own child to that school? No.
    Senator Dodd. I understand that and I am not disagreeing 
with your point except in a lot of cases, we often wonder what 
the options are. I think people are under this illusion that 
there is a nice little St. Aloysius around the corner where 
everyone is going to go to school because PS150 closed down. 
There is not a little St. Aloysius around the corner. It is not 
just the attachment to the school that closes. It is what are 
the options for that family and that child. That has got to be 
as large a preoccupation as the choice of losing the old famous 
neighborhood school.
    Mr. Klein. Absolutely, but in every one of these 
instances--we have closed down some 90 schools and opened up 
some 400 schools, about 20 percent of them charter schools, the 
rest public schools. We work with New Visions. We work with 
College Board. So if you shut down a 2,000-person school and as 
you are phasing it out, you put in 400- or 500-kid schools, you 
theme those schools. You give them a real partner. You get New 
Visions. Then you create the options. All of our data show that 
we are getting 10-, 12-, 15-point better graduation rates as a 
result of that. But you are right. You cannot just shut it down 
if you do not have an alternative.
    Senator Dodd. Too often that is what it comes across as. If 
Jack Reed were sitting here--and he may show up at any minute. 
He went through a dreadful experience where, again, just the 
cursory information-sharing with people about what was likely 
to happen or going to happen caused as much of a problem as the 
fact they were closing down the school. How it is handled can 
have a huge impact.
    Mr. Klein. Absolutely.
    Senator Dodd. Joel, good to see you. I do not know if 
anybody else has any questions, but Joel, I will defer for a 
minute. Michael or anybody else, do you want to raise anything? 
No?
    Nice to see you again.
    Mr. Klein. Thank you very much, Mr. Chairman. I appreciate 
the opportunity.
    Senator Dodd. Let me jump in on this question, if I can, 
just to finish up on my line. I guess all of us have this 
experience. I come from a family of educators, of public school 
teachers. My father's three sisters taught for 40 years a piece 
in three separate public schools in Connecticut. My sister just 
finished 41 years, the last 20 of which were in the inner city 
of Hartford as an early childhood development teacher. Forty-
one years was enough anyway. I was just saying to Tom, the 
chairman, that she began to see just the job of being a 
teacher, taking on so many different roles. It was just 
overwhelming. These kids showing up--these were early childhood 
programs in public schools--with so many problems, just 
staggering the number of problems they were walking into that 
school with them, way beyond her capacity as a teacher to deal 
with all of them, as well as be an educator.
    I was just curious. In looking at these issues--anyone who 
wants to respond to this, but Mr. Petruzzi, let me start with 
you since you are a large school district, obviously, in Los 
Angeles. How do you deal with this? Did you have after-school 
programs? Are there support staff for teachers? What are the 
pieces? It is not just a teacher, obviously. That's critically 
important. What Mr. Mitchell said I so identify with. It is not 
just a question of how teachers teach, but teachers have an 
obligation to learn how children learn, and too often it is 
more focused on teachers' teaching capacity than understanding 
how each child learns, and it is different. The capacity to 
learn is so affected by so many outside influences before that 
class day begins, and to what extent do you involve these 
external elements in helping you turn that school around?
    Mr. Petruzzi. Yes. The level of issues of the population we 
had, probably about 20 percent of our kids in foster care, we 
have drug issues, gang-related issues. I think 25 percent of 
our kids have post-traumatic stress syndrome. It is amazing 
what they face. I think 20 percent of our kids do not have 
eyeglasses and they cannot see the blackboard, but they have 
never had a vision check. Forty percent of our kids have 
cavities and they have never been to a dentist. They are 
overwhelming issues. We have been working with partnership 
groups, and we brought free dental and vision care to the 
schools through other nonprofits because you cannot teach a kid 
who is in pain.
    We are trying to build with the district a health facility 
right next door that can serve the entire school community and 
also teach around pregnancy and gang-related issues. We brought 
in a team of mental health care workers.
    When you were asking before about the cost of doing these 
turnarounds, these costs are real. We have spent a lot of money 
that is beyond the poor, little money that we get from 
California at this stage of the game. We had to raise and 
fundraise a lot of money for those issues because as we looked 
at the problem, it was so beyond just effective teachers, as 
you pointed out. And it is important that those funds are 
available for this.
    We also have to build two new buildings for this because 
when we looked at the capacity in terms of classrooms--would 
that capacity work with 40 kids per class and a 60 percent 
dropout rate? It does not work with 25 kids in a class and less 
than 10 percent--20 percent retention. So we have to build two 
new buildings. So when you look at the factors that affect the 
cost of these turnarounds, they are very specific to the area, 
very specific to the conditions, and frankly, the issues around 
what the students need just to get them in class and be able to 
be in a learning environment where they are not worried about 
other things are very important.
    Senator Dodd. If someone else wants to comment.
    Mr. Mitchell. Yes. We see a lot of discrepancy of what 
comes in as our product. In kindergarten, you have those that 
have had a couple of years of parent-supported preschool. You 
have those that have had Head Start, and then you have some 
that have had no formal kind of preschool training. They just 
show up at your door in kindergarten, and what are you going to 
do?
    One of the things that I talk a lot about is--think about 
this. It is the first day of school. You take your kindergarten 
class down to the gym. You tell them, I want you to run from 
one end of the gym to other end of the gym. One rule: you run 
as fast as you can but you all have to get there at the same 
time. A kindergartner will raise their hand and wonder what you 
are talking about. Sometimes you have to get that engrained 
into your teachers that there is that aspect of what their 
product is, and there are differentiated instructional things 
that we can do to try to approach that.
    But certainly as part of that, we have to find time within 
the day and outside of the day, and we have used a lot of 
resources that we thank you for, stimulus resources, a 21st 
Century Learning Communities grant. So we do have a before-
school program. We have an after-school program. We have a 
Saturday school program. We have a summer school program. So we 
are doing lots of different things because not everybody can 
learn at the same time based upon we do not have all the same 
product.
    As soon as I gave that analogy to my teachers in our 
district, we started to understand at a higher level what we 
needed to do.
    It is very important that we put the resources capable for 
turnarounds, that they have the opportunities to do some 
different sorts of things that allow for that extended learning 
time because not everybody learns in the same amount of time.
    Mr. Balfanz. Just really quick. I think a point I would add 
is, we really have to think strategically how we can create the 
second shift of adults to help teachers which begins with 
parents but it needs to extend beyond them. I think there are 
ways to leverage existing Federal investments, things like the 
Serve America Act and National Service Volunteers from groups 
like Experience Corps, which brings retired folks in, the City 
Year, which brings in young adults, also college work study 
students. And then national nonprofits really develop their 
ability to give high-quality students support, groups like 
Communities and Schools and the Boys and Girls Clubs have 
actually all recently rebuilt themselves to focus on keeping 
kids in school and on track. We need to integrate those efforts 
into school turnaround efforts. We are providing the schools 
with a second shift of adults. So every student can get these 
range of services and supports. So it is not just all on a 
teacher.
    If you ask a high school teacher traditionally scheduled--
you have 125 kids you share with no one. There is no way you 
can give additional support beyond a handful of kids, which 
leads to triage, which leads to burnout, which leads to 
frustration. So we really have to create ways that we have 
empowered teacher team with a second shift of adults helping 
them.
    Senator Dodd. A great concept.
    Thanks, Tom.
    The Chairman. Thank you, Senator Dodd.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Mr. Petruzzi, I would like to go back to the question that 
I asked to get a little perspective on it. In 1991--this whole 
question about how to help schools is not so new. The first 
President Bush came up with the idea of new American schools. 
Charter schools were just getting started, a lot of excitement 
about it. David Kearns. I helped him raise $50 million, and we 
talked about new models for new American schools, start-from-
scratch schools. Albert Shanker said if you can have a master--
well, he supported the idea. Design teams. There was the idea 
of $1 million of startup money, recognizing extra money is 
needed for a startup, and flexibility. Now, that was not 
sustained.
    The question I am coming to for you is, I support the 
Secretary's notion that we really ought to focus on the 5 
percent of schools that are the worst. We all, from our own 
experience, know that even in the areas where those schools 
are, there are some enormously successful schools. We have 
failing schools in Memphis. Yet, there is a math and science 
charter school there where the ninth graders are taking AP 
biology. And we all have these stories about what people are 
able to do in their own communities.
    My question is, what can we do here to help you succeed 
there? My bias over the years is not by telling you what to do 
but by empowering you to do it. As Governor, I did not know 
many people in the State Department of Education who could be 
of any help at all in helping Memphis turn around a failing 
school. As Education Secretary, I did not know many people in 
the U.S. Department of Education who could go help you do 
anything much about Locke School, and I do not think even our 
staff, as smart as they are, or we, as smart as we think we 
are, could do much to help you----
    [Laughter.]
    Senator Alexander [continuing]. Turn around Locke School by 
saying here are four things we have thought of, now pick one of 
them.
    It looks to me like the most important thing we could do 
is, if we want to be really radical, just override the union 
rules, override the local rules, override the State rules, 
override the Federal rules, and hand it to you with some bit of 
accountability and say, ``take it and report to us and we hope 
you succeed. ''
    Now that, as Mr. Klein said, may be fanciful to think of, 
but is that not the real problem? Do you not run into too many 
rules, too many regulations from all directions, too many 
interest groups who are in your way and keeping you from doing 
the things you need to do to help succeed? If that is or if 
that is not, what can we do to help you and others succeed in 
your own school districts rather than say here are four ways to 
turn around Locke School, pick one of them, and we will watch 
and make sure that you follow the ideas that we have come up 
with?
    Mr. Petruzzi. First of all, I would say the fatal flaw, in 
my opinion, of No Child Left Behind was this loophole around 
failing schools. In California, it got translated as that a 
failing school, after 5 years, you either close it down, 
reconstitute it, turn it into a charter or other. Ninety-nine 
percent of schools chose other, which was a plan that gave them 
a check, and they just continued to fail forever. And that was 
it. There was no teeth to No Child Left Behind. The one thing 
that I think this committee can do is to actually put teeth on 
accountability. You only get to fail for so many years, and 
then it is over.
    Senator Alexander. What happens when it is over? What are 
the teeth?
    Mr. Petruzzi. Well, the teeth is you need to do one of 
those things. I agree with you. At that point, you need to 
close that entity and start a new one whether that is with a 
charter or--I actually do not think charters have the capacity 
to take on 5,000 schools anyway. I think we should be part of 
the solution. I do not see why not. You need to throw the 
kitchen sink at this. I also do not think we have the capacity 
to do 5,000 turnarounds in a short period of time. I think 
those schools that are closed and restarted need to start with 
a level of flexibility around budget allocation, money, people 
they hire, how they hire. We have got to abolish seniority 
rules around that. So it needs to be----
    Senator Alexander. So the teeth would be you would require 
closing the school, period, by a Federal law.
    Mr. Petruzzi. Or a reconstitution or some way of starting 
over that allows you full flexibility of rethinking that 
school. I think we need to put an end to failure at a certain 
point.
    Senator Alexander. Flexibility means freedom from union 
rules, freedom from local rules, freedom from State rules, 
freedom from Federal rules, and sometimes freedom from court 
orders. Is that the kind of flexibility you mean?
    Mr. Petruzzi. We are unionized.
    Senator Alexander. Well, I am not----
    Mr. Petruzzi. No. I am just pointing out that it is not 
just about--it is about good union rules.
    Senator Alexander. State, union, Federal, local----
    Mr. Petruzzi. That is correct. For example, budget 
flexibility is No. 1 on my list. Right now there are so many 
categoricals that kill schools, schools that cannot spend money 
on this, but they have $1 million for uniforms.
    Senator Alexander. My time is up. Would you think about 
that and send to us exactly what you think the teeth should be?
    Mr. Petruzzi. I have sent it to Secretary Duncan, and I 
will send it to you.
    Senator Alexander. I would appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murray.

                             Senator Murray

    Senator Murray. Mr. Chairman, thank you so very much, and 
to all of our panelists today, it has been very interesting.
    Dr. Mitchell, I wanted to single you out personally because 
I wanted you to share your experience as a rural district 
superintendent. I know that the rural districts in my home 
State of Washington are facing some serious barriers when they 
have to turn around lowest-performing schools. At the same 
time, we know that in many schools where student achievement 
has not improved for some amount of time, major changes in 
instruction are needed and tough decisions have to be made.
    There is not just one right way to do this, and I wanted 
you to talk to us a little bit about what some of the options 
are in rural districts and what some of the challenges are that 
you have.
    Mr. Mitchell. As I talked earlier about some of those 
challenges, one of the things that I firmly believe in--and I 
did some research in South Dakota. For South Dakota, we found 
very specifically that those school districts that were able to 
have the resources and had prioritized building the capacity of 
their own organization and had done that in an aligned and 
focused way, which looked at the three things that I talked 
about, focusing on instruction, collaboration, being governed 
by results, in every case those were the districts in rural 
areas that were being very successful. So we have tried to--at 
least in the central part of the United States, we have talked 
a lot about that.
    As I mentioned earlier, we are trying to share with other 
districts our story about--I want to be very careful because 
sometimes a lot of people come in and say, ``well, could you 
give me a copy of your school improvement plan?'' It is like, 
well, our plan worked for us because of the specifics of our 
particular unique situation. So in that unique situation 
because of the population that we serve, we went out and we 
basically looked at specific strategies that we needed to be in 
that had a research base to them and then also took a look at 
our curriculum to make sure that we were aligned and focused in 
the right directions, to make sure that when students went from 
one grade to the next grade, they knew what they were supposed 
to do.
    As we said, before we started building capacity of the 
organization, we had to start making a ``stop doing'' list. In 
public schools, we do not do that. As part of the improvement 
process, you have to take a look very drastically at things 
that you are doing in the organization to stop doing that.
    So there certainly is a struggle in rural America, because 
of the isolation, to build capacity and to build the networks, 
and that is what we are working on at this particular time 
because if we can share stories and we can share research and 
we can work with one another, that is our only option. When we 
are talking about South Dakota, if you have a rural school of 
200 students and it is the only school in a 100-mile radius of 
anybody, there has got to be some way that we could provide 
some sort of positive----
    Senator Murray. You cannot exactly fire all your teachers.
    Mr. Mitchell. Yes, absolutely. It would be disastrous and 
no one would go there. So we have to be careful about making 
sure that in those particular situations, is there an option 
that is positive, that builds the capacity of organizations 
that we have found in rural schools--there is some research 
that we are starting to flesh out--is very successful in 
helping to build the capacity and make that organization be 
more successful.
    Senator Murray. OK, thank you.
    I wanted to ask anybody who wanted to comment about our 
low-performing high schools. I think we all know our kids need 
a strong high school degree to get a job in today's job market. 
I think that an important part of preparing a student in high 
school that has been neglected is giving students a chance to 
really experience what it is like in some of the career fields 
and the career pathways programs that help them connect 
actually what they are doing in the classroom to something real 
when they get out.
    Can any of you comment in your experience what role career 
pathways have played in your success?
    Mr. Balfanz. Sure. Actually in our Talent Development 
model--it is actually called Talent Development High Schools 
with Career Academies. The way we reorganized the high schools, 
we created a ninth grade academy to have a high intensity 
introduction to high school where we give you lots of supports 
and personalization. Then in the ninth grade, we have a class 
called Freshman Seminar where part of that is career awareness, 
and you actually do a personality inventory. Do you like 
working with people, data, things? What interests you? And from 
that, we ask you then to select one of two or three or four 
upper-grade career academies which are broad themes. It is not 
narrow vocational, but it is like engineering or----
    Senator Murray. Health care.
    Mr. Balfanz [continuing]. Health care or public service. 
The whole theory and the truth is the kids make a choice. I 
feel an affiliation to that. I am choosing my upper-grade 
experience. Those academies then market to the kids. Come to 
the public service academy. Help change the world. Within those 
academies, then they take three linked career electives, to 
tenth, eleventh, and twelfth grade. So they actually get a 
coherent exploration. It is not just scattershot.
    The actual evidence shows the kids that do best are kids 
that graduate high school with a college preparatory curriculum 
and a CTE concentration. Those are the kids that actually have 
the absolute best outcomes. Only about 5 percent of our 
students nationwide have that combination. So I think it is a 
very--for both engaging kids but also----
    Senator Murray. Do you engage with your business community 
about the careers that they need?
    Mr. Balfanz. Yes, right. You have to establish business 
partners, a council. You come in. You look at local labor 
markets. All those things are sort of factored in.
    Senator Murray. Anybody else want to comment on that?
    Mr. Petruzzi. At Locke, we have experimented with this over 
time with just a mild flavor of the career thing, and at Locke 
right now, one of our academies is an ACE academy, 
architecture, construction, and engineering. It is a full 
career tech and college prep academy where algebra I is taught 
with an emphasis on architectural issues and construction 
issues and engineering issues, the same for geometry. You are 
actually building a house from designing it and building it.
    Senator Murray. Are you seeing academic success?
    Mr. Petruzzi. It is too early to say. We just started it. 
We really definitely see the engagement of the kids and frankly 
also our teachers in that model. We will get back to you in 2 
or 3 years. We hope that we are very successful with that.
    Senator Murray. Ms. Donohue.
    Ms. Donohue. Yes. The last four schools that we have 
created have been CTE schools in an effort to revitalize the 
CTE model for high schools, and they are in somewhat 
nontraditional areas such as advertising and media, careers in 
TV and film, medical careers, and so forth. The notion is that 
each such school will have industry council representation, 
internships for students, and move students to a clear 
understanding of what that particular career may offer at a 
variety of different entry points. So it is not just the sort 
of junior college aspects of having a medical career as an EMT 
but perhaps a nursing or doctor's degree down the road. We find 
that multiple entry-point kinds of careers make very good 
themes for schools.
    Senator Murray. Thank you.
    Thank you very much, Mr. Chairman.
    The Chairman. Senator Isakson.

                            Senator Isakson

    Senator Isakson. Well, thank you, Mr. Chairman, and thank 
you very much for this. This has been a terrific panel and 
everybody has been great. I really want to focus on Dr. 
Mitchell and Mr. Petruzzi for a second.
    I am sitting here just marveling at the consistency between 
your responses coming from two totally different environments: 
No. 1, a heavily populated population; No. 2, a very rural 
population. If I listened right and heard right, the magic word 
of both of you was ``flexibility.'' When you gave the answer, 
``well, it worked for us,'' meaning it might not work for you, 
what we did in Chamberlain, and then what you did with the 
academies by taking a big school and making it a small school 
within the confines of the same environment you were in, I 
think is a real testimony to one of the things we need to look 
to.
    I know Senator Harkin and Senator Enzi and I were all on 
the conference committee on No Child Left Behind. When you were 
talking about the fatal flaw, Mr. Petruzzi, which was that it 
had no teeth in the end, a lot of the reason it did not have 
any teeth is we could not have passed it with teeth. By that I 
mean, there was a lot of pressure toward giving too much 
flexibility.
    You talked about the two keys being flexibility in 
budgeting and flexibility in hiring, and I would echo that. 
When I was chairman of the State Board of Education in Georgia, 
we gave flexibility to the systems that were our top systems. 
We gave them flexibility on State spending. Those that were not 
our best systems--we did not give them any flexibility, which 
was backwards from what both of your testimony really has been.
    I did want to ask one question about a special interest I 
have, and that is special education and special needs children. 
What is your experience with the disaggregation of special 
needs children and meeting AYP in Los Angeles in your charter 
schools?
    Mr. Petruzzi. We are full inclusion. So we serve an entire 
needs from mild and moderate severity to high severity issues. 
So we have a huge number of special needs kids. It is very 
expensive and it is very difficult, but it is a must-have in 
those districts.
    I think right now those students in LAUSD, in my opinion, 
are being over-identified. What we have noticed, taking over 
Locke, is that probably easily 40 to 50 percent of those 
students had been put into too restrictive of an environment 
and we have shifted. They are serving them in a more classroom-
integrated environment, which we think will better serve those 
kids over time. You tend to see that a lot in poor communities. 
There tends to be an over-identification in African-American 
males and Latino males particularly, which is sad and, frankly, 
actually takes away from the actual issue. Poor classroom 
management sometimes is translated into a special ed rating, 
and I think that is sad.
    Senator Isakson. It also happens in rural systems because, 
Dr. Mitchell, I think you said 17 percent of Chamberlain was 
identified as special needs. Is that correct?
    Mr. Mitchell. Yes.
    Just going back to your first comment about flexibility 
here quickly, the rubber is going to hit the road for me here 
pretty soon. I just accepted a position in Rapid City, SD, 
which is our second largest school district, and they have 
13,000 students. One of the things they are banking on is that 
what I did in Chamberlain is going to work for 13,000 students. 
I feel very confident that it is because I've seen it also work 
in larger school districts than that. So the focus on 
instruction, collaboration, and so forth I think is something 
that is not limited just to rural schools.
    I run a $1.5 million special ed program with $1 million of 
revenue. A very difficult issue for us. In No Child Left 
Behind, we used to identify some students as what we call 
triple threats. They are economically disadvantaged. They are 
Native American, and they are special ed. Because we see a 
large amount of our Native American students being over-
identified.
    Senator Isakson. They are counted three times.
    Mr. Mitchell. They are counted against me three times. So 
we have had to really focus on that. So they are a major part 
of everything that we do when it comes to providing extended 
learning opportunities.
    We have also found that in rural communities the thing that 
was high priced and was not a big bang for the buck was a lot 
of out-of-district placements and seeing a lot of kids being 
farmed to special institutions. What we have done is we have 
tried to decide to train our people in-house, bring them back, 
and try to provide high-quality instruction in an inclusion 
area environment. That has been very successful for us. It does 
continue to be a certain difficult task for us in rural 
communities to provide what is needed for special education 
students to achieve what they need to achieve.
    Senator Isakson. Is it also difficult in meeting AYP? Is 
that the most difficult group of all for you?
    Mr. Mitchell. I would say, yes. It is probably one of the 
most difficult groups, trying to make sure that--for example, 
right now I have a special education opening. I have had the 
same opening for 5 years. I cannot get an applicant. It is a 
very difficult position to find people that are qualified and 
want to do the job. So that becomes part of it and making sure 
you have a highly qualified teacher. Certainly those students' 
needs are simply severe at times and really burn out people.
    Senator Isakson. Mr. Chairman, at the risk of taking too 
much time, could I get to my punch line?
    Here is my punch line. You both have testified to the value 
of flexibility in budgeting, flexibility in hiring, flexibility 
in policy-making. The rigidity of the assessment model in 
special education appears to me to be a particular problem 
because there is a diversity of special needs, but with the 
exception of a 1 percent waiver of capability for cognitive 
disability, you have got to have the same paper and pencil 
examination for all. I have proposed for a long time that what 
we ought to do is let the special needs assessment be 
determined by the IEP and not by a single-size-fits-all. I 
would like your response to that, what you think about that.
    Mr. Petruzzi. I am not an educator, and so I do not think I 
would actually serve the panel by offering an opinion on that. 
So probably I will just leave it up to you.
    Mr. Mitchell. Yes, because I have an opinion.
    [Laughter.]
    It is inherently unfair what we are doing to special 
education students right now. Everybody knows it. We go in and 
we have IEP meeting, and even as a superintendent when those 
IEP get really conflict--they want to bring me in, and I go--I 
really do not know what is going on here. You have a number of 
very caring people. You have the parents involved. You have the 
providers involved. You have the teachers involved. They are 
all working to determine what should be the adequate 
educational plan for that student. So why should that group not 
also decide what is adequate for progress for that particular 
student?
    I would fully support based upon what we see now as failing 
our special education kids by holding them accountable through 
this type of testing situation. The flexibility is not there 
for us. We have some highly cognitive kids that we have to 
force to take standardized testing, that if you watched it 
happen, you would just believe it is inherently unfair. We 
certainly need to move forward to take a look at some other way 
to hold those students accountable because they can be 
accountable for their learning, and they want to be held 
accountable for their learning. We just need to look and find 
the appropriate method to do that.
    Senator Isakson. Well, thank you very much to all of you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Franken.

                            Senator Franken

    Senator Franken. Thank you, Mr. Chairman, for this hearing, 
and thank you to all the panelists.
    One of the themes I have heard today, among others, is 
leadership, and whether it is about teaching or collaboration 
or results, as Dr. Mitchell kind of laid out--or Dr. Balfanz, 
you were kind enough to mention the school principal 
recruitment and training act that I have authored with Senator 
Hatch.
    I want to ask you about principals. To what extent is--what 
is the role of the principal in a turnaround?
    Mr. Balfanz. It is a multifaceted role, and I think even 
just saying that, we put too much of the burden on them. We 
still have this image lots of times if we can just find the 
right principal, they can heroically come in and turn the 
school around. If they do not do it in a year, well, let us get 
rid of them and try somebody else. The truth is--and especially 
in a big middle and high school, you are talking about a staff 
of 100 people easily, and for one person to be able to come in 
to say, ``I am going to mold you to my vision or the vision of 
the school without any help'' does not work. We often put a 
gung-ho principal on top of a dysfunctional leadership team, 
and it is actually the assistant principals and the counselor 
and the person who schedules the high school. Those are the 
operators of the school day to day.
    Senator Franken. I see Dr. Mitchell going like, oh, I wish 
we had an assistant principal.
    Mr. Balfanz. Right.
    [Laughter.]
    I really think we need to think about, especially in the 
middle and high schools, developing leadership teams and having 
them be the leaders. They can be trained together so they have 
time to plan together. One mistake we make is we try to do 
turnaround over the summer. You are the new principal. You are 
going to take the school over. But the school is still running. 
It is actually not a very hospitable place to you right now 
because they think they are all going to be fired. So you are 
off-site and you have got to pull a team together. We need to 
say let us have a leadership team. Let us give them 6 months to 
plan and train and prep and be ready and have a design and be 
up and ready to go.
    Senator Franken. Mr. Petruzzi, in Blue Dot--I am sorry. 
What is the name?
    Mr. Petruzzi. Green Dot.
    Senator Franken. Green Dot. Blue, green.
    [Laughter.]
    Anyway, you do a residential thing where basically a 
principal is with a mentor for a year. Is that correct?
    Mr. Petruzzi. Well, we have a principal residency program 
where we train the principals on turnarounds for a year before 
they do it, and they spend time with people that are doing it 
already. So right now we are training principals based on the 
Locke experience, basically shadowing some of the best 
principals, also doing the assistant principal job for a month 
and a half. So they are learning the job and that is very 
important.
    We would love to keep funding it, but we do not have the 
money right now because of the budget cuts in California.
    Senator Franken. I want to get back to money review in a 
second.
    Dr. Mitchell, you said that in rural schools the 
superintendent can be the principal, the bus driver, the grant 
writer, teacher, and a coach and more. I was just in Finlayson, 
MN at the end of last week, and I had a roundtable of 
principals, teachers, school bus drivers, coaches who were the 
same person in many cases.
    [Laughter.]
    It really is a different deal for rural schools. You do not 
have the flexibility at all to fire teachers. You talk about 
building capacity. How do you build capacity when you really do 
not have the resources, when you do not have the teachers 
around there, when you do not have those resources?
    Mr. Mitchell. Building capacity is resource-intensive not 
only in dollars but in time and in lots of different things, 
and there are lots of ways you have got to look at doing it. 
But when it looks at leadership, just like I had to have a 
discussion with my school board the other day. I am leaving the 
district, what is going to happen next, well, it is not the Tim 
Mitchell show. It is the fact that one of the things that I 
learned in my career very early is you have to be a leader of 
leaders. So I have tried to make sure that we built the 
capacity of all the leaders, not just principals, but also 
teachers, so that there is a leadership amongst them. There are 
many efforts that in our district are very successful because I 
finally got smart enough to quit being the dictator of the 
district and got groups of teachers together and put a teacher 
leadership team in charge of it. I just facilitated for them to 
do the right things that needed to be done.
    I also have seen that the most important thing that I want 
in a principal today is someone who is good and trained in 
instructional leadership, and we have some stuff out of the 
North Dakota lead that has gone through the central part of the 
United States, which is good practice, to get principals so 
they understand and can prioritize the instruction of what they 
need to do.
    The second thing we are looking at now is a lot of research 
with Marzano with school leadership that works and district 
leadership that works. I like that research because there are 
about 26 or 27 things that a principal has to do effectively, 
but there are only six that a superintendent has to do. So I 
can do those six. That is why I do not want to be a principal 
anymore.
    [Laughter.]
    Senator Franken. I want to pull an Isakson and just ask one 
real short question of Mr. Petruzzi because I was sitting there 
just in awe of what you have done. I heard you talk about 
resources and I heard you talking about fund-raising. I know 
you are from Bain, and I know you know people. Right? I am 
thinking how scalable is this? And then you spoke to that. I 
just want to make sure that--because I have seen successful 
charter schools that have wonderful fund-raising arms.
    Mr. Petruzzi. Our model is actually to break even on public 
dollars after the first 4 years. The reason we needed to 
fundraise is we actually have to build two extra school 
buildings to support the student retention that we were 
achieving. The first 3 years, we are basically building ninth 
grade academies that are growing, and we have an overstaffed 
model in the first year to connect with the kids.
    Senator Franken. But you had the flexibility to do that 
because----
    Mr. Petruzzi. Because we fundraise. Absolutely. Not from 
people I know, but from the Bill and Melinda Gates Foundation 
and the Dell Foundation.
    Senator Franken. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Franken.
    Senator Murkowski.

                           Senator Murkowski

    Senator Murkowski. Thank you. I am sorry I missed the 
testimony. I was at another hearing, but I did have a chance to 
read all of your submitted testimony, and I appreciate your 
advocacy. I appreciate your work in trying to understand how we 
can really be making a difference with some of our schools.
    Mr. Mitchell, I was interested in just hearing some of the 
comments that you had in response to Senator Franken. We have 
got some very serious challenges, as you know, in the State of 
Alaska as we try to reach out to our students in our very, very 
remote and very rural communities. I would be curious. You kind 
of joked about, ``that is why I do not want to be a principal 
anymore.'' One of the challenges that we face in our State is 
we just cannot get the administrators. We are doing a little 
bit better with our teacher recruitment and retention, although 
that is a serious challenge in some areas. If all of these 
turnaround models really revolve around getting a new 
principal, what do we do in finding these new principals, 
particularly if they are looking at it and saying, ``OK, well, 
I am going to be the first one on the boat out of here?'' How 
difficult is this going to be in rural States?
    Mr. Mitchell. Well, as you probably know, it was difficult 
before we started this process.
    Senator Murkowski. True.
    Mr. Mitchell. Now you have people who can certainly check 
report cards and see where a school is at before they would 
even apply for the job. In South Dakota, we will do a national 
search for a superintendency of a very large school district 
and maybe get six people that are interested in even attempting 
the position. So certainly you could be creating some sort of a 
problem area here that is just going to get worse and worse.
    I started as a superintendent when I was 35 years old. In 
South Dakota for a period of time, the Governor threw all the 
rules out and anybody could be a superintendent. So that is how 
I got the job. I have since went on and got my full 
certification and degrees to back up because I felt that was 
important.
    The problem is trying to get the people to do that hard 
work and get those people to understand that even once they get 
those particular jobs, once they put the models in place, there 
is still a possibility that even though they are supporting 
growth, they are not going to be able to reach the bar. So they 
are going to force some sort of transformation which is going 
to send them down the road and put a blip on their record. So 
the recruitment and the retaining of people right now is 
getting to be at a very critical age, especially as many of the 
administrators are aging and leaving the profession.
    Senator Murkowski. I appreciate that.
    Mr. Balfanz, you had noted in your testimony that the 
research is being focused primarily on the middle and high 
school students, when you are talking about those dropout 
indicators. We all recognize that there are factors that come 
into play that certainly are contributors, whether it is poor 
vocabulary development or social indicators that are out there. 
Should we be looking earlier? If so, how early?
    I look at kids that get so frustrated so early on and that 
level of frustration never abates. If anything, it just gets 
worse. I think that then inhibits their ability. Are we waiting 
too late on this?
    Mr. Balfanz. I think the answer is we need to have a 
continuum of supports at all the key transitions, and the first 
key----
    Senator Murkowski. What are the key transitions?
    Mr. Balfanz. The first key transition is pre-K to second 
grade. It's really that good start. Two things, basically 
learning the basic reading skills and also math. The math gap 
is the smallest in kindergarten and gets bigger over time. So 
staying on top of that, making sure it does not grow.
    Also socializing kids into the joy of schooling. You need 
to learn early on that schooling is joyful. If you socialize 
them it is a chore, there is so much tension, we have all got 
to pass our tests, that builds over time.
    The next key transition is in the middle schools. To focus 
on any one time is not enough because there are kids that do 
really well in elementary school, but in early adolescence, 
they are making an independent decision--is schooling for me 
again--and their relationship to their peers is changing, to 
their neighborhood is changing, to their school is changing. 
You can have a great elementary experience and still get 
tripped up.
    Then the transition into high school, the same thing. 
Twenty-five percent of kids that struggle in the ninth grade 
get by in eighth grade. They had good test scores. They came to 
school every day. They would be on nobody's radar screen, but 
for them it was that older transition.
    And finally, we have got to have a transition out of high 
school. We have got to have pathways to post-secondary success 
because, again, we have learned how kids succeed in high-needs 
places. We put tons of structures in high school, three levels 
of extra help, and that is necessary. That does not mean you 
are prepared for a community college where suddenly you have 
got to figure out everything yourself and there is no support.
    So I think it is really at those four points that we need 
those.
    Senator Murkowski. Is any one more important than the 
other, would you say?
    Mr. Balfanz. I do not think so. I think that is where we 
get into trouble. We want to pick and choose. If you make all 
those four transitions, you are good to go. You miss one of 
them. You are not.
    Senator Murkowski. I am not sure that we are focused on the 
initial one yet, the pre-K to 2.
    Thank you, Mr. Chairman.
    The Chairman. Senator Bennet.

                             Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman. Thank you for 
holding this hearing and thank you for your testimony. It has 
been fascinating.
    On the flexibility question we were talking about earlier, 
I think maybe one way to think about that is there is a 
difference between giving people the flexibility to do 
something and giving people the flexibility to do nothing, 
which has been the outcome in too many places I think.
    Having said that, I would say the most turbulent thing I 
ever did when I was superintendent of schools was close schools 
and turn around schools. I learned a lot of lessons the hard 
way probably and learned how to do it better, but there are 
always ways of doing it better.
    I think one of the things that keeps people from doing this 
work is that turbulence. The problem with that is that kids end 
up in institutions where they are not learning anything year 
after year after year, and they just fall farther and farther 
behind.
    I know New Visions has done a lot of work in this area, and 
I wonder if you would share a little bit about what you have 
learned over the years about how to diminish the level of 
turbulence that this kind of change comes with.
    And then the other panelists maybe--also, what the reaction 
of kids actually is, which is often forgotten, when they see 
the new versus the old.
    Ms. Donohue. It is a very great question. I think what we 
have tried to do, positioned as a nonprofit with lots of 
connections into neighborhood groups across the city, is to 
work very closely with the community to help them understand 
what the choices are, to help them understand why things are 
happening, what options are out there for individual students 
to, as we started new schools in new neighborhoods, bus parents 
to see small schools that were functioning well so they could 
view and understand and have a vision of what it was that we 
were talking about, and to create an atmosphere where that 
dialogue had a place in the community and in and among the 
parents that were going to be impacted. I think that was a 
hugely important thing, and it is something that you need to--
if you are engaged in turnaround work--do is spend a lot more 
time on than many districts actually think.
    Senator Bennet. This may be an unfair question to ask you 
instead of the Chancellor, but do you have a sense that demand 
for the new is beginning to replace defense of the old? Are you 
seeing that tip at all in New York or Baltimore or Los Angeles?
    Ms. Donohue. I think the small schools that were created by 
New Visions and a number of other nonprofit intermediaries are, 
in the main, heavily oversubscribed. The choice process that 
students in New York go through to select a high school is one 
of computer matches, and we see that the number of students who 
are actually positively desirous of getting into these schools 
vastly exceeds the number of seats that we have. That does not 
help a situation where a parent in a school that is being 
closed--and as the Chancellor mentioned, the philosophy of 
closure in New York is gradual. You simply stop taking students 
in and you serve, as best you can, the students who are there--
usually with extra and additional resources to help blunt the 
sense of have and have-not. But for a parent whose student is 
in one of those closing schools, it is still very traumatic, 
and there is really, I think, no way to sugarcoat that.
    Mr. Balfanz. Baltimore is an interesting example because it 
is one of the few places, I think, where this is finally 
getting to scale. I think this year there are more high school 
kids in new schools or schools that were started in the past 
decade or so than are in schools that have been around for a 
long time. What is happening is that people are now voting with 
their feet and you can see the enrollments going down in the 
schools that were historically there and sort of going up in 
the newer starts or the restarts. So I think you do see that 
tide turning when the sense is that there are enough good 
spaces for a lot of people. It is not just a few.
    From the kids' point of view, no one understands better 
that the school is going nowhere than the kids, and they react 
accordingly. If they see that they are getting teachers that 
are struggling to teach and people are roaming the hallways, 
they get a sense, not much is going on. I can miss a few days 
and nothing is going to happen, whereas the reason you can 
sometimes get dramatic turnaround results is because the kids 
will respond to the improved environment and they will come. 
They will put forth effort because they see that it is now an 
engaging place to be that is organized, it is going somewhere. 
So I think keeping the kids' point of view is important because 
they can vote with their feet and with their effort.
    Senator Bennet. Did you have anything on this, Mr. 
Petruzzi?
    Mr. Petruzzi. I was going to say you cannot under-
communicate this with the students and the community. You have 
to engage them really early on, particularly in that turnaround 
situation. I think most kids actually recognize that. They had 
been told that they were not college material, and we had to 
actually take them to some or our schools to show them that. 
Then we let them own a lot of decisions. For example, we 
insisted on uniforms. So that was the number one student cry. 
They did not want to wear uniforms. So the student body 
actually did a fashion show with uniforms. That kind of broke, 
a little bit, the ice around uniforms. Ninety-eight percent of 
students showed up with uniforms the first day.
    Senator Bennet. I had a principal say to me once that they 
had a rule about no gum chewing, and he would catch kids every 
now and then chewing gum. He said, ``do I really care? Am I 
really worried about it?'' And he said, ``no, but the fact that 
they are worrying about actually following the rule is 
important stuff.''
    I just had one last question for Mr. Mitchell, if I might. 
Mr. Superintendent, I used to hate when people asked me these 
questions, but----
    [Laughter.]
    Senator Bennet [continuing]. On the human capital question 
that you were raising at the end about finding administrators, 
finding teachers in rural areas, we face this in my State of 
Colorado as well. If you could wave a magic wand, what would 
you change that you think might have an impact on your ability 
to be able to fill these positions that you were talking about?
    Mr. Mitchell. I think sometimes inadvertently we do a 
tremendous disservice to our profession. My wife is a teacher. 
She is a great teacher, but with her experience over the last 
28 years, the thing she told her three daughters was go get a 
degree and do something other than teaching because of the 
frustrations.
    Right now one of the things that I just saw in some latest 
research is that what teachers want most is supportive 
leadership. So if we could put supportive leadership in there 
and then leaders like myself who go out and tell people and 
champion it is great to be a superintendent of schools, yes, it 
is hard work. It is great to be a principal. There is a calling 
here. It is something you can be passionate about. I think 
sometimes we do our own profession a disservice by talking that 
way and not being good role models for students that we could 
ignite that passion in if we really put our minds to it.
    Senator Bennet. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Hagan, Senator Reed, and then Senator 
Murray. I am sorry. Senator Reed has to leave.
    Senator Reed. I am going to thank Senator Hagan for her 
gracious hospitality. This is payback for not leaving you in 
Afghanistan.
    [Laughter.]
    Mr. Balfanz, there is a lot of discussion around the 
different turnaround models. From your sense, what kind of 
empirical evidence do we have for any one of these models? It 
might be a function of just--we have not tried them a lot, but 
can you give us sort of a perspective?
    Mr. Balfanz. Yes. I think the honest answer is right now we 
have mixed evidence. You can point to successes and failures 
for every one of those models. In truth, maybe we have not done 
them in 200 places, enough to know how that average breaks out. 
So on average, will it be generally successful or not?
    I really think that gets back to what I said, about the 
idea that we really need to analyze each school's challenges 
and get a design that fits that. In some places it is a 
capacity challenge and you do need fresh capacity, but in other 
places, it is just simply they have not been exposed to the 
right know-how to know what is a good program for kids that are 
2 years behind in reading. That is the key part of the answer.
    Senator Reed. I wonder, from your perspective--and I will 
ask your colleagues--do we have an ongoing research plan to try 
to validate these models rather than having three items on the 
menu, pick one, it is your choice?
    Mr. Balfanz.
    Mr. Balfanz. Yes. I do not think there is need, if this is 
going to be the big investment strategy, to have that. Part of 
the challenge is that it is big-scale research, and how do you 
know, if you are doing eight things as part of the change, 
which parts matter? It is a big-scale project to study that 
well.
    Senator Reed. Ms. Donohue or Superintendent or would anyone 
like to comment?
    Mr. Petruzzi. We have a lot of people studying us. I think 
the beauty about the Locke High School is that we basically 
took over an entire tenants area. There was a before and an 
after that were clearly mapable. The community has not changed. 
Actually, if anything, with this second great depression, it 
has actually gotten tougher. There are tougher issues than 
before. So I think we will likely have really good evidence by 
external evaluators in the next 2 or 3 years that will validate 
all this.
    Senator Reed. But in the interim, we are really pushing 
schools very hard to pick one and do it. A lot of it is just 
kind of gut rather than empirical evidence.
    Another aspect of this issue--and it came up in the context 
of the ``Race to the Top''--of picking out a percentage of 
teachers' evaluation based on the performance of students. I 
think we all understand that outcomes are important. You can 
have the best intentions in the world, but if the class is not 
performing, we have got to make changes.
    There is also a consequence, again, Mr. Balfanz, as people 
are thinking through this. The consequences in terms of gaming 
the classroom of the best teachers who in some cases take the 
children who are the most challenging saying, ``wait a second. 
If my pay depends upon getting the best grades out of the kids, 
I want the best kids,''--overlaying systems with seniority in 
which you can, in fact, choose your class, etc. Just this 
consequence of gaming. Has anyone thought through that?
    Mr. Balfanz. Yes. I think people are really struggling with 
that because we know that we do want to have some evidence that 
you are making an impact in your classroom that matters, but 
when you get down to the practicalities of how to measure it, a 
lot of these problems come up. At least moving to some sort of 
growth modeling, but even at the technical level, there are 
lots of problems with the growth modeling because you have to 
usually average it over several years to get a valid measure 
and then teachers are changing assignments. So how many of your 
teachers are you actually going to have who taught the same 
class for 3 years? So there are a lot of technical challenges 
that still need to be worked out.
    Senator Reed. Superintendent, you are right there, right at 
the point of the spear, as they say, in the military context. 
Your impressions about the potential--and this is sort of any 
human endeavor with new rules to try to play the rules and some 
of these rules, taking teachers--every teacher out of the 
school, putting new teachers in, giving them basically a year 
to make the grade. What does that do in terms of unintended 
consequences? I know this is a question that is cosmic, but any 
response I would appreciate.
    Mr. Mitchell. I just recently got an e-mail from back home 
that said the day went well, congratulations, because today is 
testing day. This week in Chamberlain, SD, we are doing the 
Dakota STEP test which is going to determine our 
accountability. As I mentioned, my wife is a teacher, and I 
have seen all the tension building as we get to this high-
stakes test. Everybody understands they have worked very hard, 
but everything can be determined on this next couple weeks. So 
that is a major concern.
    I also have a concern about one of the things that I really 
think is a key block to our success in Chamberlain, which is 
collaboration. If you start putting in the competitiveness of 
the pay program--I've looked at the possibility of maybe 
looking at some group compensation so that collaboration 
continues. I am sure I can find and track because we know that 
some of the measurements here, the metrics, are a little 
unreliable, not valid. I might have a great teacher this year. 
She might be a great teacher next year, but for some reason all 
of a sudden, she was not a great teacher the third year. So 
what happened?
    Senator Reed. I was in her class.
    [Laughter.]
    Mr. Mitchell. Those things can happen, and what is that 
going to do to the system?
    There is some new research out about motivation, and 
motivation is not always carrots and sticks. It is autonomy. It 
is mastery. There are some other things. For example, now as I 
mentioned earlier, some teachers we are talking about--the most 
important thing for them for staying in a school is supportive 
leadership, not the amount of money they are being paid.
    Senator Reed. I would ask--esteem, the sense of purpose, 
are very difficult things to define.
    Thank you all very much for your testimony today and your 
leadership for many, many years. Thank you.
    Thank you, Mr. Chairman.
    Thank you, Senator Hagan.
    The Chairman. Thank you, Senator Reed.
    Senator Hagan.

                             Senator Hagan

    Senator Hagan. Thank you, Chairman Harkin, for one, holding 
this hearing today and also thank you to the witnesses for your 
testimony. It has certainly been excellent.
    I think as the committee moves forward in our efforts to 
reauthorize the Elementary and Secondary Education Act, I think 
it is critical that we understand and look at helping to turn 
around our lowest performing schools. We can no longer continue 
to allow chronically under-performing schools to get away with 
improperly serving our students. We have got to do better. As 
we strive to ensure that our students are career- and college-
ready, I think that we can all agree that this effort is not 
going to be an easy one. But we can certainly agree that we can 
no longer afford to wait and that the time is now.
    Dr. Balfanz, in your testimony, you talked about the 
Nation's 2,000 dropout factories, and you note that each of 
these dropout factory high schools are linked with one or more 
middle schools where at least half of the eventual dropouts 
begin the process of disengaging from school.
    I believe that our middle school students are overlooked, 
and to that end, I have introduced legislation titled the 
Student Attendance and Success Act that acknowledges that 
truancy at the middle school grade level is one of the biggest 
indicators that students are on their way to being a high 
school dropout. I strongly believe that we need to do a better 
job at acknowledging that while our students are in the sixth, 
seventh, and eighth grade, we need to acknowledge that before 
it is too late.
    I understand that research has demonstrated that by 
creating safe learning environments and better engaging parents 
and their communities and schools and helping students get back 
on track academically, that students are much more likely to 
succeed.
    Can you share your thoughts on the contribution of problems 
at the middle school level that leads to the ultimate problem 
of dropouts?
    Mr. Balfanz. Yes. It is on two levels. One is that if 
students are disengaged in the middle grades, they have had 3 
years of developing those bad habits. So it is that much more 
challenging, when they get to ninth grade, to turn it around.
    And I totally agree. The chronic absenteeism in the middle 
grades is a vast under-acknowledged problem. Any place that has 
a dropout problem has an unacknowledged middle grades chronic 
absentee problem in general.
    Then second, it is on the achievement side, and they are 
related. We followed the city. We found that 40 percent of the 
kids between the sixth grade, going 5 years out, missed a year 
or more of schooling. So it is not surprising. Right? If you 
have missed a year cumulative out of 5 years, how are you ready 
for high school?
    The other thing that is so troubling is it is different 
kids on different days for the teacher. So they have a no-win 
situation. Either I can say let me remind you what we did 
yesterday and lose the kids that were there or forge ahead and 
lose the kids that were not. So the chronic absenteeism affects 
the kid but it affects the whole school which affects the 
amount of learning that happens.
    So those things, the achievement gap and the engagement 
gap, in the middle grades really do present overwhelming 
problems when they come to high school, and that is why I 
really agree with the idea that it is the 6 through 14, almost, 
that we have to focus on, really that high school and its 
feeder middle schools and then pathways to college and career 
as a block, as well as elementary is an important block too, 
but that is sort of a unit.
    Senator Hagan. Have you seen successful models that solve 
that truancy problem in middle schools?
    Mr. Balfanz. Yes, because a lot of this is just attention 
to the problem. These are 12-year-olds. Right? You can work 
with a 12-year-old to get to school. You have a better chance 
than with a 16-year-old. A big part is just from the lack of 
attention. Then there are positive recognition programs, 
parental involvement programs, all sorts of tools.
    Senator Hagan. Good. Thank you.
    I understand that in year 3 of a school that does not meet 
adequate yearly progress, those schools are required to use 
title I funds to help with tutoring by hiring private tutoring 
companies. Dr. Mitchell, talk about the quality of those 
private tutors.
    Mr. Mitchell. We have a real difficult time getting anybody 
to provide that service in the rural isolated areas. There are 
just no providers. I sit in the middle of a State where it is 
either a 2- or 3-hour drive to any of the face-to-face 
providers, and we have played around with and had mixed results 
with some of the online providers. So it has been a mixed bag 
for us. But technically we put more stock in our own work in 
our own school working with extended learning opportunities, 
the Saturday school, the before-school, the after-school, the 
summer school with our certified people, hopefully, to provide 
the remediation that is necessary for those students.
    Senator Hagan. I have heard mixed statements that, 
depending on where you are, the quality and the expertise in 
some of the private tutoring differs.
    I know we have talked a lot about rural schools. In North 
Carolina, we have quite a few rural schools, and it is always a 
problem finding teachers who are qualified and committed. I 
think in many cases, Teach for America students are doing a 
great job. When we talk about rural areas, not only do we need 
teachers, we need the school psychologists, we need the school 
social workers. How do we structure this so that we make a 
great attempt at figuring out how we are going to solve this 
problem?
    Mr. Mitchell. It is a difficult issue to find these people. 
One of the things that we have tried to do is we took a look at 
some of the research in Chamberlain. In our building of 
capacity and providing the skill training and the mastery and 
some different things like tuition credits for the 
recertification, the chance to go to a national convention and 
network with their peers, we put all that stuff out there. It 
allows us to provide--that they know they are going to come to 
a supportive environment that is going to build their capacity. 
So we have helped teachers become nationally board certified. 
We have used Federal resources to let them get their master's 
degrees. We have tried to provide all kinds of building 
capacity once we get them there. Getting them there is the 
difficult point.
    But one of the things that we have done is there are two 
things right now that are going on that we are having some 
success with. There is, I think it is, a Federal grant. It is 
administered by our State right now. It is called Project 
Select. If you have a degree in anything, you can come in and 
you will be put with a teacher, and for the whole year, you 
will teach under the tutelage of a certified staff member while 
taking all your classes to become a certified teacher. At the 
end of that 1 year, you will be a certified teacher and then be 
able to go in the classroom. So we have been looking at that 
traditional route. We have three people that are in that right 
now.
    Then the people that retain the best--we grow them locally. 
We have some people in our community. We are doing it now also 
with the Foundation for Health Care because rural health care 
is having the same problem. So we partnered in the same thing. 
It is finding those kids in our community that are interested 
in that, invest in them, build their capacity, and continue to 
make them understand that this is where their family is, this 
is where they have a connection. If we give you some support, 
will you stay in our community? We have had some success with 
that effort also.
    Senator Hagan. Thank you.
    I had just one last question, for Mr. Petruzzi from Green 
Dot Schools. You said that students wear school uniforms. How 
did you pay for those? Did the students actually pay for those?
    Mr. Petruzzi. We bought about 1,000 extras and washing and 
dryer machines, so everybody who shows up without a uniform has 
to change and take a uniform. But yes, it is actually a much 
cheaper way. We actually talked to parents and kids that they 
should save their money for the weekend and not for buying--
basically our uniforms are khaki pants, which is the cheapest 
type of pants that you can buy, and anything with a collar and 
the school colors, so black or blue or white, whatever gang-
neutral colors for the school. So it is very cheap for the 
families.
    Senator Hagan. Thank you, Mr. Chairman.
    The Chairman. Senator Merkley.

                            Senator Merkley

    Senator Merkley. Thank you very much, Mr. Chair, and thank 
you all for your testimony.
    I just came back from doing six town halls traveling around 
Oregon, rural Oregon. As I went to each community, I either 
talked to teachers at the town hall or held a separate meeting 
with educators. The concern that came up most often was that 
the vision for rewriting this program misses the mark in terms 
of its emphasis on grant applications, just rural schools 
saying, ``I am the superintendent, I am also the principal. I 
am the only administrator, and I am writing some grants now,'' 
but when there is only a small chance of getting them, I can 
only afford to do that once or twice. We know that if there is 
a limited number, we are going to be out-competed by 
professional grant writers and administrators, administrative 
teams at larger school districts. We are just going to have to 
give up, if you will.
    They talked about an alternative model where essentially a 
goal is laid out. For example, maybe it is better data 
management of testing so that you can track a student's 
progress year to year. If a school wants to sign up to do it, 
they get formula funds to do it. They would have to lay out 
their plan, but it is not a question of writing grant after 
grant after grant and getting turned down or losing out to 
larger schools time after time after time.
    So I just wanted, first, to share that with the committee 
and, second, to see if that makes sense, if anyone wants to 
comment on that challenge.
    Mr. Mitchell. As I mentioned in my testimony, it is a real 
concern for us and the competitive nature--there are a lot of 
grant opportunities that I know in our district we miss out on 
because we just do not have the capacity to apply for. We have 
to weigh what are we going to get out of it versus the 
capacity. What are we going to have to give away to do it? So 
it is a give or take in that particular situation.
    I also agree with--I would be very supportive of the 
formula grant, but I want you to understand. I am all for 
accountability too. I do not think any formula grant should be 
delivering lots of money to a school that is not putting forth 
some results. So if we continue with formula grants, I hope we 
will attach the accountability with it and people will do that.
    We used to have an education service agency that had a 
grant writer. Tough economic times. What is the first thing 
that the State had to cut? They provided that. The State has 
cut those educational service agencies, and they brought in a 
lot of our major grants. So now our grant writer is gone.
    So it is a huge concern for us if large parts of new 
educational dollars are competitive in the rural situation.
    Senator Merkley. Yes, go ahead.
    Mr. Balfanz. One thought I have is, I wonder if there is a 
middle ground here for some of this, which is participation in 
a learning network, so not just get your money, do your own 
thing, good luck, or compete for this, but if you get this 
money and you agree to do certain things, you also have to 
participate in the learning network of sharing what you learn. 
So he is doing great stuff in South Dakota, and it is really 
hard for that to get to rural Oregon. It just is. But if you 
were linked together in a learning network and there was some 
obligation that he is sharing what he has learned over here, as 
part of his grant, he has to actually help organize the 
technical assistance, that might create sort of a way that we 
can learn and not just compete or just get money and not have 
to do anything.
    Senator Merkley. I will tell you my impression was that 
these school districts would be happy to share what their 
learning is, if you will, the accountability, do an evaluation 
afterwards, lay out a proposal in advance, but it is the notion 
that if only a few grants are available, we are going to get 
out-competed, and just feeling like the system is not designed 
to help small rural schools. But I think being able to go to a 
Web site where other schools are reporting on their results, 
that is an incredibly powerful learning forum, if you will, for 
schools to share their strategies and their experiences. I 
think that is a good idea.
    Dr. Mitchell, another thing I wanted to ask because of your 
experience in a more rural area is it seems like some of the 
features in the Blueprint are based on an urban school model, 
the turnaround strategies. The idea of firing a principal and 
50 percent of the teachers--try making that work in a place 
where the next school is 60 minutes away. Are there strategies 
that make sense in an urban setting that we have to be careful 
to recognize that the rural setting is different?
    Mr. Mitchell. I would agree with exactly what you are 
saying. We are very concerned out in the rural setting when we 
look at the Blueprint and we look at those turnaround models 
and just do not see any options really viable for us.
    Once again, I want to make sure you understand that there 
is no one out in the rural setting that does not want to be 
held accountable. There is no one out in the rural setting that 
thinks that rural schools that are persistently performing--
something needs to be done. So hopefully, we are looking for 
some sort of option.
    As we talked about earlier, maybe not all the research is 
there, but there is some research that is coming forward, and 
we do have pockets of success. One of the things that we found 
is performing--in my little school district, we have a learning 
community and that has helped build our capacity. Can we do 
that at the State level? Can we do that at a national level? 
One of the things that I found in my research was the one thing 
about a leader that is more successful, they have more 
networks. They collaborate more. They work with others. They 
share experiences and so forth.
    We would hope that when you come down to reauthorizing ESEA 
and you get to the point of the turnarounds, that there is some 
sort of way that we are not closing the door that certain 
school districts that get to a certain point do not have any 
option that is viable for them. We need to figure out that 
option that still holds people accountable that does not allow 
persistent failure in rural schools but there is something 
there that allows them to reconstitute themselves and do 
something more than firing the principal and firing the staff 
and starting over because it is just not doable.
    Senator Merkley. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Merkley.
    Well, I want to again thank the panel for all of your 
testimonies and for being here today, but more than that, just 
for your total involvement in education.
    First of all, let me just say that listening to this whole 
thing today and as I have had more and more hearings on this--I 
have sat on this committee now for 22 years--it just seems that 
all we are talking about is fixing problems here. Why do we not 
try to answer the question of what is causing the problem?
    It reminds me of the apocryphal story of a community that 
was situated on the shores of a lake. The lake had a beautiful 
beach and recreational facilities. One day they noticed that 
the beach was filling up with all kinds of junk and refuse and 
things like that. So that cut down on the people visiting the 
beach and the lake. The city council met and they passed an 
ordinance and they raised the levy and raised some money to 
clean it all up. They cleaned it all up and made it beautiful 
again.
    The people came back to the beach, back to the lake. A 
couple of years went by, a few years went by. The beach got 
refuse again, got dirty again. People stopped coming. So the 
town council met again. They raised another levy, raised the 
money, cleaned it all up, fixed it up. People came back again.
    This happened three or four times. Finally, at one of these 
meetings, somebody got up and said, ``where is all that stuff 
coming from?'' And someone said, ``well, you know, the lake is 
fed by one river.'' ``Well, where is that stuff coming from?'' 
``It is coming down the river.'' ``What is up the river?''
    So they went up the river and found out where all the stuff 
was coming from and stopped it there, prevented it from coming 
down.
    Well, it seems to me a lot of times we do this in 
education. We are always patching and fixing and mending, 
trying to clean up a problem, and we are not quite getting to 
the essence of it.
    In 1991, this book came out, The Unfinished Agenda: A New 
Vision for Child Development and Education. I remembered that 
back in the mid-1980s, about the first time I came on this 
committee, then-President Reagan wanted to have a study done on 
education, about why we were not having a better education 
system meeting the challenges of the future. He did not want 
any of the soft-headed, pointy-headed liberals and people like 
that and school administrators and people like you involved in 
all this.
    He wanted the business community. He wanted the business 
community to do a study on education and what we needed for the 
future. So that was established.
    Some years went by. It is now 1991. I find myself not as 
the chair of this committee. Senator Kennedy was, but I was 
chair of the appropriations subcommittee for this committee at 
that time. A man came to see me by the name of James Renier. He 
was then the President of Honeywell. He wanted to see me. Fine. 
I assumed he wanted to talk to me about education. He delivered 
this book to me. He was the chair of that committee. If you 
read the board list, there are people like head of Ciba-Geigy, 
Sun Company, Pacific Mutual, Arco Chemical, Smuckers, 
Northwestern Mutual, Texas Instruments. You get the idea. 
Right?
    They did all this study over a few years' period of time. I 
think it lasted through the Reagan administration and into the 
Bush administration. So they ended their studies about 1990. 
They came out with their findings. And he wanted to deliver 
this to me. Jim Renier came in to see me.
    You know what their executive summary was? The Nation must 
redefine education as a process that begins at birth and 
recognizes that the potential for learning begins even earlier 
and encompasses the physical, social, emotional, and cognitive 
development of children. That was their executive summary. 
Education begins at birth and the preparation for education 
begins before birth. This whole thing. This is the hard-headed 
business community of America that said we have to pay more 
attention to early childhood development. We have to put more 
emphasis on early childhood learning. They went so far as to 
say we have to put more emphasis on maternal and child health 
care programs so that children are born healthy with good 
minds.
    That is what this is all about. It is about preschool 
because they said by the time--as we all know, brain 
development during early years--that is the best time for brain 
development. By the time these kids get to kindergarten and 
first grade, they are so far behind, we are always trying to 
play catch-up. You are talking about middle school? They have 
been behind since before that.
    Now, yes, you can do some things. You can change 
structures. You can do structural changes. You can do all kinds 
of things like that and you will make some progress.
    But it seems to me that if we really want to get to the 
crux of the problem, we have to focus on early childhood 
education.
    You are all in elementary and secondary education. That is 
what we are talking about, the Elementary and Secondary 
Education Act. Well, maybe we have to change the way we think 
about things. I challenge you to think about this. You are all 
thinkers. You are all brilliant and bright people. Your 
thinking is way above mine. But it seems to me we ought to, 
just maybe, think that elementary education does not start at 
kindergarten. Maybe we need to redefine elementary education as 
starting at birth, and therefore, elementary education 
encompasses preschool. That might change a whole different way 
that we look at things if we redefine that. So I ask you to 
consider that kind of a change.
    I also ask you to consider structural changes. Society in 
general on a broad scope has changed immeasurably in the last 
400 years. Think about that. Think about how our society and 
the structures and everything we do--how much it has changed in 
400 years, let alone the last 50.
    Yet, there seems to be one structure that has not changed 
in almost 400 years, the structure of the school. Think about 
it. You have a schoolhouse. You have a classroom. You have a 
teacher in front of the class. You have one teacher and you 
have the class. That is the instructional methodology. It has 
been that way forever. Is that the right structure for 
teaching?
    Now, what am I getting at here? Some of you talked about 
this. And that is that--and Senator Dodd touched on it--a lot 
of these kids in school have a lot of problems that have 
nothing to do with their brain power but it has to do with 
their emotional well-being, what is going on at home. Mr. 
Balfanz, you talked about that. These kids come from homes that 
the safest place they have in the day is school, even one that 
may have been like the Locke school before you got a hold of 
them. They see violence. They have bad diets, bad health. Some 
of them are even lucky if they have a single parent around. 
Many of them do not even have that. They bring in a lot of 
baggage with them to school. They see violence, drugs, all 
kinds of things like that and they act that out. And they wind 
up being truant, absent, disciplined, and yet there is no one 
counseling them.
    You have a teacher who has learned how to teach. They go to 
a teaching school. They go to school to learn how to teach. 
They become teachers or they come through Teach for America, or 
other things like that. But they are trained to teach, to 
educate, hopefully to provide learning, not just teaching but 
learning. But they are not trained child psychologists. They do 
not understand child development. Oh, maybe some do a little 
bit, but that is not their forte. That is not why they are 
there. They are there to impart learning, to get kids to learn.
    Well, maybe we ought to reconsider the structure of a 
classroom and the role of a teacher. Maybe we also need a good 
child development/child psychologist in that classroom to 
handle the emotional and other problems of these kids.
    We had a project that I was involved in 20-some years ago. 
McDonald's Corporation put up some money. I got them some money 
through appropriations, a little project in which we reduced 
the ratio of trained child psychologists--there are people at 
least with a master's degree--down to about one to--and I am a 
little hazy here. I could be off, but maybe 100 to 200 kids.
    Right now the national average is about 1 in 3,000 
elementary school kids. There is about one trained child 
psychologist in a school system for every 3,000 kids in 
America. I could be off a little bit, but I do not think I am 
off that much.
    We got it down to a couple hundred, which means we had a 
trained child psychologist at a school every day all day 
interacting with the classrooms, interacting with the teachers, 
interacting with the kids. They paid home visits with the kids, 
found out what their family situation was like, found out what 
their health situation was like. You were talking about that, 
Mr. Petruzzi, about looking at their health, getting them the 
kind of dental assistance they need, the kind of eyeglasses 
they need, things like that.
    Why, in 3 years' time, teachers were amazed. The kids were 
not fighting anymore. They were not acting out. They were not 
truant. They were starting to behave and act differently.
    Now, we could not continue that. That was just a little 
pilot program.
    Why do we not do this all over America? It costs money. It 
costs lots of money. It costs money to do that.
    But it seems to me we ought to start thinking about this 
structural entity of a classroom. Should it be the same way as 
it was for the last 300 or 400 years?
    Well, those are just some of my thoughts on this. I guess 
as chairman I get to say those things----
    [Laughter.]
    The Chairman [continuing]. At the end since I sat here the 
longest. Well, you sat here a long time too.
    So I turn it over to you. Do any of you have any last 
things that you would like to say or impart for the record 
before we end the hearing? I will just open it up. Any last 
thing that sparked you to say, ``no, you are on the wrong 
track. We have to do something else.'' Is there anything else 
that any of you would like to bring up? Going once----
    [No response.]
    If not, again, we will leave the record open for 10 days 
for people to submit other testimony.
    I would also ask you--and I am not just pandering to you. 
You are really the experts. You are people who know this so 
much better than those of us here. Please follow our 
developments here. Please follow as closely as you can what we 
are doing here. We are going to have more hearings on this. I 
do not know how many more we have. Quite a few more hearings. 
Then we will develop the legislation on how we go forward on 
this. I would invite you at any time to get a hold of our 
staff, to submit e-mails to us, follow up on what you saw here 
today. If you think we are headed in the wrong direction, let 
us know. If you think we are headed in the right, let us know 
that also. This is an ongoing process.
    We will do the best job we can in trying to reauthorize the 
Elementary and Secondary Education Act. I am hopeful that we 
are not just going to reauthorize something that is going to be 
making the same mistakes we have made in the past. Surely, we 
have learned something about what went wrong in the past. We 
are trying to do something a little bit differently, not to do 
something different for difference's sake but to do something 
different where we have tested it, where we have tried things 
out. As you say--I think you said, Mr. Balfanz, there are all 
kinds of different things out there that work. Trying to find 
the best of those out there--
    I understand the idea of flexibility. I appreciated what 
Senator Bennet said, that you do not want the flexibility to do 
nothing. You want the flexibility to move in a certain 
direction, but it also seems to me that there are a lot of 
superintendents out there, Dr. Mitchell, around the country, 
principals around the country that would like to do something 
but they do not know what to do. They are busy people. They are 
busy in the day. They have their communities. They have their 
own families. They have their own school board to deal with and 
parents and things like that. So what we might be able to do is 
to provide that kind of a menu, a smorgasbord, a menu, or 
something that they can draw from, but with a certain limit in 
there of what they might draw from to do.
    I agree. I think most of you said those four items that we 
had in the past--that does not cut it for every school. There 
have to be other things in there that they can do also.
    I do not mean to digress any further in getting how you 
measure yearly progress. If there is one thing I am convinced 
of, you cannot measure progress against some unattainable goal. 
You must measure progress from where you have been and how you 
grow from where you are, and that is how you measure progress, 
not in trying to meet some, as I think, unattainable type of a 
goal.
    Well, that is enough from me. I thank you again very much. 
Again, I invite you to continue to keep in touch with us as we 
develop this legislation.
    The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

    Prepared Statement of the American Institutes for Research (AIR)
    American Institutes for Research (AIR) is pleased to offer this 
testimony on school turnaround models. AIR has conducted or is 
currently conducting major studies of school turnaround under contract 
to the U.S. Department of Education, including Design Options for 
Turning Around Low Performing Schools (2008), the Turning Around 
Chronically Low-Performing Schools: A Practice Guide (2008), Achieving 
Dramatic School Improvement: An Exploratory Study (2010), Identifying 
Potentially Successful Approaches to Turning Around Chronically Low 
Performing Schools (ongoing since 2009), and the Study of School 
Turnaround (ongoing since 2009). These studies and related work inform 
the testimony below.
    In the following written testimony, we provide a brief overview of 
the intervention models outlined in final rules for the American 
Recovery and Reinvestment Act (ARRA) followed by a summary of research 
evidence on improving chronically low-performing schools. Our key 
points are the following:

    1. The research base supporting each of the four intervention 
models is mixed. There is supporting evidence for each, and evidence 
about conditions that correspond to positive effects.
    2. The intervention models as described are likely to include 
practices that have some support in research on school improvement. 
These include: changing principals, changing curriculum and 
instruction, providing flexibility, ensuring job-embedded professional 
development, providing social-emotional supports, and encouraging quick 
wins.
    3. Turning around chronically low-performing schools is fraught 
with challenges that can easily undermine success, including: 
leadership turnover, limited district and State capacity, a lack of 
high-caliber teachers, and the challenges of matching the intervention 
practices to school needs. Case studies provide some examples of how 
schools have overcome these challenges.
    4. The research indicates that the quality and level of 
implementation is critical to successful school improvement. How the 
practices are implemented, their coherence, and their fit with school 
needs may spell the difference between success and failure.
  arra intervention models: evidence for the models and key components
    Under the ARRA, the U.S. Department of Education (ED) has 
identified four school intervention models for chronically 
underperforming schools: Turnaround, Restart, Closure, and 
Transformation.

    <bullet> Turnaround involves changing many core elements of the 
school: replacing the principal and up to 50% of teachers, changing 
instruction, providing job-embedded professional development, using 
data to inform instruction, expanding learning time, providing 
wraparound services, changing the governance structure, and providing 
additional flexibility to the school. Research on whole school reform 
suggests that bringing together a suite of changes to these aspects of 
the school can improve student learning, but the quality of the 
implementation and exact nature of the programs (e.g., which curricula, 
the strength of the research base, the fit with school needs) are 
critical.\1\
    <bullet> Restart involves closing the school and reopening it under 
new management (an education or charter management organization), under 
the premise that these organizations will have the efficiency and 
flexibility to make important and necessary changes in the school. 
Anecdotal indicators suggest some success for chronically low-
performing schools that reopen as charters.\2\ However, most of the 
evidence focuses on charter schools in general, not chronically low-
performing schools that have closed and reopened as charters. The 
evidence of charters' effects on achievement is mixed, with significant 
gains in some but not all cases.\3\
    Research evidence concerning charter schools run by Education 
Management Organizations, or EMOs, (a subset of all charters) is 
likewise mixed. There is some evidence that schools run by EMOs have 
significantly higher achievement gains than non-EMO charter and public 
schools, but the gains are not large enough to overcome initial 
achievement gaps.\4\ Some studies have found cases in which EMO-managed 
schools made gains, although at a slower pace than non-EMO schools.\5\ 
A critical review of seven widely implemented EMOs that operate in 
about 350 schools found that one model had moderate evidence of 
positive effects on student achievement (Edison Schools), and six 
models either had no strong studies or no studies at all.\6\ EMOs do 
seem effective at streamlining school administration, creating more 
effective professional development, setting and maintaining clear 
standards, establishing a consistent instructional approach, improving 
facilities, and similar hallmarks of well-functioning schools. Note 
that most of the research did not look specifically at chronically low-
performing schools that had closed and reopened as charters, but at 
EMOs more broadly.\7\
    <bullet> Closure involves closing the school and sending students 
to other existing schools; the intent is to provide different--and 
better--educational experiences for the students. A recent study of 
closure indicated that it may improve student achievement if students 
end up in higher achieving schools. However, a number of implementation 
factors (e.g., neighborhood schools tend to be of the same low quality 
and transportation to higher achieving schools is difficult, turmoil 
around the transition can affect learning) make it difficult to 
consistently realize these effects.\8\ A recent paper on how and why 
four major districts (Denver, Chicago, Hartford, and Pittsburgh) closed 
failing schools provides some suggestions on how to improve the 
implementation of this option.\9\ For example, schools and districts 
can offer additional support during the transition such as clarifying 
the new principal's role, helping students and families understand and 
follow through on the school change, and providing staff clear 
information on next steps. They also should ensure that the public and 
school board are knowledgeable about and supportive of the effort. 
Critically, there needs to be a supply of higher performing school 
options readily available to the students.
    <bullet> Transformation is similar to the turnaround model, but 
with more emphasis on keeping the existing teachers and holding them 
accountable for student learning through new teacher evaluation systems 
that used student growth as a measure of performance. The closest 
related research is on teacher incentive programs, which reward 
teachers for students' growth. The literature base on the effectiveness 
of teacher incentive programs is still developing. There are a limited 
number of rigorous studies that examine correlations and the 
implementation of specific programs--with mixed or positive results--
but more studies are underway.\10\

    Although the models themselves are relatively new and have limited 
rigorous research, the strategies that are part of the models build on 
earlier research. While the mechanisms may differ, all four models 
imply changing students' learning experiences by one or a combination 
of practices, including replacing staff, providing staff with more job-
embedded professional development, changing curriculum and instruction, 
and providing more flexibility at the school level (sometimes to the 
principal and sometimes to the management organization). The turnaround 
and transformation models involve wraparound services to meet students' 
non-academic needs that affect their potential to learn.

    <bullet> Changing staff. There is case study support for the 
approach of changing at least some staff--especially principals--to 
improve schools. Changing staff, especially the principal, also can 
send a strong message to the school and community that the school will 
be changing and the status quo is no longer acceptable. According to 
the recent IES practice guide on turning around chronically low-
performing schools,\11\ case studies of turnaround schools indicate 
that effective turnaround schools (e.g., schools that dramatically 
improve student achievement quickly) use turnaround principals. Often 
these are new principals, selected for leadership qualities common to 
turnaround leaders in education and other sectors (e.g., they thrive on 
challenge, they can stay focused on goals and motivate others towards 
those goals). Sometimes, existing principals can lead schools to 
turnaround, but these principals generally have turnaround-specific 
training and make a visible break from their previous leadership 
strategies. Consistently, turnaround principals become much more 
involved in classroom instruction, and make very public commitments to 
change the school and student learning.
    Case studies also provide evidence that successful turnaround 
schools evaluate and selectively prune their instructional staff. 
Indeed, wholesale staff replacement is not always warranted. Successful 
turnaround schools tend to build a committed staff by identifying the 
strengths and weaknesses of the existing staff vis-a-vis the schools' 
reform strategies; redeploying or counseling out staff who are not 
functioning effectively, and purposefully selecting staff with the key 
qualifications and a commitment to the reform effort.
    <bullet> Embedded professional development. Decades of research 
supports the premise that embedded professional development is more 
effective at changing teachers' instruction than traditional workshops. 
Further, content-focused professional development may be especially 
effective. However, rigorous effectiveness studies have yet to prove 
that embedded professional development improves student achievement. 
Researchers suggest that it may take longer for the impact to filter 
down to the student level.\12\
    <bullet> Changing curriculum and instruction. Descriptive research 
on effective schools and organizations consistently finds that 
instruction (including curriculum) \13\ matters most, and other changes 
(e.g., leadership, resources) also relate to student achievement when 
they facilitate changes in instruction.\14\ The School Turnaround 
Practice Guide reported that successful turnaround schools consistently 
focused on (1) using data to improve instruction and (2) involving 
teachers in aligning the curriculum to the State standards. Successful 
turnaround schools used data to shape and track progress towards school 
goals, identify needs for individualized teacher professional 
development, and identify needs for reteaching individual students 
specific content and skills. These schools also involve teachers in 
aligning the curriculum, which seems to help teachers in the case study 
schools be more reflective of their own instruction.
    <bullet> Providing more flexibility at the school level. In their 
study of high poverty, high performing schools, Mass Insight found 
benefits to providing chronically low-performing schools with the 
flexibility to enact changes to improve the school.\15\ Specifically, 
allowing schools more control over staffing and budget may enable them 
to focus human and financial resources where they are most needed.
    <bullet> Social emotional supports. Students who attend chronically 
low-performing schools often have many non-academic needs that 
interfere with their ability to fully engage with instruction.\16\ \17\ 
Research supports a three-tiered approach in which students at the 
highest levels of need receive intensive services, such as wraparound; 
students who experience risk factors for school failure receive 
targeted services; and universal interventions are aimed at improving 
safety, relationships, and school climate.\18\ \19\ \20\
    <bullet> Quick wins. Although not mentioned in ED's four school 
intervention models, one further strategy frequently emerges in the 
cases of successful turnaround schools: quick wins. These schools 
consistently make one or a very few visible improvements early in the 
reform process to motivate staff around the reform effort. Quick wins 
are very focused accomplishments within the first weeks of reform to 
propel the reform forward; turnaround in achievement generally requires 
1 to 3 years of sustained efforts.
              implementation and sustainability challenges
    Turning around chronically low-performing schools is fraught with 
challenges that can hinder effective implementation. Moreover, many 
schools have struggled to sustain high achievement levels after initial 
gains. Some implementation and sustainability issues that consistently 
appear in the research on turning around low-
performing schools include the following:

    <bullet> Matching need and approach. Case study research shows that 
no single intervention consistently works in every case, and that 
strategies that enable one school to improve may not succeed 
elsewhere.\21\ In part, this may be a result of the unique challenges 
and context for each school. A recent study of 11 low-performing 
schools found that matching the approach and implementation strategy to 
the school is critical for success.\22\
    <bullet> Few high-caliber teachers. If chronically low-performing 
schools are to fill their classrooms with well-qualified staff, they 
need to recruit and retain such teachers. However, some districts are 
unable to attract sufficient numbers of teachers, particularly in high-
need subjects and specialties.\23\ Thus, turnaround activities may need 
to be accompanied by systemic efforts to recruit and retain a more 
qualified teacher workforce.
    <bullet> Lack of capacity at the district or State level. One of 
the underlying premises of accountability is that low-performing school 
lack the capacity to improve on their own, and can only do so with 
external support, often provided by the district or State. However, 
districts and States themselves face capacity challenges with regard to 
expertise, the number of available staff, funding, or technology, that 
limit the extent to which they can facilitate change efforts.\24\
    <bullet> Leadership turnover: Too often, it is difficult for 
schools to sustain improvement efforts (and resulting gains) when 
leadership changes.\25\ Unless a transition is carefully planned, the 
departing principal may leave a vacuum in terms of reform expertise, 
vision, networks, and communication skills. Similarly, substantial 
teacher turnover can contribute to an environment in which professional 
learning and staff capacity cannot grow.
    <bullet> Sustainability. Studies of turnaround schools, as well as 
anecdotal evidence collected from hundreds of turnaround leaders,\26\ 
consistently show challenges in maintaining and building on the early 
successes. The Achieving Dramatic School Improvement study found 
substantial ``bounce'' in test scores of schools that initially 
appeared to be turnaround successes--after years of failing to meet 
standards, they might meet standards 1 year only to fail the next. Some 
schools lost additional funding when they met State standards, and had 
to abandon the extended learning time programs that had helped them 
raise student achievement.

    In summary, turning around chronically low-performing schools and 
sustaining improvement strategies are difficult, but not impossible. 
Research provides evidence about which practices are evident in 
turnaround schools and these practices can be included in the 
intervention models required by ARRA funding programs. However, the 
research base on the ARRA intervention models themselves is mixed, at 
best.
    Further, how the practices are selected and implemented matters 
greatly. An effective practice can be implemented poorly, and promising 
practices may be mis-matched with a school's most pressing challenges, 
thus not yielding desired results. The congruence and coherence of 
change practices may make the difference between success and failure.
                            References Cited
    1. Aladjem, D.K. & Borman, K.M. eds. (2006). Examining 
comprehensive school reform. Washington, DC: Urban Institute Press.
    Aladjem, D.K., Le Floch, K.C., Herman, R., Zhang, Y., Taylor, J.E., 
Kurki, A., Herrmann, S., Uekawa, K., Boyle, A., Thomsen, K., Fashola, 
O., Shkolnik, J., Halverson, M., Brown, S., Borman, K., Cotner, B., 
Carter, K. R. (2006). Models Matter--The Final Report of the National 
Longitudinal Evaluation of Comprehensive School Reform. Washington, DC: 
American Institutes for Research.
    Borman, G.D., Hewes, G.M., Overman, L.T., & Brown, S. (2003). 
``Comprehensive School Reform and Student Achievement: A Meta 
Analysis,'' Review of Educational Research, 73 (2).
    Herman, R., Aladjem, D., McMahon, P., Masem, E., Mulligan, I., 
O'Malley, A.S., Quinones, S., Reeve, A., and Woodruff, D. (1999). An 
Educators' Guide to Schoolwide Reform. Washington, DC: American 
Institutes for Research.
    2. Center for Comprehensive School Reform and Improvement (2005b). 
Reopening as a charter school. School Restructuring Options Under No 
Child Left Behind: What Works When? Washington, DC: Author.
    3. Center for Comprehensive School Reform and Improvement (2005b). 
Reopening as a charter school. School Restructuring Options Under No 
Child Left Behind: What Works When? Washington, DC: Author.
Ziebarth, T.M. (nd). Bringing to life the school choice and 
    restructuring requirements of NCLB. Closing low-performing schools 
    and reopening them as charter schools: The role of the State. 
    Denver, CO: Education Commission of the States.
    4. Loveless, T. (2003, October). 2003 Brown Center report on 
American education. Washington, DC: The Brookings Institution.
    5. Center for Comprehensive School Reform and Improvement (2005a). 
Contracting With External Education Management Providers. School 
Restructuring Options Under No Child Left Behind: What Works When? 
Washington, DC: Author.
    6. Comprehensive School Reform Quality Center (2006a). CSRQ Report 
on Education Service Providers. Washington, DC: Author.
    7. Center for Comprehensive School Reform and Improvement (2005a). 
Contracting With External Education Management Providers. School 
Restructuring Options Under No Child Left Behind: What Works When? 
Washington, DC: Author.
    8. De la Torre, M. and Gwynne, J. (2010). When Schools Close: 
Effects on Displaced Students in Chicago Public Schools. Chicago, IL: 
Consortium on Chicago School Research at the University of Chicago.
    9. Steiner, L. (2009). Tough Decisions: Closing Persistently Low-
Performing Schools. Lincoln, IL: Center on Innovation and Improvement.
    10. Podgursky, M. and Springer, M.G. (2007). Credentials versus 
performance: Review of the teacher performance pay research. Peabody 
Journal of Education, 82(4), 551-573. Glazerman, S., McKie, A., & 
Carey, N. (2009). An evaluation of the Teacher Advancement Program 
(TAP) in Chicago: Year one impact report. Final report. Washington, DC: 
Mathematica Policy Research.
    11. Herman, R., Dawson, P., Dee, T., Greene, J., Maynard, R., 
Redding, S., and Darwin, M. (2008). Turning Around Chronically Low-
Performing Schools: A Practice Guide (NCEE #2008-4020). Washington, DC: 
National Center for Education Evaluation and Regional Assistance, 
Institute of Education Sciences, .U.S. Department of Education. 
Retrieved from http://ies.ed.gov/ncee/wwc/practiceguides.
    12. Garet, M., Wayne, A., Stancavage, F., Taylor, J., Walters, K., 
Song, M., Brown, S., Hurlburt, S., Zhu, P., Sepanik, S., and Doolittle, 
F. (2010). Middle School Mathematics Professional Development Impact 
Study: Findings after the first year of implementation (NCEE 2010-
4009). Washington, DC: National Center for Education Evaluation and 
Regional Assistance, Institute of Education Sciences, U.S. Department 
of Education.
    13. There is also some evidence that some curricula and 
instructional practices are effective. See, for example, the What Works 
Clearinghouse.
    14. Gamoran, A., Secada, W.G., and Marrett, C.B. (2000). The 
organizational context of teaching and learning: Changing theoretical 
perspectives. In M. T. Hallinan (Ed.), Handbook of Research in the 
Sociology of Education (pp. 37-63). New York: Kluwer Academic/Plenum.
    15. Calkins, A., Guenther, W., and Belfiore, G. (2007). The 
Turnaround Challenge. Boston, MA: Mass Insight.
    16. National Research Council and the Institute of Medicine. 
(2004). Engaging schools: Fostering high school students' motivation to 
learn. Washington, DC: The National Academies Press.
    17. Rothstein, R. (2004). Class and schools: Using social, 
economic, and educational reform to close the black-white achievement 
gap. New York: Teachers College Press.
    18. Bradshaw, C., Mitchell, M., & Leaf, P. (in press). Examining 
the effects of schoolwide positive behavioral interventions and 
supports on student outcomes: Results from a randomized controlled 
effectiveness trial in elementary schools. Journal of Positive Behavior 
Interventions.
    19. Osher, D., Dwyer, K., & Jackson, S. (2004). Safe, Supportive, 
and Successful Schools Step by Step, Longmont, CO: Sopris West.
    20. Sebring, P.G., Allensworth, E., Bryk, A.S., Easton, J.Q., 
Luppescu, S. (2006, September). The essential supports for school 
improvement. Chicago: Consortium on Chicago School Research at the 
University of Chicago.
    21. Scott, C. & Kober, N (2009). Improving low-performing schools: 
Lessons from 5 years of studying school restructuring under No Child 
Left Behind. Washington, DC: Center on Education Policy.
    22. Aladjem, D.K., Birman, B.F., Harr-Robins, J., and Parrish, T.B. 
(2010). Achieving Dramatic School Improvement: An Exploratory Study. 
Washington, DC: U.S. Department of Education, Office of Planning, 
Evaluation and Policy Development, Policy and Program Studies Service
    23. Birman, B., Le Floch, K., Klekotka, A., Ludwig, M, Taylor, J., 
Walters, K., Wayne, A., & Yoon, K. (2007). State and local 
implementation of the No Child Left Behind Act--Teacher quality under 
NCLB: Interim report. Washington, DC: U.S. Department of Education
    24. Le Floch, K., Boyle, A., Therriault, S., & Holzman, B. (2008) 
Help wanted: State capacity for school improvement. AIR Research Brief. 
Washington DC: American Institutes for Research.
    25. Mintrop, H., & Trujillo, T. (2005). Corrective Action in low-
performing schools: Lesson from NCLB implementation from State and 
district strategies in first-generation accountability systems. Paper 
presented at the annual meeting of the American Educational Research 
Association, Montreal, Canada.
    26. In over 20 presentations on the Turnaround Practice Guide, to 
audiences of 30 to 100+ teachers, principals, districts administrators, 
and State policymakers, these findings were consistently affirmed by 
meeting participants.

    [Whereupon, at 4:49 p.m., the hearing was adjourned.]


</pre></body></html>
